1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 14-9003
UNITED STATES OF AMERICA
v.
KABONI SAVAGE
a/k/a Joseph Amill,
a/k/a Bonnie,
a/k/a Usef Billa,
agent of Dirt,
agent of Bighead,
Appellant
On Appeal from United States District Court
for the Eastern District of Pennsylvania
District Court No. 2-07-cr-00550-003
District Judge: The Honorable R. Barclay Surrick
Argued January 7, 2020
Before: SMITH, Chief Judge, JORDAN, and
FUENTES, Circuit Judges
(Filed: August 11, 2020)

2a
David E. Troyer
Robert A. Zauzmer
[ARGUED]
Office of United States Atorney
615 Chestnut Street
Suite 1250
Philadelphia, PA 19106
Counsel for Appellee
Madeline S. Cohen
1942 Broadway
Suite 314
Boulder, CO 80302
Barry J. Fisher
Office of Federal Public Defender
39 North Pearl Street
5th Floor
Albany, NY 12207
Lawrence S. Lustberg
[ARGUED]
Gibbons
One Gateway Center
Newark, NJ 07102
Counsel for Appellant
Geoffrey M. Wyatt
Skadden Arps Slate Meagher & Flom
1440 New York Avenue, N.W.
Washington, DC 20005
Counsel for Amicus Appellant
OPINION OF THE COURT
SMITH, Chief Judge.

3a
[Table of Contents omitted]
I.

INTRODUCTION

Kaboni Savage led a regional drug trafficking operation in North Philadelphia referred to at trial as
the Kaboni Savage Organization (KSO). The KSO distributed large quantities of controlled substances and,
not surprisingly, fiercely protected its network and
territory through the use of guns and violence.
Threats to the organization, whether perceived or
real, were quickly tamped down or extinguished.
Early in the KSO’s operation, Savage took care of such
threats himself, but as his power grew, his enforcers
did his bidding without question.
Even while detained on criminal charges, Savage
continued to manage the affairs of the KSO from his
prison cell. He led by retaliating against those who
dared to cooperate with government agents and prosecutors. What makes this case stand out is that Savage not only arranged for the murder of the prosecution’s main witness in a murder case; in a later case,
he orchestrated the firebombing of the family home of
another cooperating witness in a fashion that ensured
no one would survive. Eventually, Savage was
charged with, inter alia, a dozen counts of murder in
aid of racketeering, among other serious offenses. The
Government sought the death penalty.
This appeal follows the jury’s guilty verdict on all
charges and the imposition of a sentence of death. For
the reasons that follow, we will affirm.

4a
II.

FACTUAL BACKGROUND

Savage began his career in illegal drug trafficking
by selling for others. By the early 1990s, he was peddling phencyclidine (PCP) on his own, operating predominantly out of his mother’s house on Darien Street
in North Philadelphia. Before long, he was a distributor selling PCP in various forms, as well as marijuana. He utilized numerous dealers who controlled
drug corners in the vicinity of Erie Avenue in North
Philadelphia. For a time, he was in a partnership distributing crack cocaine. But by the late 1990s, Savage
had come into his own. He was “running everything,”
A17:8749,1 dealing in “more than five, six, seven kilos” of cocaine at a time. A17:8759.
As his cocaine sales increased, Savage began to dilute the drug and then recompress it to increase the
quantity. His profit margin rose accordingly. In the
early 2000s, Savage’s “right-hand man” was Eugene
Coleman. A21:10960–61. Coleman helped distribute
cocaine to various individuals in the “family”—Savage’s distribution network—and also handled proceeds from the drug sales. A17:8728, 8764. Savage’s
inner circle included “enforcers” who carried out Savage’s commands without hesitation. Among the enforcers were Kareem Bluntly and Lamont Lewis. Although loyal to Savage for a time, Coleman and Lewis
eventually cooperated with the Government prior to
their respective guilty pleas in February 2004 and

The citation to A:17:8749 indicates that the quotation is from
the Appendix, Volume 17, Page 8749.

1

5a
April 2011. Both testified at Savage’s trial about the
operations of the KSO and its use of violence.
And that violence was often deadly. For example,
in March 1998, when Savage was in the vicinity of
competitor Tybius Flowers’s drug corner, a driver by
the name of Kenneth Lassiter accidentally bumped
into Savage’s car. A confrontation ensued and Savage
demanded that Lassiter pay for the damage. Despite
Lassiter’s apology, Savage “pulled a gun out . . . and
shot him once.” A13:6461. Lassiter died from the gunshot wound. Flowers witnessed the murder.
More violence followed. Mansur Abdullah belonged to the Savage “family,” and he and Savage
would supply each other with cocaine. It was Savage
who first taught Abdullah how to dilute and recompress cocaine, which eventually raised the suspicion
in Savage’s mind that Abdullah was overcharging
him. In September 2000, Abdullah visited Savage to
collect a debt. Savage paid him with cash placed in a
red sneaker box. He then directed Kareem Bluntly to
accompany Abdullah back to his home, ostensibly to
provide protection because of robberies that had recently taken place. Bluntly was armed. Coleman was
directed to pick up Bluntly soon afterward. When
Coleman and Bluntly returned a half-hour later,
Bluntly handed Savage the red sneaker box with the
cash still inside. Although Bluntly had carried out the
instruction to shoot Abdullah, he was unsure if Abdullah was actually dead. Savage instructed Coleman
to find out. Coleman followed orders and later confirmed that he saw Abdullah “keeled over” in his car.
A17:8823. Philadelphia’s assistant medical examiner

6a
determined that the cause of death was multiple gunshot wounds to the head, chest and abdomen.
Carlton Brown was another victim of multiple
gunshot wounds to the head and chest. Although
Brown was a member of the Savage family, Savage
suspected Brown of killing Savage’s good friend
Ronald Walston. Savage instructed Lewis that “he
ha[d] to do it,” which Lewis understood to mean he
had to kill Brown. A21:10923. Lewis obeyed, and
Brown died.
Lewis also killed Barry Parker at Savage’s direction. It appeared Parker was attempting to take over
Steven Northington’s drug corner, so Northington
complained to Savage, his supplier. Savage replied to
Northington that “[n]obody come and take nothing.
You have to handle your business. This is what we
do.” A17:8850. On February 26, 2003, at Savage’s
command, Lewis left Savage’s house with Northington, who identified Parker at the drug corner. Lewis
then eliminated Northington’s competition by shooting Parker several times in the chest. Clearly Savage
did not hesitate to protect his organization by killing
those who threatened to interfere with his distribution network.
He also had no qualms about murdering those he
believed were cooperating with law enforcement. In
March of 2003, Savage suspected that Tyrone Toliver,
Coleman’s friend, was a “snitch.” A17:8873. When
Toliver had difficulty filling a cocaine order, he looked
to Savage to supply him. Although Savage did not
have cocaine available, he agreed to help and directed
Coleman to take Toliver to Coleman’s apartment

7a
where the organization regularly recompressed cocaine. Bluntly arrived at the apartment shortly thereafter. To Coleman’s surprise, Bluntly shot Toliver in
the head. At Savage’s direction, Bluntly and Coleman
disposed of the body.
In addition to the benefit of eliminating someone
Savage thought was a snitch, the Toliver murder allowed Savage “to put some dirt on” Coleman.
A21:10959. Coleman knew a lot about the KSO’s operations, and “everybody thought [Coleman] was
weak and if he got into some trouble, he would tell.”
A21:10960.
Around this same time, in a further effort to assure the loyalty of those closest to him and to thwart
any thoughts his allies might have of cooperating with
law enforcement, Savage, along with Lewis and two
other high-ranking members of the KSO, made a pact.
In short, the men agreed that if any one of them cooperated with law enforcement, “our mothers’ lives
would be in danger.” A21:10960. Although Coleman
was not present when the deadly pact was made, Savage made sure that Coleman learned of it.
In 2004, Savage was prosecuted for Lassiter’s
murder. While jailed awaiting trial, Savage continued
to intimidate and threaten others with retaliation if
he suspected they were working with the Government. First, Savage set his sights on eyewitness
Tybius Flowers, the prosecution’s main witness. Savage told Lewis, who was also in jail, that he was not
worried because Flowers “would never make it to
court.” A21:10915. Savage made similar remarks to
another prisoner. Savage’s prophecy came true when

8a
Flowers was killed in a shower of bullets as he sat in
his car outside of his aunt’s house the night before
trial. While there were no eyewitnesses, Northington
later told a fellow prisoner of his disdain for snitches
and disclosed that “he [had] slumped [Flowers] and
sent him to rat heaven.” A23:11738–40. Savage, too,
revealed he had played a part in Flowers’s murder,
advising the same fellow prisoner that he had
“spanked the case” and would be released soon.
A23:11831.
Savage’s brutal efforts paid off. Lacking Flowers’s
testimony, the prosecution foundered and Savage was
acquitted of Lassiter’s murder. He was released from
Philadelphia County prison on April 8, 2004. But
within a week, federal authorities arrested him on
drug trafficking and other charges.2 Even while detained, Savage continued to direct the KSO’s operations from his jail cell. He was enraged that Coleman,
who was also in jail, was assisting the prosecution.
Coleman received threats from other inmates who
had connections to the KSO. While in the visiting
room of the prison, Coleman saw Savage’s sister,
Kidada Savage. She encouraged him not to “let these
crackers break you.” A18:8938. Kidada later wrote to
Coleman, encouraging him not to reveal anything to
federal agents, closing her letter with the statement:
A jury ultimately convicted Savage in December 2005 of 14 federal counts related to charges stemming from his role in the
KSO, including conspiracy to distribute cocaine, money laundering, firearm offenses, and threatening to retaliate against witnesses. On April 27, 2006, he was sentenced to thirty years’ imprisonment. We affirmed the conviction and sentence. See
United States v. Walker, 392 F. App’x 919, 921 (3d Cir. 2010).

2

9a
“Death before Dishonor (to your family).” A18:8946.
Coleman understood that parenthetical to threaten
his personal family, not members of the KSO. Later,
when Coleman was in a holding cell in the federal
courthouse, Savage and one of his associates were
placed in an adjacent cell. Immediately, Savage spoke
of killing the “rats” and told Coleman that his family
should die as well. A18:8953–54.
By this time, Savage had instructed Kidada to
have Lewis firebomb Coleman’s family home in retaliation for Coleman’s cooperation with the Government. In a telephone call from prison on the evening
of October 8, 2004, Savage spoke with both Kidada
and Lewis. Lewis agreed to do anything Savage ordered, even if it meant “kill[ing] somebody for him.”
A21:10981. After the call concluded, Kidada relayed
to Lewis the directive from Savage to firebomb the
Coleman house. She instructed Lewis to torch the
home late that night when “everybody”—Coleman’s
mother and brother—would be there. A21:10986.
Kidada drove Lewis to the block where Coleman lived
and “pointed out the house.” A21:10988. She also informed him that guns and a pit bull may be inside.
Lewis told Kidada that his cousin, Robert “BJ” Merritt, would help him. Kidada promised Lewis $5000
for doing the job.
Around 4:00 a.m. the following morning, Lewis
and Merritt took two cans filled with gasoline to Coleman’s house. Lewis kicked in the door and fired his
gun twice. Merritt lit and threw both cans into the
house, causing an explosion. Fire then ravaged the
structure, resulting in the deaths of all six occupants:
Coleman’s mother, Marcella Coleman; his infant son,

10a
Damir Jenkins; his twin-brother’s fifteen-year-old
son, Sean Rodriguez; his sister Regina Nash’s twelveyear-old son, Tajh Porchea; his cousin, Tameka Nash
(whom Coleman regarded as a sister); and Tameka’s
ten-year-old daughter, Khadijah Nash.
Acting on Kidada’s instruction, Lewis called her
and left a message that Savage’s order had been carried out. It was not until later that Lewis learned that
four children had died in the fire. When Lewis confronted Kidada about the children in the house,
Kidada responded to Lewis, “F*** ’em.” A21:11006.
Kidada paid Lewis only part of the $5000 he had been
promised. Merritt received a used car and $500.
Subsequent recordings of prison conversations between Savage and others demonstrated his complicity
in the Coleman firebombing. They also revealed Savage’s great satisfaction that the killings had taken
place, and the intercepted conversations revealed
plans to kill yet other witnesses and their families.
Savage’s continued threats were troubling enough
that in February 2007, the United States Attorney
General authorized the Bureau of Prisons to impose
Special Administrative Measures (SAMs) restricting
Savage’s communications with others, including his
family. See 28 C.F.R. § 501.3. In April 2009, an indictment in this case was returned naming Savage, Lamont Lewis, Robert Merritt and Steven Northington
as defendants. United States v. Savage, No. 2:07-cr550, ECF 51 (E.D. Pa. Apr. 8, 2009).

11a
III.

PROCEDURAL HISTORY

The Fourth Superseding Indictment was later
filed in May 2012 against Savage, Merritt, Northington and Savage’s sister, Kidada Savage. By the time
of trial,3 the charges against Savage were as follows:
•
•

•
•

•

one count of conspiracy to participate in a racketeering (RICO4) enterprise, 18 U.S.C. §
1962(d);
twelve counts of violent crime in aid of racketeering (VICAR) murder, § 1959(a)(1), for the
Lassiter, Abdullah, Brown, Parker, Toliver,
Flowers, and six arson murders;
one count of VICAR conspiracy to commit murder, § 1959(a)(5), for the conspiracy to commit
the arson murders;
one count of retaliating against a witness, §
1513, for the arson murders in retaliation for
Eugene Coleman’s testimony and other cooperation; and
one count of using fire to commit a felony, §
844(h)(1), for the fire used to commit VICAR
murder at the Coleman house.

Shortly after Savage was indicted in 2009, the District Court appointed Christopher Warren as counsel
of record. Because the charges carried a maximum
penalty of death, the District Court also appointed
Timothy Sullivan as learned capital-qualified counsel
Before trial, the District Court dismissed a witness tampering
count under 18 U.S.C. § 1512(a)(1)(A).

3

Racketeer Influenced and Corrupt Organizations Act, 18 U.S.C.
§§ 1961-68.

4

12a
pursuant to 18 U.S.C. § 3005.5 Savage sought a replacement for Warren, so in 2010 the District Court
appointed Christian Hoey and allowed Warren to
withdraw. Sullivan’s conditional appointment as a
federal magistrate judge spurred further substitution. In November 2012, the District Court granted
Savage’s motion to appoint additional learned counsel, appointing William Purpura. The District Court
then allowed Sullivan and his associate to withdraw
in December 2012. At trial, Hoey and Purpura acted
as counsel of record.
The Government provided pretrial notice of its intent to seek the death penalty for the VICAR murder
and witness retaliation counts,6 as required by 18
U.S.C. § 3593(a). The District Court rebuffed Savage’s
attempts to strike the notice.
The extensive pretrial proceedings also addressed
the composition of the jury. The District Court rejected defense efforts to limit potential jurors to residents of Philadelphia County and to expand the
source of potential jurors beyond voter registration
lists.
Hundreds responded to the summons to jury service and filled out questionnaires at the District
The District Court later allowed Sullivan’s associate, Brett
Cook, to join the defense team.

5

When retaliation against a witness consists of killing a person,
as in this case, the punishment is that associated with murder
and manslaughter. 18 U.S.C. § 1513(a)(1), (2)(A); see also §
1513(c) (addressing maximum term of imprisonment for retaliation based on attendance at or testimony in criminal case).

6

13a
Court’s instruction. The District Court and counsel
questioned potential jurors during voir dire proceedings that began on November 5, 2012. After thirty
days of voir dire, jury selection concluded. The panel
was composed of ten white jurors, two black jurors
and six alternates—five white and one black. Although Savage interposed Batson challenges to the exclusion of certain black jurors, the District Court determined that the Government exercised its peremptory strikes on a race-neutral basis.
Trial began on February 4, 2013. The Government’s case featured more than seventy witnesses,
over a thousand exhibits and many recordings of intercepted conversations. On the fifty-fifth day of trial,
the jury returned a verdict finding Savage guilty of all
counts. At the conclusion of the guilt phase, the District Court placed the jurors in recess for seven days
(extended an eighth day), after which the penalty
phase commenced.
The capital sentencing hearing, conducted pursuant to 18 U.S.C. § 3593(b) before the same jury, took
seven days. The jury was presented with evidence of
both aggravating and mitigating factors under § 3592,
and on May 31, 2013, it unanimously voted that Savage be sentenced to death on each of the thirteen eligible counts, pursuant to §§ 3591(a)(2) and 3593(e).
On June 3, 2013, the District Judge formally pronounced a sentence of death on each eligible count:
twelve VICAR murders plus witness retaliation. Savage was also sentenced to life imprisonment for the
racketeering conspiracy, as well as two ten-year
terms of imprisonment for the VICAR conspiracy and

14a
the use of fire to commit a felony. The District Court
waived a $1600 special assessment as to all counts.
After sentencing, Savage moved for a judgment of
acquittal under Federal Rule of Criminal Procedure
29, a new trial under Rule 33 and arrest of judgment
under Rule 34. The District Court denied those requests in September 2014.
Savage timely appealed from final judgment and
the denial of his new-trial motion.7 Although he raises
a host of issues on appeal, he does not challenge the
sufficiency of the evidence for any of the crimes of conviction.
IV.

IF

ANY GAPS EXIST IN THE RECORD, THEY DO

NOT ENTITLE SAVAGE TO RELIEF.

We first address Savage’s most foundational claim
of error, an error which he contends prevented him
from proving that he preserved certain issues while
also eclipsing his ability to spot and raise other issues.
Despite the vast appellate record before us—over
eighteen thousand pages spanning more than thirtyfour volumes—Savage contends he lacks access to “at
least 50 letters, e-mails, and other undocketed written communications that the district court exchanged
with the parties.” Def. Br. 339. He also claims the record omits “at least 50 unrecorded” oral communications involving the District Court, including sidebars,
in-chambers charge conferences to hammer out jury
instructions, and conversations between the District
The District Court had jurisdiction over the federal charges
against Savage pursuant to 18 U.S.C. § 3231. We have jurisdiction under 28 U.S.C. § 1291.

7

15a
Court and jurors where counsel was not present. Id.
Savage argues these alleged omissions violate the
Constitution, the Federal Death Penalty Act and the
Court Reporter Act. But “the real centerpiece of [his]
argument” is Federal Rule of Appellate Procedure 10.
Oral Argument Tr. 126:20–24.
Rule 10 provides appellants a way to reconstruct
missing portions of an appellate record. And though
we have previously granted a new trial when an incomplete record prejudiced an appellant, see Simmons
v. Beyer, 44 F.3d 1160, 1168-69 (3d Cir. 1995), we
have always required appellants to attempt Rule 10
reconstruction before seeking relief. See, e.g., Roberts
v. Ferman, 826 F.3d 117, 125 (3d Cir. 2016).
Yet Savage attempts to skirt that prerequisite. He
argues that before forcing him to undertake Rule 10
reconstruction, we should permit him to take wideranging discovery from the District Court—including
searching the District Judge’s files for any undocketed written communications and scouring his personal notes for insight into any untranscribed oral
communications. Alternatively, Savage contends the
District Court’s refusal to submit to that examination
entitles him (at least) to a presumption that the defense properly preserved all issues or (at most) to a
new trial.
Quite simply, Savage overreaches. The record in
its existing form enables us to decide his appeal consistent with precepts of fundamental fairness and
with our obligation under the Federal Death Penalty
Act to “review the entire record.” 18 U.S.C. § 3595(b).
If indeed gaps exist—and the Government argues

16a
there are none—Savage’s failure to pursue Rule 10 reconstruction forecloses relief.
*

*

*

We can easily dispatch Savage’s constitutional
claim. Although due process demands a record “sufficiently complete” to facilitate “an adequate review of
[the defendant’s] conviction . . . . neither the Supreme
Court, nor our Court, has held that due process requires a verbatim transcript of the entire proceedings
or that an incomplete record confers automatic entitlement to relief.” Fahy v. Horn, 516 F.3d 169, 190 (3d
Cir. 2008). That’s hardly surprising, since at the time
of the Founding and for generations thereafter, contemporaneous (let alone verbatim) accounts of trial
proceedings in federal court were the exception and
not the norm. See Oswald M. T. Ratteray, Verbatim
Reporting Comes of Age, 56 Judicature 368, 368–69,
373 (1973); see also Miller v. United States, 317 U.S.
192, 198–99 (1942).8 We decline to graft what is a relatively modern development onto the Due Process
Clause or any other constitutional guarantee. The
Constitution does not require an all-encompassing
trial record to identify issues for appeal.

Indeed, incomplete transcription remained common in some
state courts until relatively recently. See Oliver v. Zimmerman,
720 F.2d 766, 768 (3d Cir. 1983) (“The general trial practice in
Pennsylvania is that only testimony of witnesses and statements
of the court are transcribed as of course. Opening and closing
speeches are not transcribed unless requested by counsel, but
any objection lodged during the course of such speeches is transcribed together with the judge’s ruling thereon.”).
8

17a
The same goes for Savage’s Federal Death Penalty
Act claim. As he points out, § 3595(b) obliges us to “review the entire record” in capital cases. But that subsection also specifies a minimum set of contents the
“record” must include:
1. “the evidence submitted during the trial”;
2. “the information submitted during the sentencing hearing”;
3. “the procedures employed in the sentencing
hearing”; and
4. “the special findings returned” as to aggravating and mitigating factors.
Id.; cf. Gardner v. Florida, 430 U.S. 349, 361 (1977)
(“[I]t is important that the record on appeal disclose
to the reviewing court the considerations which motivated the death sentence in every case in which it is
imposed.”). Savage does not dispute either that the
current record clears these statutory minima or that
it adequately discloses why he received the death penalty.
Nor does Savage explain why, even if our § 3595(b)
obligation extends beyond the four discrete categories
we have enumerated, it stretches so far as to cover the
items he claims are missing. At most, we think our
obligation to “review the entire record” is cabined by
Rule 10(a), which defines “the record on appeal” as
“the original papers and exhibits filed in the district
court; the transcript of proceedings, if any; and a certified copy of the docket entries prepared by the district clerk.” In other words, § 3595(b) does not reach

18a
the untranscribed conversations and many9 of the unfiled writings Savage claims are missing here. Indeed,
for those communications (or their reconstructions) to
have become part of the “record on appeal,” Savage
needed to move to supplement the record. Cf. United
States v. Moreno, 857 F.3d 723, 727 (5th Cir. 2017).
He did not, so there is no Federal Death Penalty Act
violation.
That leaves his Court Reporter Act claim, which—
as Savage acknowledged at oral argument—applies
only to any untranscribed oral communications. The
Court Reporter Act requires “[e]ach session of the
court” to be “recorded verbatim,” including “all proceedings in criminal cases had in open court.” 28
U.S.C. § 753(b). Though the Act does not prescribe a
remedy for violations, courts have awarded relief up
Insofar as any of the writings Savage identifies could be considered “original papers and exhibits filed in the district court,”
he has failed to adequately demonstrate any non-speculative
prejudice from the absence of those writings on appeal. Relatedly, Savage has not articulated how the purportedly missing
items could or would give rise to “any difference[s] . . . about
whether the record truly discloses what occurred in the district
court,” and, indeed, failed to have any such differences settled by
the District Court, as is his obligation. Fed. R. App. P. 10(e)(1).
Neither Rule 10(a) nor § 3595(b), to the extent that statute incorporates Rule 10(a), provides an appellant relief in such circumstances. See United States v. Smart, 448 F.2d 931, 936 (2d
Cir. 1971) (“The missing documents would appear to have no significance to the issues which could be advanced on appeal. Those
records necessary for prosecution of the appeal—the minutes of
the trial and the minutes of the suppression hearing—are intact
and were available to [the appellant] and his appellate counsel.
[The appellant] has failed to show any prejudice to his right to
appeal resulting from the missing documents.”).

9

19a
to a new trial. E.g., Simmons, 44 F.3d at 1168–69; see
United States v. Sussman, 709 F.3d 155, 170–72 (3d
Cir. 2013); see also United States v. Kelly, 167 F.3d
436, 438 (8th Cir. 1999) (collecting cases).
Litigants typically seek relief under the Court Reporter Act when an unanticipated technical malfunction, human error or natural disaster renders transcripts of proceedings unavailable. See, e.g., Kelly, 167
F.3d at 437 (recording and notes destroyed in a fire
before they could be transcribed); United States v.
Brand, 80 F.3d 560, 562 (1st Cir. 1996) (transcripts
“permanently lost”); United States v. Sierra, 981 F.2d
123, 125 (3d Cir. 1992) (court-reporting system malfunctioned); United States v. Antoine, 906 F.2d 1379,
1380 (9th Cir. 1990) (court reporter “unable to locate
her trial notes and tapes”); United States v. PreciadoCordobas, 981 F.2d 1206, 1209 (11th Cir. 1993) (transcription unavailable because of a “defective ribbon in
the stenotype machine used . . . to take down the proceedings” and since the “backup” “tape recording” “either could not be found or was unintelligible”); United
States v. Selva, 559 F.2d 1303, 1304–05 (5th Cir.
1977) (court reporter’s tape recorder malfunctioned).
But a few courts have concluded that “[t]he duty to
comply with” the Court Reporter Act “lies with the
court, not the parties,” and they have granted relief
when a district court held off-the-record sidebars—
something Savage claims occurred in this case.
United States v. Nolan, 910 F.2d 1553, 1560 (7th Cir.
1990); see also, e.g., United States v. Haber, 251 F.3d
881, 889–90 (10th Cir. 2001); United States v. Gallo,
763 F.2d 1504, 1529–30 (6th Cir. 1985); United States
v. Garner, 581 F.2d 481, 488–89 (5th Cir. 1978); see

20a
also Sierra, 981 F.2d at 127 (“The Court Reporter Act
applies to all proceedings in open court, which includes sidebar conferences.”).
At the outset, we question whether Savage appropriately invokes the Court Reporter Act for the first
time on appeal. To be sure, remanding a case for record reconstruction or a new trial over a Court Reporter Act violation makes some sense when a conversation everyone thought was being recorded evades
transcription because of an unforeseeable circumstance. In such a case, no one could have known to
raise the Court Reporter Act in the District Court. Yet
granting Savage’s request for relief under the Court
Reporter Act—raised now for the first time—makes
far less sense. His trial counsel apparently knew the
un-transcribed conversations were not being recorded
and thus arguably “waive[d] an objection to the
court’s failure to comply with § 753(b) . . . by acquiescing in the court’s procedure.” Nolan, 910 F.2d at 1560;
see also Gallo, 763 F.2d at 1531; cf. Garner, 581 F.2d
at 488 & n.4. But even were we to excuse Savage’s
failure to object at trial, his Court Reporter Act claim
still fails on its merits. We cannot excuse Savage’s
failure to pursue Rule 10 reconstruction.
Only when a defendant shows a “colorable need”
for the missing transcripts will we grant Court Reporter Act relief. Fahy, 516 F.3d at 190 (quoting Karabin v. Petsock, 758 F.2d 966, 969 (3d Cir. 1985)). To
show a colorable need, a defendant must do two
things. First, a defendant must make “a specific showing of prejudice.” Sierra, 981 F.2d at 125. In other
words, a defendant must particularly assert what the
missing record would show and why it would justify

21a
relief. See id. at 127. Second, a defendant must explain why Rule 10(c)’s record-reconstruction procedure cannot cure the prejudice. See Roberts, 826 F.3d
at 124–25 (collecting cases).10

10 Every circuit to consider this issue has agreed that an appellant must specifically show prejudice and explain why Rule 10
reconstruction won’t work before obtaining Court Reporter Act
relief. See Kelly, 167 F.3d at 438 (collecting cases). That said, the
Fifth Circuit has relaxed those requirements when an appellant
has new counsel on appeal and the alleged omission is “substantial and significant.” Selva, 559 F.2d at 1306. (The Eleventh Circuit follows that rule as binding precedent, since it predates 1981
legislation splitting the original Fifth Circuit into the presentday Fifth and Eleventh Circuits. See Preciado-Cordobas, 981
F.2d at 1212.) Savage tries to engraft that partial exception onto
our caselaw, but we have already refused. See Sierra, 981 F.2d
at 126 (noting “[t]he Selva approach has not been widely followed” and explaining how it perversely incentivizes “defendant[s] to dismiss trial counsel and seek appointment of new
counsel on appeal”); see also Haber, 251 F.3d at 889–90.

What’s more, even under the Fifth and Eleventh Circuits’
standard, Savage still would not obtain relief: the omissions he
alleges don’t qualify as “substantial and significant.” Whether a
gap counts as substantial and significant in those courts “depends upon the likelihood that error which could be pursued on
appeal occurred during those parts of the trial for which we do
not have a verbatim transcript, and which the reconstruction
does not allow us to review.” Preciado-Cordobas, 981 F.2d at
1214. In practical terms, gaps relating to “indispensable part[s]
of the proceedings, both in terms of time spent and potential influence on the outcome,” might justify reversal. Id. But “[m]ere
speculation, entirely unsupported or contradicted by the record,
that error may have been committed during an unrecorded part
of the trial simply is not enough to support a finding that omissions are substantial and significant.” Id. The latter aptly describes Savage’s approach here. Savage does not dispute that we

22a
Savage comes closest to alleging prejudice by speculating that a more complete record might show that
he preserved objections to various legal issues we
must otherwise review under the heightened plain-error standard applicable to unpreserved error. We address standard-of-review issues as we encounter them
in the following Parts. To resolve his Court Reporter
Act claim, we need only note that Savage has never
formally sought to reconstruct any untranscribed conversation—even though Rule 10 “provides a specific
mechanism by which the parties can have [a] dispute
over the contents of the trial court record resolved,
and clearly places the responsibility for initially creating the record on the appellant.” Roberts, 826 F.3d
at 123.
Savage argues it would be futile to pursue Rule 10
reconstruction since his attorneys on appeal did not
participate in his trial and therefore cannot be expected to know what went on in the untranscribed
conferences. But Rule 10 provides for that eventuality: a defendant may submit a declaration saying he
does not remember what happened, passing the ball
to the government to document its recollection and
giving the defendant a chance to object before allowing the District Judge to resolve any remaining discrepancies in accordance with the provided documentation and with any notes he has retained and his own
recollections. At least one court of appeals has ap-

know what happened during the most critical trial stages. Rather, he seeks a new trial because we don’t know what happened
in some sidebar and in-chambers conferences.

23a
proved that very procedure under similar circumstances. See United States v. Wilson, 16 F.3d 1027,
1029 (9th Cir. 1994).
That reasoning also thwarts Savage’s stunning request for discovery of the District Court’s files, the
District Judge’s personal notes, and the work-product
of every lawyer involved in the case. Of course, the
District Judge may rely on his notes and recollection
in certifying a reconstruction’s accuracy—just as
prosecutors may rely on their notes and recollections
to rebut an appellant’s initial reconstruction. But it
does not follow that Savage can discover everyone
else’s notes or recollections. Savage cites no rule entitling him to such discovery, and we will not create
one. Nor will we wade into the thorny privilege questions and perverse incentives that such a rule would
surely precipitate.
In short, Rule 10’s text puts the ball in Savage’s
court. The Rule and our caselaw require a collaborative reconstruction effort that includes opposing counsel and the District Judge. But it starts with the appellant. Otherwise, an appellant could “manufacture
his own disputes, attribute legal significance to them,
and then claim that they only can be resolved by an
examination of testimony that is unavailable.” Sussman, 709 F.3d at 172. That appears to be what Savage
attempts here, and it is an approach we will not countenance.
*

*

*

We close this Part with three observations from
our supervisory perch as a Court of Appeals, and from
our shared perspective as three former trial judges.

24a
First, the record omissions Savage most often rehashes include the two untranscribed charge conferences (one during the guilt phase and one during the
penalty phase), plus “extensive[]” undocketed emails
swapping proposed jury instructions (which we view
as a “virtual” charge conference). Def. Br. 344. To the
extent Savage claims that this constitutes legal error,
neither Federal Rule of Criminal Procedure 30 nor the
Court Reporter Act require on-the-record charge conferences. Still, and even though off-the-record charge
conferences routinely occur in the Eastern District of
Pennsylvania (and elsewhere), we observe that the
practice does have the potential to allow a legal error
to go unnoticed and uncorrected. Relative to the costs
of an entire criminal prosecution—especially a fouryear, multidefendant capital case like this one—there
seems little expense saved or convenience gained by a
charge conference conducted without a court reporter
present.
Second, when it comes to making motions and preserving objections, the obligation rests with rial counsel to ensure the record reflects all motions or objections. Deciding to raise or to forgo a potentially meritorious objection often entails balancing fraught—and
sometimes countervailing—considerations, both tactical and strategic. We will not bless a result where
any potential record gap empowers creative counsel
to resuscitate a waived objection on appeal.
Third, Savage credibly alleges that the District
Court twice talked to the jury without counsel or a
court reporter present. We know about the first conversation because the transcript from the last day of
the Government’s guilt-phase case reveals that the

25a
District Judge advised counsel, after the Government
rested: “I’m going to go back and talk to the jury and
tell them what we’re doing, the fact that we’re not going to be back until next Monday.” A25:13393–94; see
also id. at 13406 (“Ladies and gentlemen, at this point
we’re going to recess, and let you go back to get some
lunch. It’s 12 o’clock. I understand lunch is on its way
up. I will come back and talk to you briefly to advise
you of the schedule that we are going to be operating
from here on. Okay?”). But the actual discussion was
not transcribed, and we are unaware of its being restated on the record later.
We know about the second conversation because,
in a break during the various closing arguments, an
attorney brought up a “housekeeping matter”: “I believe the Court yesterday was going to talk to the jury
about whether or not they are available tomorrow or
not.” The District Judge responded, “They will be here
tomorrow if—I told them also tomorrow if I can
charge—if I can begin charging the Jury in the morning, first thing, then we will do that and let them deliberate. However, if closings—if closing statements
are still going on tomorrow morning, we are going to
recess until Monday and let them come back on Monday for the charge.” A28:14848. Here too, this afterthe-fact summary is the only information we have
about the judge–jury exchange.
Though we cannot know exactly what was said,
what we do know assures us that the conversations
were entirely scheduling-related. That said, we further stress the advisability of having counsel present
for all interactions between the court and jurors, and

26a
our preference that such interactions be transcribed.
See also Gallo, 763 F.2d at 1529 n.37.
V.

THE DISTRICT COURT DID NOT ERR BY SUBSTITUTING COUNSEL.

Savage claims that he was denied his Sixth
Amendment right to counsel because the District
Court waited until four days before voir dire began to
substitute new lead counsel. We conclude that the
District Court’s substitution constituted neither
structural nor trial error.11
A. Background
On June 23, 2009, the District Court appointed
Timothy Sullivan to represent Savage as learned capital-qualified counsel. Christian Hoey was appointed
to represent Savage alongside Sullivan on February
19, 2010. In January 2011, Sullivan was appointed as
a U.S. Magistrate Judge, but because this appointment was contingent on the current incumbent of that
magistrate judgeship being confirmed as a district
court judge, there remained uncertainty as to if and
when Sullivan would assume his new office. While the
record does not make clear when Sullivan first
brought this issue to the District Court’s attention, it
does contain representations that Sullivan advised
the District Court of his pending appointment as early
as January 2011.

11 We leave for a future date the question of whether a structural
error claim is subject to waiver or forfeiture. That said, we are
not persuaded by the Government’s argument that Savage
waived, forfeited or invited any alleged trial error.

27a
The District Court addressed the issue of Sullivan’s pending appointment during a June 2012 hearing. Soon afterward, on June 19, 2012, Sullivan submitted a letter to the District Court proposing the appointment of William Purpura as additional learned
capital-qualified counsel.12 The letter explained that
[i]f circumstances warrant, and Mr. Sullivan
seeks leave to withdraw from this case in the
near-future, Mr. Purpura has indicated that he
wishes the Court to be on notice that he might
request a short continuance until October 2012.
This request will only be made if Mr. Purpura
requires additional time to prepare for trial and
for any penalty hearing case. Mr. Purpura is
prepared to meet with the Court to discuss
these matters.
A33:17393. Accompanying the letter was an account
of Mr. Purpura’s considerable capital case experience.
Sullivan followed up with the District Court’s courtroom deputy via email on June 25, 2012, writing, “Mr.
Purpura is anxious to receive word from the Court on
his appointment since each day counts now.” A4:1864.
The record does not reveal a response to Sullivan’s letter and follow-up email.
On either June 24 or July 24, 2012,13 Savage submitted a pro se, ex parte “emergency motion” for appointment of new counsel or to proceed pro se.
12 Around this time, Sullivan’s associate, Brett Cook, also joined
the defense team.

While the motion was dated June 24th, Savage states in the
body of the motion that he is writing on the 24th of July. That
13

28a
A4:1858–63. Savage asserted that the District Court
was “well aware” of Sullivan’s pending appointment,
that Sullivan was “preoccupied” with his appointment, and that Sullivan was “underperforming” in
preparing Savage’s case. Id. at 1858. Savage also
claimed that Sullivan “knows nothing about the basic
facts,” did not visit him unless there was to be a hearing, was “wholly ineffective,” “cares nothing about my
case,” and like Hoey, was a “compulsive liar[].” Id. at
1858–59, 1862. Moreover, Savage alleged that there
were disputes between Sullivan and Hoey resulting
from ineffective communication.
He then requested “concerned dedicated counsel”
to protect his Sixth Amendment rights. Id. at 1858.
Savage closed stating: “If a man/attorney does not
want to be apart [sic] of a defense team, why would I
want him to defend me or why would the court keep
him on my case[?]” Id. at 1862.
On August 10, 2012, the District Court’s courtroom deputy forwarded Savage’s letter to Sullivan,
observing that the letter was received in chambers
and adding simply, “Please advise.” Id. at 1857. The
District Court took no further action with respect to
Savage’s self-styled motion.
Savage, through counsel, moved ex parte for appointment of Purpura as additional learned counsel
on October 16, 2012. This motion explained that Sullivan could be sworn in before the end of the year (at
which time he would immediately assume his duties
said, the District Court did not receive the motion until August
9, 2012.

29a
as a magistrate judge) and that “Mr. Purpura will be
prepared to move forward with the representation of
Mr. Savage under existing [sic] Court’s schedule.”
A33:17390. It also expressed that “[t]he appointment
of Mr. Purpura must occur as soon as possible in order
to permit him sufficient time to familiarize himself
with the discovery, work with Mr. Sullivan and become familiar with the mitigation evidence, the aggravating evidence and for any penalty hearing.” Id.
Counsel further represented that “Mr. Savage has no
objection to Mr. Purpura replacing Mr. Sullivan, if
necessary.” A33:17391.
On November 1, 2012, the District Court held a
hearing to address the motion for appointment of
counsel. Sullivan advised the District Court that he
had discussed the matter with Savage, declaring: “I
believe Mr. Savage is amenable and consents to the
relief that we seek.” A7:3312. The District Court then
confirmed this, asking Savage: “You are satisfied if
this Court were to go ahead and make that appointment; is that correct?” Id. Savage responded, “Yes.”
Id. The District Court then turned to Purpura and
asked if he was “ready to take over representation of
Mr. Savage,” to which Purpura replied:
Your Honor, I cannot represent that I’m ready
to take over the representation of Mr. Savage. I
don’t think the Court would expect me to make
that representation. I have met with Mr. Savage. We met back in June. At that time I know
Mr. Sullivan filed the first motion on this particular issue.

30a
Obviously jury selection starts on Monday. I’ve
talked to Christian Hoey, who seems to know
the case almost as well as Mr. Savage himself,
as far as going through the discovery. So we
have gone through everything there.
Mr. Cook, as well, and Mr. Sullivan, has had
this case in litigation as well as the defense. I
believe that I can add right now a lot to this
team to keep this train on the track and to go
forward at this point. But if the Court is asking
me specifically, if at this very moment could I
step into the shoes of Mr. Sullivan who has been
here for three and a half years, I would have to
honestly tell the Court that that is not possible.
A7:3312–13. Seeking clarification, the District Court
inquired further: “[A]re you satisfied that you can get
yourself up to speed so that this matter is not going to
be delayed?” A7:3313–14. Purpura responded,
Judge, I can tell the Court honestly that I am
experienced in Federal as well as State capital
cases. I would do nothing except this particular
case, whatever amount of time it took me per
day.
Teresa Whalen[14] is a close associate and
friend of mine. I’ve tried capital cases in the
District of Maryland with her, and I know that
she will help bring me up to speed as well as
everybody else. It’s a big team effort.

14 Teresa Whalen was an attorney representing co-defendant
Kidada Savage.

31a
So the answer is yes, I’ll do everything in my
power to be brought up to speed, and I have the
experience to do it. I hope to make Mr. Savage
satisfied of that as well.
A7:3314. The Government did not object to the motion, and after conferring with the local office of the
Federal Public Defender, the District Court recorded
the appointment of Purpura.15
The initial hardship stage of jury selection had already taken place on September 26 and 27, 2012, but
voir dire began on November 5, 2012, less than a week
after Purpura’s oral appointment. Savage then
moved, on December 13, 2012, for the appointment of
additional associate counsel Marta Kahn and Brady
Locher. No order reflecting their appointment appears in the record, however, and neither Kahn nor
Locher appear as counsel of record on the District
Court docket. Nevertheless, the Government avers—
and the record reflects—that Kahn did participate as
additional counsel. Sullivan and Cook moved to withdraw on December 19, 2012, which the District Court
granted.
At no time did either side seek a continuance.
Voir dire concluded on Tuesday, January 29, 2013.
The following Monday, February 4, 2013, the guilt
phase of trial got underway. Although substantial discovery was conducted pretrial, Purpura never told the
Court that he was inadequately prepared or that he
needed more time. The trial concluded more than
15 The District Court entered an order formally appointing Purpura as additional learned counsel on November 16, 2012.

32a
three months later, with the jury returning a guilty
verdict on all charges on May 13, 2013. The proceedings next advanced to the penalty phase, which began
on May 21, 2013. The jury returned a death penalty
verdict on May 31, 2013.
B. Savage did not suffer a constructive denial of counsel: there was no structural error.
The Sixth Amendment guarantees a criminal defendant the right “to have the Assistance of Counsel
for his defense.” U.S. Const. amend. VI. In practice,
this means that constructive denial of the assistance
of counsel requires per se reversal.16 See Perry v.
Leeke, 488 U.S. 272, 280 (1989).
The Supreme Court has held that “it is a denial of
the accused’s constitutional right to a fair trial to force
him to trial with such expedition as to deprive him of
the effective aid and assistance of counsel.” White v.
Ragen, 324 U.S. 760, 764 (1945); see also United
States ex rel. Tillery v. Cavell, 294 F.2d 12, 20 (3d Cir.
16 “In Arizona v. Fulminante, 499 U.S. 279 (1991), the Supreme
Court recognized a distinction between structural defects, which
require reversal, per se, and trial errors, which require a reviewing court to engage in harmless error analysis. Structural defects
are defects in the constitution of the trial mechanism, which defy
analysis by harmless-error standards. A structural defect affect[s] the framework within which the trial proceeds, rather
than simply an error in the trial process itself. Without these
basic protections, a criminal trial cannot reliably serve its function as a vehicle for determination of guilt or innocence, and no
criminal punishment may be regarded as fundamentally fair.”
Lewis v. Pinchak, 348 F.3d 355, 357 (3d Cir. 2003) (internal quotation marks and citations omitted).

33a
1961) (“Effective aid and assistance of counsel is of necessity impossible where counsel is not given reasonable time to consult with the accused and prepare the
case.”). Yet the Court has declined to “fashion a per se
rule requiring reversal of every conviction following
tardy appointment of counsel.” Chambers v. Maroney,
399 U.S. 42, 54 (1970); see also United States v.
Cronic, 466 U.S. 648, 661 (1984) (“[E]very refusal to
postpone a criminal trial will not give rise to [a presumption of prejudice].”).
Instead, courts must look to whether “the surrounding circumstances make it unlikely that the defendant could have received the effective assistance of
counsel.” Cronic, 466 U.S. at 666; see also id. at 659–
60 (circumstances necessitating a per se reversal may
exist “when although counsel is available to assist the
accused during trial, the likelihood that any lawyer,
even a fully competent one, could provide effective assistance is so small that a presumption of prejudice is
appropriate without inquiry into the actual conduct of
the trial”). This question
necessarily involves a comparison of the time of
the appointment with all the attendant circumstances, such as the gravity of the charge, the
experience of appointed counsel, the extent of
his knowledge and participation in similar
cases, his opportunity for preparation and even
what he may have been told by the defendant
which may reduce the area of necessary preparation.
Moore v. United States, 432 F.2d 730, 735 (3d Cir.
1970).

34a
Precedent provides some insight into the circumstances that constitute a constructive denial of counsel requiring per se reversal. In Avery v. Alabama, the
Supreme Court held that there was no denial of counsel where counsel was appointed three days before a
capital trial began. 308 U.S. 444, 453 (1940). The
Court concluded that the defendant was “afforded the
assistance of zealous and earnest counsel” who “contested every step of the way leading to final disposition of the case.” Id. at 450. “That the examination
and preparation of the case, in the time permitted by
the trial judge, had been adequate for counsel to exhaust its every angle is illuminated by the absence of
any indication, on the motion and hearing for new
trial, that they could have done more had additional
time been granted.” Id. at 452.
We similarly held, in Tillery, that per se reversal
was not warranted where an attorney was appointed
to represent a defendant on the day of trial.17 294 F.2d
at 22. There, the attorney had practiced law for fifteen
years, had met with the defendant twice prior to trial,
and had heard his account of the crime. Id. The defendant had also failed to disclose any witness or alibi
requiring investigation. Id. at 20–22. Likewise, in
United States ex rel. Mathis v. Rundle, we held that
the late appointment of counsel did not require per se
reversal where counsel had “a good reputation and
solid credentials” and was able to review a colleague’s
notes from an interview with the defendant, but did
not have time to interview the defendant himself, did
17 As federal capital cases rarely involve a constructive denial of
counsel, we turn to non-capital caselaw for guidance.

35a
not ask for a continuance when witnesses did not appear because he “had no reasonable expectation” that
the witnesses would help, and “was unable to say that
he had been insufficiently prepared to go to trial.” 394
F.2d 748, 752–54 (3d Cir. 1968), overruled on other
grounds by Moore, 432 F.2d 730.
In contrast, the Supreme Court has clearly stated
that trial counsel who merely goes through the motions is really no counsel at all. The Court concluded
in Powell v. Alabama that per se reversal was required since the defendants “were not accorded the
right of counsel in any substantial sense”: the representation provided was “pro forma rather than zealous and active”; “[n]o attempt was made to investigate” and “[n]o opportunity to do so was given”; and
the defendants were instead “hurried to trial.” 287
U.S. 45, 58 (1932).
We similarly held, in United States ex rel. Washington v. Maroney, that the defendant was constructively denied assistance of counsel where counsel was
appointed the day of trial, made no pretrial preparations, consulted with the defendant only briefly in the
back of the courtroom, did not object to the admission
of a possibly coerced confession, and failed to impeach
the key government witness or call any character witnesses on the defendant’s behalf. 428 F.2d 10, 14–15
(3d Cir. 1970); see also Vance v. Lehman, 64 F.3d 119,
122 (3d Cir. 1995) (explaining that the per se rule may
apply where counsel fails to subject the prosecution’s
case to adversarial testing, has little or no legal training, or is prevented from assisting the defendant).

36a
Savage argues that Purpura’s late substitution
constituted a constructive denial of counsel that requires per se reversal. Several facts weigh in favor of
Savage’s claim:
•

•

•

The District Court appointed Purpura only four
days before voir dire began. See Moore, 432
F.2d at 735 (“A belated appointment of counsel
[is] strong evidence in a defendant’s behalf.”).
The guilt-phase trial lasted slightly longer
than the time Purpura had between appointment and trial to prepare. See Washington, 428
F.2d at 14 (“[C]ounsel for an indigent defendant, held in custody, must be appointed by the
court sufficiently far in advance of trial to enable counsel adequately to prepare the defense.”
(internal quotation marks omitted)).
This was a complex death penalty prosecution
involving conduct that extended over more
than a decade and involved twelve murders.
Discovery was substantial, including numerous recordings that would have required significant time to review. See, e.g., A34:18093 (MR.
PURPURA: “We understand the Government
has given us volumes of evidence, actually
probably too much evidence for me to review.
We are trying to review it and trying to catch
up. . . . At this point I’m having difficulty between the forest and the trees.”); A34:18100
(MR. PURPURA: “The amount of discovery
here is so gargantuan that we have no notice.”);
cf. United States v. Accetturo, 842 F.2d 1408,
1413–14 (3d Cir. 1988) (concluding that the district court’s determination that twenty-four

37a

•

days was sufficient for counsel to prepare was
not an abuse of discretion where the district
court stated the amount of evidence was rather
discrete, intermittent and of small quantity).
The District Court may have been aware of Sullivan’s potential exit from the case as early as
January 2011, but it failed to act until November 2012. Cf. Chambers, 399 U.S. at 54 (“Unquestionably, the courts should make every effort to effect early appointments of counsel in
all cases.”). Because courts have an independent obligation to ensure that the rights of criminal defendants are protected, this delay does
give us pause.18 See, e.g., Gregg v. Georgia, 428
U.S. 153, 187 (1976) (“When a defendant’s life
is at stake, the Court has been particularly sensitive to insure that every safeguard is observed.”); Glasser v. United States, 315 U.S. 60,
71 (1942), superseded on other grounds by Fed.
R. Evid. 104(a) (“Upon the trial judge rests the
duty of seeing that the trial is conducted with
solicitude for the essential rights of the accused.”).

Nonetheless, Savage fails to take into account numerous facts that undermine his constructive denial
of counsel claim:
•

In addition to representing to the District
Court that he had the experience to familiarize

18 We also recognize that this substitution involved lead counsel,
the only capital-qualified counsel then on the record. See 18
U.S.C. § 3005; see also § 3599; Martel v. Clair, 565 U.S. 648, 659
(2012).

38a

•

•
•
•
•

•

himself with the case in a timely manner and
that he was prepared to undertake the efforts
necessary to do so, Purpura affirmatively
stated to the District Court that he could be
ready for trial. See Morris v. Slappy, 461 U.S.
1, 12 (1983) (“In the face of the unequivocal and
uncontradicted statement by a responsible officer of the court that he was fully prepared and
‘ready’ for trial, it was far from an abuse of discretion to deny a continuance. On this record,
it would have been remarkable had the trial
court not accepted counsel’s assurances.”).
The District Court’s statements on the record
indicate that it thought Purpura would be able
to adequately prepare in the amount of time
available. See, e.g., A34:18070 (THE COURT:
“I would anticipate that Mr. Purpura could get
up to speed by that time.”).
Purpura was an experienced death penalty
counsel.
Savage did not lodge any pro se objection to the
substitution or lack of a continuance.
Neither Purpura nor Savage pro se moved for a
continuance.
Sullivan consistently indicated a desire to remain on the case while his appointment to a
judgeship was pending and was uncertain
about if or when he would need to withdraw.
He even contributed to and participated in over
six weeks of voir dire.
Hoey’s contribution to Savage’s defense was
substantial. He was on the case almost from

39a

•

the beginning, remained after Sullivan withdrew, and according to Purpura, seemed to
know the case almost as well as Savage did—
at least as to discovery materials.
The District Court had to weigh significant issues of judicial administration, including the
involvement of multiple defendants and the
availability of numerous attorneys.19

Considering all the attending circumstances, we
conclude that Savage did not suffer a constructive denial of counsel. First, Purpura was an experienced
capital-qualified counsel. Second, Purpura relied on
his experience in representing to the District Court
that he could get “up to speed” in time for trial. Third,
neither Purpura nor Savage himself moved for a continuance or indicated that Purpura was unprepared
to proceed to trial. Given that capital defense counsel
are not, as a rule, timid creatures, we have every reason to believe that if Purpura thought he needed additional time to prepare, he would have moved for a
continuance. Fourth, although Purpura was lead
counsel and the only capital-qualified counsel, Hoey

19 See Morris, 461 U.S. at 11–12 (“Trial judges necessarily require a great deal of latitude in scheduling trials. Not the least
of their problems is that of assembling the witnesses, lawyers,
and jurors at the same place at the same time, and this burden
counsels against continuances except for compelling reasons.
Consequently, broad discretion must be granted trial courts on
matters of continuances; only an unreasoning and arbitrary insistence upon expeditiousness in the face of a justifiable request
for delay violates the right to the assistance of counsel.” (internal
quotation marks and citations omitted)).

40a
had been a member of Savage’s defense team for several years, and he remained on the team to assist Purpura in both preparing and trying the case. See
United States v. Merlino, 349 F.3d 144, 149–50 (3d
Cir. 2003) (defendant was not “left bereft of counsel”).
Fifth, it is reasonable for us to infer that Purpura inherited some work product from Sullivan and Hoey.
Sixth, and most importantly, our careful examination
of the record confirms that Purpura provided Savage
with zealous representation throughout trial. See
United States ex rel. Chambers v. Maroney, 408 F.2d
1186, 1195–96 (3d Cir. 1969) (“This is not a case
where belated appointment of counsel may have resulted in the failure to call witnesses . . . or in the failure to raise defenses of which counsel was unaware or
which he was unprepared to pursue, or in an improvident plea of guilty.” (internal footnotes omitted)),
aff’d sub nom. Chambers, 399 U.S. 42. In fact, it is
unclear to us what more Purpura could have done had
he requested and received additional time to prepare.20
The situation that the District Court confronted
was not one where, “although counsel is available to
assist the accused during trial, the likelihood that any
lawyer, even a fully competent one, could provide effective assistance is so small that” per se reversal is
20 Savage has alleged that the late appointment of Purpura violated both his Sixth Amendment right to counsel and his enhanced right to capital counsel under 18 U.S.C. §§ 3305 & 3599,
but Savage was never without capital counsel. We conclude that
his statutory right to capital counsel was not violated for the
same reasons that his Sixth Amendment right was not.

41a
required. Cronic, 466 U.S. at 659–60. Thus, there was
no structural error.
C. The District Court committed no trial errors in the substitution of counsel
In addition to his structural error claim, Savage
alleges that the District Court erred in delaying the
substitution of counsel by (1) overlooking Sullivan’s
June 2012 letter; (2) failing to adequately address
Savage’s pro se, ex parte emergency motion; and (3)
granting substitution in November 2012 without a
continuance.
1. Standard of Review
We review a district court’s decision regarding
substitution for an abuse of discretion. See Martel,
565 U.S. at 663–64. While “[t]here are no mechanical
tests for determining an abuse of discretion,” United
States v. Restaino, 405 F.2d 628, 631 (3d Cir. 1968),
the Supreme Court has held that a motion for substitution should be granted when it is in the “interests
of justice,” Christeson v. Roper, 574 U.S. 373, 377
(2015). See also Martel, 565 U.S. at 652 (holding that
district courts “should employ the same ‘interests of
justice’ standard that [is applied] in non-capital cases”
in evaluating motions to replace capital counsel).
“[F]actors a court of appeals should consider in determining whether a district court abused its discretion
. . . ‘include: the timeliness of the motion; the adequacy of the district court’s inquiry into the defendant’s complaint; and the asserted cause for that complaint, including the extent of the conflict or breakdown in communication between lawyer and client

42a
(and the client’s responsibility, if any, for that conflict).’” Christeson, 574 U.S. at 377 (quoting Martel,
565 U.S. at 663); see also United States v. Goldberg,
67 F.3d 1092, 1098 (3d Cir. 1995) (additional considerations include “the efficient administration of criminal justice; the accused’s rights, including the opportunity to prepare a defense; and the rights of other
defendants awaiting trial who may be prejudiced by a
continuance”).
An abuse of discretion may also occur where a
court makes no inquiry into a defendant’s request to
substitute counsel. See Goldberg, 67 F.3d at 1098;
United States v. Welty, 674 F.2d 185, 187 (3d Cir.
1982); see also McMahon v. Fulcomer, 821 F.2d 934,
942 (3d Cir. 1987) (“Even when the trial judge suspects that the defendant’s contentions are disingenuous, and motives impure, a thorough and searching
inquiry is required.”).21
2. The District Court did not abuse its
discretion in its handling of counsel’s
June 2012 letter.
Savage treats Sullivan’s June 2012 communication as akin to a motion. Yet it was no more than a
letter and did not purport to be anything other than

21 Welty and its progeny are the basis for much of our Court’s
substitution of counsel caselaw. Yet for our purposes, they are
hardly a perfect fit. The court in Welty, for instance, denied substitution. 674 F.2d at 187. Here, the District Court eventually
granted relief by appointing Purpura. Furthermore, Savage consented to the substitution.

43a
that. As such, the District Court was not called upon
to grant or deny relief.
Even if we were to conclude that the District Court
should have acted based on the letter, the District
Court did so approximately four months later with the
appointment of Purpura. Savage’s only objection is
that the District Court should have acted sooner.
Given the deference afforded to district courts in matters of case administration, see Morris, 461 U.S. at
11–12; Fuller v. Diesslin, 868 F.2d 604, 611–12 (3d
Cir. 1989), we see no abuse of discretion in the District
Court’s failing to substitute counsel promptly upon receipt of Sullivan’s letter.
3. The District Court did not abuse its
discretion in forwarding Savage’s pro
se, ex parte emergency motion to counsel.
In his June/July 2012 pro se, ex parte emergency
motion seeking substitution of counsel or to proceed
pro se, Savage made several allegations that may
have constituted good cause: Sullivan was not working on the case diligently; communication between
Savage and Sullivan had broken down; and Savage
felt that Sullivan was untrustworthy. The District
Court did not directly address these claims. Rather,
the courtroom deputy transmitted Savage’s letter to
Sullivan, asking counsel to advise the District Court.
Considering the procedural history of this case,
the District Court’s actions were appropriate. Savage
had previously submitted numerous pro se filings
seeking substitution of counsel or permission to pro-

44a
ceed pro se. The District Court held hearings to address each of those motions in turn, and Savage always retracted his grievances. While courts must proactively address motions, given Savage’s past actions
and the deference afforded to district courts in matters of case administration, see Fuller, 868 F.2d at
612, there was no abuse of discretion in the District
Court’s handling of Savage’s pro se, ex parte emergency motion.
4. The District Court did not abuse its
discretion by substituting counsel
without a continuance in November
2012.
For the reasons stated below, we conclude that the
District Court did not abuse its discretion in substituting Purpura for Sullivan.
First, Purpura was a highly experienced death
penalty counsel. His background could reasonably be
expected to save him valuable preparation time, not
to mention court time. Moreover, Purpura’s background and experience make it extremely likely that
he would have sought a continuance if he believed he
needed it. See Moore, 432 F.2d at 735. No continuance
was sought.
Second, Purpura affirmatively represented to the
District Court that he would be ready for trial. See
Morris, 461 U.S. at 12 (noting that it “would have
been remarkable had the trial court not accepted
counsel’s assurances”).
Third, Purpura was hardly alone in representing
Savage. He joined a team of committed lawyers, see

45a
Merlino, 349 F.3d at 149–50, that included Hoey—
who had been on the case for nearly three years. Hoey
helped Purpura prepare and was involved extensively
in voir dire, trial and sentencing.
Finally, Sullivan consistently indicated a desire to
remain on the case while his appointment was pending, uncertain as he was about if or when he would
need to withdraw.
*

*

*

We are well satisfied that Savage did not suffer a
constructive denial of counsel and that the District
Court did not commit trial error in the handling of
substitution of counsel.
VI.

SAVAGE’S VICINAGE ARGUMENT LACKS MERIT.

Section 3235 of Title 18 provides that a trial in a
capital case “shall be had in the county where the offense was committed.” 18 U.S.C. § 3235. Savage contends that the “language and history” of this statutory
section “show that it encompasses the right to a jury
drawn from the county of the offense.” Def. Br. 115.
The District Court disagreed, and so do we.22
Section 3235 has its roots in the 1789 Judiciary
Act. The relevant section provided
[t]hat in cases punishable with death, the trial
shall be had in the county where the offence
was committed, or where that cannot be done
22 Because statutory interpretation presents a question of law,
we exercise plenary review. United States v. Randolph, 364 F.3d
118, 121 (3d Cir. 2004).

46a
without great inconvenience, twelve petit jurors at least shall be summoned from thence.
Act of Sept. 24, 1789, ch. 20, § 29, 1 Stat. 88. This statute remained unchanged until 1862. At that time,
Congress enacted a new law that specified “[t]hat so
much of section twenty-nine of [the Judiciary Act] . . .
as requires in cases punishable with death, twelve
petit jurors to be summoned from the county where
the offence was committed, be, and the same is
hereby, repealed.” Act of July 16, 1862, ch. 189, § 2,
12 Stat. 589. Thus, Congress explicitly eliminated in
1862 the requirement in the Judiciary Act for a local
jury in a capital case. Thereafter, in 1948, § 3235—
Venue in Capital Cases—was codified in its current
form:
The trial of offenses punishable with death
shall be had in the county where the offense
was committed, where that can be done without
great inconvenience.
18 U.S.C. § 3235. Consistent with the 1862 repeal, the
title and text of § 3235 omit any reference to vicinage
or a requirement for a jury to be summoned from the
county where the offense occurred.
In light of this statutory history and consistent
with the plain text of the statute, we conclude that the
District Court did not err in rejecting Savage’s “attempt to import a ‘vicinage requirement’ into the statute.” A1:29–30. We agree with the District Court that
“[t]here is nothing in § 3235 that requires the jury to
be selected from the county of the offense.” A1:29; see
United States v. Ron Pair Enter., Inc., 489 U.S. 235,
241 (1989) (instructing that “where . . . the statute’s

47a
language is plain, ‘the sole function of the courts is to
enforce it according to its terms’”) (quoting Caminetti
v. United States, 242 U.S. 470, 485 (1917)). Inasmuch
as our task in interpreting a statute is “to give effect
to the intent of Congress,” we refuse to add a vicinage
requirement that Congress eliminated more than a
century ago. United States v. Am. Trucking Ass’ns,
310 U.S. 534, 542 (1940).
Indeed, our caselaw already acknowledges the repeal of the Judiciary Act’s vicinage requirement in
capital cases. In Zicarelli v. Gray, we addressed
whether a state prisoner’s Sixth Amendment right to
trial by a fair cross-section of the community was “violated when he [was] indicted for crimes arising out
of acts occurring in one county of the state and [was]
subsequently tried before a jury drawn exclusively
from a second county in the state.” 543 F.2d 466, 468
(3d Cir. 1976) (en banc). Our late colleague Judge Adams examined the vicinage requirement under English common law, the Constitution’s guarantee of a
trial in the State where the crime occurred,23 and the
1789 Judiciary Act together with its requirements of
vicinage in capital and noncapital cases. Id. at 475–
76. He distilled three themes from his historical review:

Article III, § 2, clause 3 of the U.S. Constitution provides in
relevant part: “The Trial of all Crimes . . . shall be by Jury; and
such Trial shall be held in the State where the said Crimes shall
have been committed.” The Sixth Amendment also guarantees
that the trial shall be held in the district where the crime occurred. U.S. Const. amend. VI.

23

48a
First, the proposition that a trial must take
place before a jury drawn from within the state
and federal judicial district in which the crime
was committed was considered salient enough
to be guaranteed by the Constitution. Second,
the concept that a criminal trial must be before
a jury composed of residents of the county
where the crime occurred was not deemed to be
of sufficient consequence to be guaranteed by
the Constitution. Rather, if such a rule was to
be adopted, it would have to be done by Congress.
Id. at 477–78 (footnote omitted). The third theme concerned the vicinage of jurors in both capital and noncapital trials, prompting the observation that “[t]he
mandate that 12 jurors be summoned from the county
of the crime in capital cases was repealed in 1862.” Id.
at 478 n.60.
In short, no vicinage requirement has existed in
capital cases since 1862. If there is to be such a rule,
Congress will need to enact it once again.24
Finally, we reject Savage’s assertion that the District Court’s denial of the motion to empanel a jury
drawn solely from Philadelphia County amounted to
structural error. “The purpose of the structural error

24 Even if Savage’s argument had some traction, it would derive
from the right to have the trial conducted in the county of the
offense. That right is not “absolute . . . , but only a qualified right
in cases where such a trial could be had ‘without great inconvenience.’” Brown v. United States, 257 F. 46, 48 (5th Cir. 1919),
rev’d on other grounds, 256 U.S. 335 (1921).

49a
doctrine is to ensure insistence on certain basic, constitutional guarantees that should define the framework of any criminal trial.” Weaver v. Massachusetts,
137 S. Ct. 1899, 1907 (2017) (emphasis added). Yet we
observed in Zicarelli that the vicinage requirement of
drawing a jury in a capital trial from “the county
where the crime occurred was not deemed to be of sufficient consequence to be guaranteed by the Constitution.” 543 F.2d at 477–78. Accordingly, there is no
constitutional guarantee to support Savage’s contention that a structural error occurred when the District
Court refused to seat a jury comprised solely of Philadelphia residents.
In sum, the District Court did not err in denying
the motion to secure the jury from the county of offense pursuant to 18 U.S.C. § 3235.
VII.

SAVAGE
OF

HIS

HAS NOT ESTABLISHED A VIOLATION
CONSTITUTIONAL

AND

STATUTORY

RIGHTS TO A JURY DRAWN FROM A FAIR CROSSSECTION OF THE COMMUNITY.

Under the Sixth Amendment, a criminal defendant is entitled to a trial by an “impartial” jury.25 One
important step in furthering impartiality is to draw
jurors from diverse segments of the population. See
Holland v. Illinois, 493 U.S. 474, 480 (1990). The Supreme Court has declared this method a constitutional guarantee by concluding that “the selection of
25 “In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed . . . .” U.S.
Const. amend. VI.

50a
a petit jury from a representative cross section of the
community is an essential component of the Sixth
Amendment right to a jury trial.” Taylor v. Louisiana,
419 U.S. 522, 528 (1975).
A corresponding statutory framework facilitates
the selection of a representative jury. The Jury Selection and Service Act of 1968 (JSSA) provides that federal juries are to be “selected at random from a fair
cross section of the community.” 28 U.S.C. § 1861.
Federal district courts are tasked with creating juryselection plans consistent with this fair-cross-section
principle. § 1863(a). These plans generally must draw
potential jurors from “voter registration lists” or “lists
of actual voters,” but they also must identify other
sources “where necessary to foster the policy and protect the rights secured by” the JSSA’s fair-cross-section principle. § 1863(b)(2).
The U.S. District Court for the Eastern District of
Pennsylvania has long drawn its potential jurors exclusively from voter registration lists. See, e.g., Savage v. United States, 547 F.2d 212, 214–16 (3d Cir.
1976) (unrelated case describing 1968 version of juryselection plan); A1:66 n.7 (describing 2009 version applicable here). That approach reflects the Eastern
District’s assessment that “[v]oter registration lists
represent a fair cross section of the community in the
Eastern District of Pennsylvania.” U.S. Dist. Ct. for
Eastern Dist. of Pennsylvania, Plan for the Random
Selection of Grand and Petit Jurors § 3 (adopted
2017).

51a
The Eastern District forms its jury pool through
essentially three steps.26 Every two years, registered
voters in the jurisdiction are randomly selected to
populate a master jury wheel. Then the master wheel
is culled by randomly choosing individuals, mailing
each of them a juror qualification form, and evaluating their responses to identify who is disqualified, exempt or excused from service. The result is a qualified
jury wheel. Finally, individuals randomly selected
from the qualified wheel are summoned to serve on
venires (i.e., panels) of potential jurors in Eastern
District trials.
In preparing to challenge the Eastern District’s
jury-selection system, Savage sought discovery of extensive information that went into creating the master wheel, the qualified wheel and the venire.27 See 28
U.S.C. § 1867(f) (providing for discovery). The District
Court granted Savage’s discovery motion in part,
providing him access to the Eastern District’s jury
plan (2009 version) and spreadsheets containing statistical information about the race and ethnicity of:
•

the potential jurors on the master and qualified
jury wheels assembled in 2007, 2009 and 2011;

For purposes of this overview, the applicable 2009 version of
the Eastern District’s plan—as described by the District Court
in this case—does not differ from the presently operative 2017
version. See A1:66 n.7; 2017 Jury Plan §§ 3–7.
26

27 Savage’s co-defendant Steven Northington filed this discovery
motion and the follow-up motion to strike the venires. We refer
to both motions as filed by Savage since the District Court determined that Savage had standing to join them.

52a
•
•
•

the grand jurors who returned the First Superseding Indictment;
the potential petit jurors who were summoned;
and
the subset of potential petit jurors who “responded to the summons and showed up to fill
out a jury questionnaire on September 26 and
27, 2012.”28

A1:39.
Asserting a violation of his Sixth Amendment
right to a jury selected from a fair cross-section of the
community, Savage moved to strike the two panels of
prospective jurors.29 He urged the District Court to
draw jurors instead from lists maintained by the Administrative Office of Pennsylvania Courts, which
supplemented voter registration rolls with various
other sources. The District Court denied the motion
because Savage had not made a threshold showing of
a fair-cross-section violation under Duren v. Missouri,
439 U.S. 357 (1979), and United States v. Weaver, 267

This was a case-specific jury questionnaire that the District
Court administered to the panels of potential jurors.
28

29 We assume the Eastern District summoned two panels because of the impending trial in this case. See 2017 Jury Plan §
7(b) (providing option of two panels in anticipation of “a highly
publicized or extremely lengthy case or cases” calling for “an extraordinary [sic] large panel of jurors”). In any event, two more
panels were added later because of “the Court needing two additional panels to fill out questionnaires.” A1:65 n.5; see also A1:70
n.9.

53a
F.3d 231 (3d Cir. 2001). Savage now argues the District Court erred in determining that he failed to satisfy two prongs of the Duren standard.
After briefing in this case concluded, a different
panel of this Court decided a case presenting a faircross-section claim, Howell v. Superintendent Rockview SCI, 939 F.3d 260 (3d Cir. 2019), reh’g denied,
No. 17-1758 (3d Cir. Nov. 26, 2019), petition for cert.
filed, Howell v. Garman, No. 19-8378 (Apr. 24, 2020).
The Government raised Howell in a Rule 28(j) letter,
to which Savage responded. The parties had a further
opportunity to address Howell’s import at oral argument.
A. Standard for a Fair-Cross-Section Challenge30
Savage has the burden to establish a violation of
his fair-cross-section rights by identifying (1) “a ‘distinctive’ group in the community” (2) that was “not
fair[ly] and reasonab[ly]” represented among potential jurors compared with its representation in the
community (3) because of “systematic exclusion of the

30 “Whether a defendant has been denied his or her right to a
jury selected from a fair cross section of the community is a
mixed question of law and fact, and is reviewed de novo.” Weaver,
267 F.3d at 235.

54a
group in the jury-selection process.”31
U.S. at 364.

32

Duren, 439

In Duren, women comprised 54% of the relevant
population, but only approximately 15% of the weekly
venires in state court. Id. at 362–63, 365. Recognizing
that women were a distinctive group, the Supreme
Court determined that their underrepresentation was
not only unfair, but attributable to systematic exclusion because the underrepresentation “occurred not
just occasionally but in every weekly venire for a period of nearly a year.” Id. at 364–66. The Court could
easily pinpoint the exclusionary processes: the juryselection system included several exemptions expressly for women, including an automatic exemption
upon failure to respond to the summons and appear
for service. Id. at 361–62, 366–67.
Here, Savage established the first Duren prong by
identifying a similarly distinctive group: black individuals. But the District Court correctly determined
If Savage can make this prima facie showing, then the Government would “bear[] the burden of justifying this infringement
by showing attainment of a fair cross section to be incompatible
with a significant state interest.” Weaver, 267 F.3d at 237 (quoting Duren, 439 U.S. at 368) (internal quotation marks omitted).
In this case, we need not reach the Government’s rebuttal burden.
31

32 Savage forfeited the opportunity to pursue a JSSA claim here
by failing to raise it in the District Court. See United States v.
Baxter, 951 F.3d 128, 136 (3d Cir. 2020), petition for cert. filed,
No. 20-5133 (July 14, 2020). But because the fair-cross-section
standard is equivalent for claims under the Sixth Amendment
and the JSSA, Weaver, 267 F.3d at 236–37, excluding the JSSA
claim makes little difference to our analysis.

55a
that he failed at the second prong because he had not
demonstrated unfair and unreasonable representation of that group. We also agree with the District
Court’s third-prong determination that Savage did
not show that any underrepresentation stemmed
from systematic exclusion.
B. Savage has not made a prima facie showing of a fair-cross-section violation.
1. Blacks are a distinctive group.
To satisfy the first prong, Savage points to the alleged underrepresentation of Blacks among prospective jurors. We ask whether that group is “sufficiently
numerous and distinct from others in the population
that if members of the group are systematically eliminated, the defendant’s right to a jury composed of a
fair cross section of the community would be violated.”
Weaver, 267 F.3d at 239–40. We routinely recognize
that Blacks qualify as a distinctive group. See, e.g., id.
at 240; Howell, 939 F.3d at 266. No further discussion
is necessary on this point.
2. Blacks were not unfairly or unreasonably represented on the qualified jury
wheel.
Savage argues that representation of Blacks
among potential jurors was not “fair and reasonable”
when compared to the proportion of that group within
the Eastern District population. In evaluating Savage’s argument as to the second prong, we look to statistics to assess the degree, if any, to which Blacks
were underrepresented. Weaver, 267 F.3d at 240 (not-

56a
ing the inquiry is “at least in part, a mathematical exercise, and must be supported by statistical evidence”).
Our analysis involves (1) identifying that share of
the Eastern District population who are Blacks; (2)
determining the share of the Eastern District’s jury
wheel or the venires in this case that consisted of
Blacks; and (3) deploying statistical methods to evaluate any disparity between the two shares. See id. at
240–44 (analyzing portion of master wheel); Duren,
439 U.S. at 364–66 (using venires).
Population Percentage. Savage relied on census
data compiled by a consulting firm to calculate that
Blacks comprised 16.82% of the Eastern District population as of his 2012 motion. The District Court accepted this undisputed statistic. But the District
Court should have distilled the jury-service-eligible
population of Blacks in the Eastern District. See
Berghuis v. Smith, 559 U.S. 314, 319, 323 (2010);
Howell, 939 F.3d at 263, 266; Ramseur v. Beyer, 983
F.2d 1215, 1231 (3d Cir. 1992) (en banc). That juryservice-eligible statistic does not appear in the record,
so despite the District Court’s error, we will consider
the statistic representing the full population of Blacks
in the Eastern District.
Jury Wheel Percentage. The District Court decided it was more appropriate to assess Blacks’ representation on the qualified wheel than either the master wheel or two venires assembled for Savage’s trial.
In the District Court’s view, the wheels would better
capture any systematic exclusion. And as between the
two wheels, the master wheel contained limited racial

57a
data, so the District Court determined the qualified
wheel reflecting juror questionnaire responses was
preferable for fair-cross-section purposes. The District Court also noted the venire-based statistic was
incomplete, for it did not account for two more venires
empaneled while the fair-cross-section motion was
pending.
On appeal, Savage does not challenge the District
Court’s reliance on the Eastern District’s qualified
wheel33—consisting of 8.37% black individuals,34
A1:71—so we will rely on it as well. Precedent reinforces that the qualified wheel is a valid option for assessing a fair-cross-section claim. See Duren, 439 U.S.
at 363–64 (stating fair-cross-section principle with respect to “jury wheels, pools of names, panels, or venires from which juries are drawn” (quoting Taylor, 419
U.S. at 538) (internal quotation marks omitted)); Savage, 547 F.2d at 214 (construing cross-section challenge as targeting qualified wheel).
Statistical Methods. We work with two statistical inputs: Blacks represented 16.82% of the Eastern
District population, but only 8.37% of the qualified
wheel. We evaluate the significance of this shortfall
by calculating two metrics: absolute and comparative
disparities.35 Howell, 939 F.3d at 268.

Specifically, the District Court considered “the 2011 Qualified
Jury Wheel as of August 29, 2012.” A71.
33

34 Savage misattributes the 8.37% statistic to the master wheel
but does not object to our use of that statistic.

We have also used a third metric, standard deviation, to assess
the reliability of sample data. See Howell, 939 F.3d at 266–68.
35

58a
Absolute disparity is simply the difference between our two statistical inputs, or 8.45%. See
Weaver, 267 F.3d at 238. That means if we drew a venire of one hundred people from the qualified wheel,
we would expect to find about eight fewer Blacks
among them than if we drew one hundred people from
the Eastern District at large. See Howell, 939 F.3d at
268 n.7.
Comparative disparity is the quotient of the absolute disparity and the population percentage. Weaver,
267 F.3d at 238. We divide 8.45% by 16.82% for a comparative disparity of 50.24%. Thus, Blacks were about
half as likely to appear in the qualified wheel as we
would expect based on their share of the Eastern District’s population. See Howell, 939 F.3d at 268 n.8;
Weaver, 267 F.3d at 238 n.5.
The two methods have countervailing weaknesses
when it comes to evaluating the underrepresentation
of a relatively small minority: Absolute disparity
tends to understate any discrepancy, while comparative disparity tends to overstate it. Weaver, 267 F.3d
at 242–43 (collecting cases). So relying on these methods “can be misleading” when a group’s population
percentage is small. Berghuis, 559 U.S. at 329; see,
e.g., United States v. Ashley, 54 F.3d 311, 313–14 (7th
Cir. 1995) (denying fair-cross-section claim when
group comprised 3% of relevant population but 0% of
venire, due to absolute disparity of merely 3%).

But no sampling occurred here. Instead we rely on a statistic
representing the entire qualified wheel.

59a
Still, the Supreme Court has expressly left open
the question of which method(s) courts should use to
assess a fair-cross-section challenge. Berghuis, 559
U.S. at 329–30 (mentioning absolute disparity, comparative disparity and standard deviation). In Duren,
the Court did not discuss any methods, but simply determined the second-prong showing was satisfied
based on a side-by-side comparison of the percentages
of women in the population (54%) and in the weekly
venires (15%). See 439 U.S. at 362–66. That seemed
to endorse the absolute disparity method. See Weaver,
267 F.3d at 242. But more recently, in Berghuis v.
Smith, the Court observed that “neither Duren nor
any other decision of this Court specifies the method
or test courts must use to measure the representation
of distinctive groups in jury pools.” 559 U.S. at 329
(emphasis added).
This Court continues to use both absolute and
comparative disparity methods, see Howell, 939 F.3d
at 268–69, because, when applied together, one
method can be reasonably expected to offset the shortcomings of the other, see Weaver, 267 F.3d at 241–43.
Nevertheless, taking our cues from Duren and persuasive authority, we have shown some solicitude for
absolute disparity. See id. at 242 (observing it “seems
to be the preferred method of analysis in most cases”).
We considered the interplay of absolute disparity
and comparative disparity most recently in Howell,
where Blacks comprised 10.7% of the relevant population. 939 F.3d at 266, 268. The absolute disparity of
5.83% was “lower than or similar to absolute disparities in other cases where courts have found no constitutional violation, and in fact, numerous courts have

60a
noted that an absolute disparity below 10% generally
will not reflect unfair and unreasonable representation.” Id. at 268 (collecting cases). We were also persuaded by authority determining that “comparative
disparities similar to the comparative disparity in
[Howell], 54.49%, were insufficient to demonstrate
unfair and unreasonable representation.” Id. (collecting cases). Evaluating the two statistical methods together in light of “factually similar cases,” we concluded that Howell had not met his burden under Duren’s second prong. Id. at 269.
Savage argues that the District Court inappropriately took “bright-line” approaches dismissive of an
absolute disparity under 10% and a comparative disparity for a small population. These characterizations
fail to appreciate the District Court’s nuanced treatment of the absolute and comparative disparities together. With the benefit of Howell, we reach the same
conclusion as the District Court—that the two disparities are insufficient to show unfair and unreasonable
representation under Duren.36
Here, the absolute disparity of 8.45% is only
slightly higher than the absolute disparities that fell
short in Howell and other cases where a minority
36 We easily dispose of Savage’s argument that the District Court
failed to account for the “practical realit[ies]” of these absolute
and comparative disparities. Def. Br. 141–42. He tries to explain,
in layman’s terms, what the results of these methods say about
underrepresentation of Blacks from the Eastern District. The
only authority he cites is inapposite. See id. at 141 (citing GarciaDorantes v. Warren, 801 F.3d 584, 588 (6th Cir. 2015)). So we
maintain our established approach.

61a
group’s population percentage was comparable to that
of Blacks within the Eastern District. See 939 F.3d at
268 (absolute disparity of 5.83%; population percentage of 10.7%); United States v. Davis, 854 F.3d 1276,
1295 (11th Cir. 2017) (absolute disparity of 6.7%; population percentage of 12.1%); United States v. Grisham, 63 F.3d 1074, 1078–79, 1081 (11th Cir. 1995)
(absolute disparity in one instance of 4.72%; relevant
population percentage of 18.31%); United States v.
Clifford, 640 F.2d 150, 154–55 (8th Cir. 1981) (absolute disparity of 7.2%; population percentage of
15.6%); cf. Ramseur, 983 F.2d at 1230–32 (absolute
disparity of 14.1% was “of borderline significance” in
equal-protection analysis overlapping with fair-crosssection analysis; population percentage of 35.9%).
Although Howell looked favorably on jurisdictions
that have adopted 10% thresholds, see 939 F.3d at
268; see also Davis, 854 F.3d at 1295; Ashley, 54 F.3d
at 314; Clifford, 640 F.2d at 155; United States v.
Maskeny, 609 F.2d 183, 190 (5th Cir. 1980),37 we are
wary of ossifying that consideration through a rule
when our own precedent requires us to consider comparative disparity as well.38

In Berghuis, the Supreme Court was asked to impose a 10%
threshold, but the Court declined to reach the issue. 559 U.S. at
330 n.4.
37

38 Just as the Supreme Court has “not augur[ed] or authorize[d]
the fashioning of detailed jury selection codes by federal courts,”
we faithfully maintain that “[t]he fair-cross-section principle
must have much leeway in application.” Taylor, 419 U.S. at 537–
38.

62a
Turning to comparative disparity, the 50.24% figure here is similar to those deemed insufficient in
other cases, especially Howell. See 939 F.3d at 268
(comparative disparity of 54.49%; population percentage of 10.7%); United States v. Orange, 447 F.3d 792,
796, 798–99 (10th Cir. 2006) (comparative disparities
“rang[ing] from 38.17% to 51.22%”; population percentages ranging from 1.64% to 8.63%); United States
v. Chanthadara, 230 F.3d 1237, 1256–57 (10th Cir.
2000) (comparative disparities of 40.89% and 58.39%;
population percentages of 7.9% and 2.74%, respectively); cf. Weaver, 267 F.3d at 240, 243 (considering
comparative disparities of 40.01% and even 72.98% to
be “of questionable probative value” due to particularly small population percentages of 3.07% and
0.97%, respectively).
Savage points out that the comparative disparity
here exceeds the “about 40%” disparity we called “borderline” in Ramseur. 983 F.2d at 1230, 1232 (population percentage of 35.9%). But even if Ramseur lent
some support when Savage filed his briefs, it is less
helpful in the wake of Howell. There we determined
that a comparative disparity of 54.49%—higher than
both Ramseur’s 40% and Savage’s 50.24%—was not
enough to tip the scales. The comparison with Howell
is not quite open-and-shut, for the somewhat higher
population percentage here (16.82% vs. Howell’s
10.7%) makes the comparative disparity a slightly
more accurate indicator of underrepresentation. But
we are unpersuaded that the statistics in Savage’s
case differ meaningfully.

63a
Savage attempts to bolster his comparative disparity argument by briefly invoking out-of-circuit authority that sets a more modest standard for establishing unfair and unreasonable representation. In
Garcia-Dorantes v. Warren, the Sixth Circuit decided
that a habeas petitioner made the requisite showing
based on a population percentage of 8.24%, an absolute disparity of 3.45%, and a comparative disparity
of 42%, caused by a glitch in the electronic jury selection system. 801 F.3d 584, 590–93, 600, 603 (6th Cir.
2015). Because the disparities in Savage’s case are
somewhat larger, and the population percentage is
somewhat higher, his case may clear the Sixth Circuit’s second-prong hurdle. No matter, we must adhere to our own standard. Moreover, Garcia-Dorantes
is distinguishable on its merits for at least two reasons.
First, the Sixth Circuit expressly prefers comparative disparity where small populations are involved
because absolute disparity tends to understate discrepancies in those instances. Id. at 601–02. We agree
with that premise, but we also recognize the tendency
of comparative disparity to exaggerate discrepancies
for small populations. Weaver, 267 F.3d at 242. For
that reason, we do not give comparative disparity
pride of place. See id. at 241–43. Second, the GarciaDorantes court relied on non-Third Circuit precedent
indicating that even more modest disparities met the
second-prong standard. See 801 F.3d at 601–02 (citing
Smith v. Berghuis, 543 F.3d 326, 336–39 (6th Cir.
2008), rev’d on other grounds, 559 U.S. 314 (2010);
United States v. Rogers, 73 F.3d 774, 776–77 (8th Cir.
1996)). We must look to Third Circuit caselaw, where

64a
Savage runs up against Howell and our other precedent. Garcia-Dorantes may inform our understanding
of absolute and comparative disparities, but we are
certainly not bound by it.
Here, we have considered the absolute and comparative disparities together in light of the relevant
authorities, Howell most particularly. We conclude
that Savage fails to meet his burden of proving that
Blacks were unfairly and unreasonably represented
on the Eastern District’s qualified jury wheel. Because Savage has not satisfied Duren’s second prong,
he cannot establish a violation of his fair-cross-section
rights.39
3. Alternatively, Blacks were not systematically excluded from the qualified
jury wheel.
Even if Savage were able to meet Duren’s second
prong, he would still need to show that Blacks were
underrepresented on the Eastern District’s qualified
jury wheel due to systematic exclusion from the juryselection process. The District Court observed no such
third-prong showing. Looking again to Howell, we
agree.

39 Although “petit juries must be drawn from a source fairly representative of the community,” the Supreme Court has never required “that petit juries actually chosen must mirror the community and reflect the various distinctive groups in the population.” Taylor, 419 U.S. at 538. Still, we note Savage’s concession
elsewhere that two of twelve empaneled jury members (16.67%)
were black, approximating their 16.82% share of the Eastern
District population.

65a
This is not a case where an exclusionary process is
“readily apparent” as it was with the several exemptions for women in Duren. Howell, 939 F.3d at 269.
Even so, a defendant may establish an exclusionary
process by identifying “a large discrepancy over time
such that the system must be said to bring about the
underrepresentation.” Id. (quoting Weaver, 267 F.3d
at 244) (internal quotation marks omitted). We evaluate evidence of “the nature of the system, length of
time studied, and ‘efforts at reform to increase the
representativeness of jury lists.’” Id. (quoting Ramseur, 983 F.2d at 1234–35). From the record in this
case, we are not convinced that these factors demonstrate systematic exclusion of Blacks.
Nature of the System. It goes without saying
that overtly barring a racial group from jury service
constitutes systematic exclusion from participation in
the process.40 Such practices are offensive not only to
the Constitution but to our values as a free society.
Similarly, if a jury-selection plan simply gave a racial
group additional opportunities to opt out that were
not provided to others, and members of that group often availed themselves of those opportunities, then
the plan would be systematically excluding that group
too.41 See Duren, 439 U.S. at 366–67 (evaluating re-

Such a plan would also violate the JSSA’s ban on excluding
potential jurors based on protected characteristics such as race.
28 U.S.C. § 1862.
40

41 The absence of intentional discrimination is not dispositive of
a fair-cross-section claim, Weaver, 267 F.3d at 244, unlike an
equal-protection claim, Duren, 439 U.S. at 368 n.26.

66a
sults of exemptions for women). Otherwise, “[a] selection process that is facially neutral is unlikely to
demonstrate systematic exclusion.” Howell, 939 F.3d
at 269.
Savage has not identified anything on the face of
the Eastern District’s jury selection process that
draws racial distinctions. The process relies exclusively on voter registration lists, consistent with other
facially neutral processes this Circuit has upheld. See
id. (voter registration lists and driving records);
Weaver, 267 F.3d at 237, 244–45 (voter registration
lists); Ramseur, 983 F.2d at 1229, 1235 (voter registration and licensed driver lists); Savage, 547 F.2d at
215 (voter registration list).
We have, nevertheless, left open the possibility
that drawing on voter registration lists alone might
be actionable “under some circumstances” when use
of those lists “over time did have the effect of sizeably
underrepresenting a particular class or group on the
jury venire.” Weaver, 267 F.3d at 244–45. Accordingly,
facial neutrality alone of a selection system is not dispositive.
Length of Time Studied. Even if a process is facially neutral, it might consistently produce disproportionately low representation of a particular group.
The Duren Court saw a large shortfall in women’s representation in “every weekly venire for a period of
nearly a year,” reinforcing that exemptions for women
generated their systematic exclusion from venires.
439 U.S. at 366–67. Extrapolating from Duren, we
have suggested that the use of a voter registration list

67a
alone might still run afoul of the third prong if it produced underrepresentation “over time”—enough time
to deem the underrepresentation “persistent.”
Weaver, 267 F.3d at 244–45. But we have yet to determine the duration that would have to be shown to constitute “persistence.” A two-year showing is not necessarily enough, see Ramseur, 983 F.2d at 1230, 1235,
but something even shorter might suffice if the cause
of the underrepresentation were as “readily identifiable” and the evidence as “similarly specific” as it was
in Duren. Howell, 939 F.3d at 269–70 (eight months
sufficient in Duren, but not six months in Howell).
At oral argument, Savage conceded that he had
not provided the District Court with any record of underrepresentation over time. Oral Argument Tr.
185:15–186:3; see also id. 186:19–20 (as noted by
panel). But Savage rejected the suggestion that this
concession doomed his prima facie case; instead, he
insisted that a showing of duration is not an “absolute
requirement” to meet Duren’s third prong. Id. 186:19–
187:12. Howell forecloses that argument by stating
flatly that a study of underrepresentation “must have
demonstrated ongoing discrimination over a sufficient period of time.”42 939 F.3d at 269 (emphasis
added).
Savage’s failure to show the District Court that
Blacks were underrepresented on an ongoing basis
prevents him from establishing systematic exclusion.
While he points to other evidence he submitted to the
42 We read Howell’s reference to “discrimination” in context to
include unfair and unreasonable representation resulting from
a facially neutral system.

68a
District Court, none of that material is availing.43 Nor
can we consider evidence Savage failed to present to
the District Court. See Howell, 939 F.3d at 269 n.9.
Even if we were to consider such new evidence, as we
occasionally have, S.H. ex rel. Durrell v. Lower Merion
Sch. Dist., 729 F.3d 248, 267 n.27 (3d Cir. 2013), the

In the District Court, Savage identified two pieces of point-intime evidence to suggest that exclusion was systematic: Pennsylvania state legislation and a Pennsylvania state commission
report. See A2:529–30.
43

In 2007, state legislation expanded the sources of potential jurors available to state courts, Act of July 17, 2007, P.L.
123, No. 37, § 3 (codified as amended at 42 Pa. Cons. Stat. §
4521.1), and soon made information available to federal district
courts in Pennsylvania as well “[u]pon request,” § 4521.1(d)(2)
(2008 amendment). See also A2:529–30.
Also in 2007, a state commission asserted that using
voter and vehicle registration lists alone frequently distorts the
representation of certain groups on venires, which as a result
“may not be reflective of the community-at-large, particularly
the minority community.” A2:530; Def. Br. 145–46 (quoting Pa.
Interbranch Comm’n for Gender, Racial, & Ethnic Fairness,
Suggested Standardized Procedures for Jury Selection in Pennsylvania (Sept. 12, 2007)) (internal quotation marks omitted).
This “snapshot” evidence fails to demonstrate systematic
exclusion in 2007, much less in 2012 when Savage moved to
strike the venires. Neither the state legislation nor the state report specifically addresses underrepresentation of Blacks on jury
wheels or venires in federal court in the Eastern District of Pennsylvania.

69a
evidence in his opening and reply briefs is likewise
unpersuasive.44 45

44 In his opening brief, Savage argues that the federal district
courts in Pennsylvania have failed to implement a jury-selection
lesson learned by their sister courts within the Third Circuit.
Federal district courts in New Jersey, Delaware and the Virgin
Islands supplement voter lists with at least one other source. See
Dist. Ct. of Virgin Islands, Juror Selection Plan § E (rev. Feb. 20,
2019) (voter registration and licensed driver lists); Plan of Implementation of U.S. Dist. Ct. for Dist. of New Jersey Pursuant
to Jury Selection & Service Act of 1968 § C(1)(a) (rev. Mar. 20,
2009) (voter registration lists, and if available, lists of licensed
drivers, state income tax filers, and Homestead rebate application filers); Revised Plan of U.S. Dist. Ct. for Dist. of Delaware
for Random Selection of Grand & Petit Jurors, as Amended § 4
(Dec. 22, 2008) (voter registration, licensed driver, and state ID
card lists). Yet this contrast suffers a flaw similar to Savage’s
evidence in the District Court: the use of supplementary sources
in other jurisdictions does not by itself demonstrate systematic
exclusion of Blacks in the Eastern District of Pennsylvania.

Savage’s opening brief also insists that “black people in
Pennsylvania have faced significant challenges in participating
in the voting process.” Def. Br. 147 n.67. This “one-sentence footnote”—devoid of authority or record citation—“falls far short of
meeting the requirement that an appellant raise an issue in his
opening brief or else waive the issue on appeal.” United States v.
Hoffecker, 530 F.3d 137, 162 (3d Cir. 2008).
45 Savage’s reply brief relies on two additional sources in an attempt to demonstrate systematic exclusion: a law review article
by the Chief Judge of the Eastern District, and another article
reporting results of a voter study in Pennsylvania.

Similar to the state commission discussed above, Chief
Judge Juan R. Sanchez explains that a discrepancy in voter registration rates would generate underrepresentation of some
groups among potential jurors. Hon. Juan R. Sanchez, A Plan of
Our Own: The Eastern District of Pennsylvania’s Initiative to In-

70a
We need not reach Howell’s third factor, jury selection reform initiatives, to conclude that Savage has
failed to demonstrate systematic exclusion. His faircross-section challenge fails on these grounds as
well.46
*

*

*

The District Court correctly determined that Savage was unable to establish a prima facie violation of
his Sixth Amendment right to a jury drawn from a
fair cross-section of the community. Even if Savage
had not forfeited the corresponding statutory claim,
he would still be unable to establish a prima facie violation of the JSSA.

crease Jury Diversity, 91 Temp. L. Rev. Online 1, 13 (2019). According to the other article, a Pennsylvania state law enacted in
2012 reportedly disenfranchised voters in mostly black districts
at a much higher rate. Edward A. Purcell, Jr., Reflections on the
Fiftieth Anniversary of the March and the Speech: History,
Memory, Values, 59 N.Y. L. Sch. L. Rev. 17, 54 (2014–2015) (citing study).
Even assuming arguendo that this evidence is timely
presented in reply, it hardly furthers Savage’s argument. These
observations are unspecific to the Eastern District, and they fail
to demonstrate underrepresentation over time.
It is presumably the Eastern District’s institutional role—not
the role of Savage or the District Judge in this case—to conduct
a study and make findings before deciding that voter registration lists must be supplemented with other sources. After all, the
responsibility to create a jury-selection plan consistent with §
1861, and to modify it as needed, resides firmly with the respective district court under the supervision of a reviewing panel
comprised of the circuit’s judicial council and the district’s chief
judge or designee. 28 U.S.C. § 1863(a).
46

71a
VII.

THE DISTRICT COURT DID NOT
ING THE BATSON OBJECTION.

ERR IN DENY-

Savage raised a Batson47 challenge to the Government’s peremptory strike of Prospective Juror 185, a
black female. The District Court determined that the
Government’s reasons for striking Number 185 were
race-neutral and that the prosecution did not strike
her because of race. We conclude that the District
Court did not clearly err.
A. Background
Savage raised his first Batson challenge when the
Government exercised a peremptory challenge to
Number 185,48 the eighth black prospective juror to
47 Batson v. Kentucky, 476 U.S. 79 (1986), held that a prosecutor’s purposeful racial discrimination in the selection of the jury
violated the state prisoner’s equal protection rights under the
Fourteenth Amendment. Savage asserts an analogous claim under “the implicit equal protection component of the Fifth Amendment.” United States v. Clemmons, 892 F.2d 1153, 1155 n.1 (3d
Cir. 1989) (citing United States v. Frame, 885 F.2d 1119, 1137
(3d Cir. 1989)). For ease of reference, we will refer to Savage’s
claim as a Batson claim. The critical inquiry for a trial court is
“whether the defendant has shown purposeful discrimination.”
Foster v. Chatman, 136 S. Ct. 1737, 1747 (2016) (quoting Snyder
v. Louisiana, 552 U.S. 472, 476–77 (2008)).

Prior to jury selection, the Government filed a motion seeking
an anonymous jury panel and heightened jury security. The Government asked to shield from the parties, their attorneys and the
public the prospective jurors’ names, addresses and employers.
The request was based on the “history of violence and intimidation” and a view that such safeguards were “necessary to protect
jurors from the threat of danger posed by Defendants.” A1:18.
The District Court granted the motion, ordered an anonymous
jury, and required the shielding of each prospective juror’s name,
48

72a
be considered. The prior seven had been addressed as
follows:
•
•
•
•
•
•
•

Number 2 was seated;
Number 11 was excused for cause;
Number 20 was stricken by the Government’s
peremptory challenge;
Number 79 was excused for hardship;
Number 108 was excused for cause;
Number 110 was excused for “anonymity reasons,” A34:18041, which are not contained in
the record; and
Number 118 was excused for hardship.49

Number 185, who was age thirty-one, lived in
North Philadelphia with her seventy-eight-year-old
grandmother, her eleven-year-old daughter and her
brother. According to her jury questionnaire, she was
an unemployed home health aide who planned to return to college in the fall semester to pursue a nursing
degree. During voir dire, she stated that she was actively seeking part-time, evening work that would run
from 7:00 to 11:00 p.m. She did not believe that such
address and place of employment. The District Court noted these
same measures had been taken in Savage’s 2005 federal jury
trial and that, while detained in the Federal Detention Center
in Philadelphia, Savage had “plotted to obtain the addresses and
telephone numbers of the jurors” serving in that trial. A1:20. In
addition, the U.S. Marshals Service was ordered to transport the
jurors each day from an undisclosed location to court and back
to that location at the end of the day.
49 The circumstances supporting the excusal of these six black
prospective jurors, including the peremptory strike of Number
20, have been gleaned from the arguments made at the time of
the Batson challenge at issue here.

73a
part-time work would interfere with her performance
as a juror. When asked her general view of the death
penalty, she replied that it “depend[ed] on the circumstances” and that it isn’t “fair to judge someone for the
death penalty without knowing the circumstances.”
A34:18019. The prosecutor described her answers to
questions on the subject as “straight down the middle.” A34:18019.
But Number 185 resided in North Philadelphia,
and the Savage prosecution involved drug transactions, violent crimes and murders that occurred in
that part of the city. The evidence to be presented at
trial could be expected to involve frequent references
to locations within North Philadelphia. Yet when
asked by the prosecutor if she had any concerns about
being on the jury, she replied: “No.”
Neither side moved to strike Number 185 for
cause. The prosecution did, however, exercise a peremptory strike. In response, defendant Merritt raised
a Batson challenge, which was joined by Savage,
Northington and Kidada. The prosecutor responded
to the challenge this way:
[F]irst of all, there’s been no prima facie case
made in this case. The government has, of
course, seated one African-American juror.
There’s no pattern of racial discrimination.
Secondly, as to this juror, in an abundance of
caution I would like to proffer our reasons for
striking this juror; the primary reason being
that she is unemployed and as a result she will
be in court four days a week, all day long, would
be unable to seek work during that time.

74a
She would also not be able to get work during
that time and even if she were to obtain night
shift work as she said she was seeking, that
would take her working all day long in court,
and then until 11 o’clock on the night shift.
That’s simply not conducive to being able to
serve and to pay attention despite her statements that she would try to do that.
So that is the first reason.
The second reason is that in this case, especially with all of the events and all of the
threats and the way this is from North Philadelphia, the fact that she lives in North Philadelphia is troublesome. There are a lot of events
that occurred, and even though these specific
areas did not give this juror cause for concern,
it still concerns the government.
There are potentially 200, 250 witnesses in this
case, many of them are going to be from North
Philadelphia, who would testify to events that
happened there.
This is a case that involves violence, witness intimidation. There’s even a statement in the
Court, intercepted communications from Mr.
Savage indicating that he wanted to go after a
juror. It’s a big concern to the government that
we would have a juror specifically from North
Philadelphia.
A34:18030–31.
Northington responded that the Government had
not taken issue with seating Number 149—a white

75a
male—the day before, even though he would have
been working seventy to eighty hours a week while
serving as a juror and working in the business that he
partially owned.50 Northington also pushed back on
the Government’s second reason for striking Number
185, pointing out that the crimes in this case had actually been committed in various parts of the city.
Counsel added that the Government had “already exercised strikes on minorities.” A34:18033. The District Court interjected that some of the strikes of minorities had been made by the defense. Merritt’s counsel then noted that residents of North Philadelphia
are primarily black, with Savage’s counsel then speculating that the Government was “disappointed they
Number 149 testified that he was part-owner of a business and
the “sole person in the organization that deals with contracts for
new work.” A34:17975. He expressed his belief it would be a
hardship to serve, but thought it was “doable.” Id. When questioned further by Savage’s counsel, the prospective juror mentioned his two-hour commute into the city and stated that jury
service would be “extremely difficult.” A34:17982. Yet Number
149 acknowledged he was used to working long hours and believed he could be a fair and impartial juror. The Government
saw no need to strike for cause. But Savage moved to strike for
cause based on hardship and because he believed Number 149
was “substantially impaired from considering in a meaningful
way mitigation circumstances based on this strong sense of accountability.” A34:18005. In short, Savage considered Number
149 as moving “the needle towards the death penalty.”
A34:18006. The District Court rejected the request to excuse for
hardship, highlighting the prospective juror’s “willingness to be
fair and impartial.” Id. When Savage’s counsel argued that this
prospective juror would be unable to give full attention to the
case, the District Court disagreed. After his unsuccessful bid to
excuse Number 149 for cause, Merritt exercised a peremptory
strike.

50

76a
didn’t get [Number 185] to say something” that would
have been a basis to excuse her for cause. A34:18036.
The District Court took the Batson challenge under advisement and commenced the voir dire of the
last prospective juror of the day. That person was excused, and the parties returned to the subject of the
Batson challenge. Kidada’s counsel recounted that
there had been eight black prospective jurors called
and summarized the status of each.51 She acknowledged that
we don’t have a long laundry list of individuals
to show that there is a pattern, I think the case
law talks about a pattern within the confines of
the number of minorities that you actually
bring into the courtroom and actually interview
as we have done here. Strictly with regard to
race, our position is that the government has
peremptory challenges of two of these AfricanAmericans, and that if you expand on that,
there was one Hispanic that the government
exercised a peremptory challenge today.52
A34:18042.
As noted previously, Number 2 had been seated, Number 11
was stricken for cause, Number 20 was removed by the Government’s peremptory strike, Number 79 was excused for hardship,
Number 108 was removed for cause, Number 110 was excused
due to anonymity concerns, and Number 118 was excused for
hardship. Number 185 was the eighth black prospective juror interviewed.
51

52 The record does not indicate which prospective jurors were
Hispanic and the extent to which they were challenged for cause
or the subject of a peremptory strike.

77a
Savage argued that excluding prospective jurors
simply because they reside in North Philadelphia—
especially when they have not expressed concern
about serving on the jury—was improper. He asserted
that the prosecution should have moved to exclude
generally on that basis prior to voir dire if they were
seeking such a limit on who from Philadelphia County
could serve on the jury. North Philadelphia, the defendants argued, comprises a vast area and that striking prospective jurors because they come from that
part of the city is tantamount to “striking people on
the basis of their race.” A34:18049.
The prosecution repeated that its primary concern
was Number 185’s unemployment and that it did not
“want unemployed people on the jury as a rule. It
doesn’t make any difference whether they are white,
black or otherwise.”53 A34:18049. The Government
noted that it was not challenging the prospective juror
for cause, but using a peremptory strike. As to Number 185’s residing in North Philadelphia, the prosecutor stated that this was, for him, reason for having a
“residual concern” about her. Id. at 18051. Finally,
the Government emphasized that this prosecution
was not only about drug dealing but also included episodes of violence and witness intimidation, pointing
to Savage’s cellblock comments about “going after jurors.” Id. at 18052.

53 The prosecution also offered that it struck an unemployed
white female, which Savage does not dispute.

78a
The District Court ruled that the prosecution provided “race neutral reasons.” A34:18055. The judge
declared:
In looking at the situation, counsel has given
me information with regard to what has transpired during the course of the jury selection
that’s helpful information. We do have one African-American juror who was already selected
to sit in this case. There was one other AfricanAmerican juror that was excused as a result of
a peremptory challenge by the government. We
now have this juror who is African-American,
and the government has exercised a peremptory challenge. It does not appear to me that the
government is exercising its challenges, at least
at this juncture, based upon race. As I said a
minute ago, the reasons given by the government are race neutral. It’s not unusual for an
attorney, whether it be the defense or a prosecutor, to be concerned about a juror who may
live in an area where the crime scene is by and
large located.
With regard to the juror’s hardship, there is no
question but that having her here and looking
for a job, and if she finds a job, working almost
around the clock would be a difficult situation.
Under the circumstances, I’m going to deny the
Batson challenge. I think that the government
has not exercised its challenge for racial reasons.
A34:18055–56. In response to a question from Northington’s counsel, the District Court acknowledged the

79a
broad expanse of North Philadelphia and gave leave
to the defense to ask additional questions during voir
dire of other prospective jurors from North Philadelphia “without getting into exactly where the juror
lives.”54 Id. at 18057.
The voir dire process resulted in seventy-eight
qualified prospective jurors who were neither removed for cause nor for hardship. Of these seventy54 Subsequently, Savage raised a Batson challenge to the exclusion of Number 364, a forty-six-year-old black woman. The District Court recounted the following:

The Government offered the following reasons for the
strike. First of all, that the juror has indicated that she
does not support the death penalty. On the jury questionnaire she indicated that she was opposed to the death
penalty and that it should be used only in extreme cases.
The Government also indicated that they were concerned
that the juror’s son had been involved in a shooting incident. He was shot while sitting in a car and that this was
similar to a matter that is before this court, the Tybius
Flowers shooting. The Government points out that the
juror became very emotional during the questioning with
regard to that incident, actually started crying.
The juror also indicated that the crime had not been
solved and that she thought the police were indifferent in
dealing with it. The Government also indicated that the
juror’s boyfriend was arrested on an assault charge and
the juror visited that boyfriend in prison.
The Government was concerned about all of these things
and these are the reasons why they exercised the peremptory challenge. These reasons are all race neutral
and they are credible.
A34:18073–74. Savage does not challenge the District Court’s
ruling as to this prospective juror on appeal.

80a
eight, eleven were black. After the parties exercised
their peremptory strikes, the jury was comprised of
ten white venirepersons, two black venirepersons,
five white alternates, and one black alternate. The
jury went on to find Savage guilty as charged.
Post-trial, Northington filed a timely motion for a
new trial, which Savage joined. The motion asserted,
inter alia, that the District Court erred by rejecting
the Batson challenges raised by the defense. Judge
Surrick noted that the Government’s reasons for
striking Number 185 were: (1) that “she was unemployed, was actively seeking a job, and was looking for
a position where she could work night shifts”; and (2)
that “the Government had concerns about the juror’s
residency—North Philadelphia—in light of the circumstances of this case.” A1:158. The judge upheld
his earlier conclusion that the strike had been for legitimate race-neutral reasons. He explained that
“[b]ased upon all of the circumstances, including the
fact that, prior to this strike, an African-American juror had already been empaneled, and taking into account the prosecutor’s demeanor and credibility, we
are satisfied that the Government’s reason for striking the juror was not pretextual and not in any way
motivated by a discriminatory intent.” A1:159.
B. Applicable Law
In Batson v. Kentucky, the Supreme Court explained that “[p]urposeful racial discrimination in selection of the venire violates a defendant’s right to
equal protection because it denies him the protection
that a trial by jury is intended to secure.” 476 U.S. at

81a
86. When determining whether there has been purposeful discrimination in the striking of a prospective
juror, the district court engages in a three-step process:
First, a defendant must make a prima facie
showing that a peremptory challenge has been
exercised on the basis of race; second, if that
showing has been made, the prosecution must
offer a race-neutral basis for striking the juror
in question; and third, in light of the parties’
submissions, the trial court must determine
whether the defendant has shown purposeful
discrimination.
Snyder, 552 U.S. at 476–77 (citations and internal
quotation marks omitted). The Snyder Court emphasized that this analysis requires consideration of “all
of the circumstances that bear upon the issue of racial
animosity.” Id. at 478.
In Hernandez v. New York, the Supreme Court instructed that when the prosecution offers to explain
its reasons for exercising its peremptory strike “without any prompting or inquiry from the trial court,”
“the preliminary issue [at step one] of whether the defendant had made a prima facie showing becomes
moot.” 500 U.S. 352, 359 (1991). “The second step of
this process does not demand an explanation that is
persuasive, or even plausible.” Purkett v. Elem, 514
U.S. 765, 767–68 (1995) (per curiam). Rather, it requires
[a] neutral explanation . . . mean[ing] an explanation based on something other than the race
of the juror. At this step of the inquiry, the issue

82a
is the facial validity of the prosecutor’s explanation. Unless a discriminatory intent is inherent
in the prosecutor’s explanation, the reason offered will be deemed race neutral.
Hernandez, 500 U.S. at 360.
The third step requires the trial court “to determine if the defendant has established purposeful discrimination.” Batson, 476 U.S. at 98. “It is not until
the third step that the persuasiveness of the justification becomes relevant.” Purkett, 514 U.S. at 768. “Step
three of the Batson inquiry involves an evaluation of
the prosecutor’s credibility, . . . and the best evidence
of discriminatory intent often will be the demeanor of
the attorney who exercises the challenge.” Snyder,
552 U.S. at 477 (internal quotation marks, bracket
and citations omitted). This step requires the trial
judge to decide “whether the prosecutor’s proffered
reasons are the actual reasons, or whether the proffered reasons are pretextual and the prosecutor instead exercised peremptory strikes on the basis of
race. The ultimate inquiry is whether the [government] was ‘motivated in substantial part by discriminatory intent.’” Flowers, 139 S. Ct. at 2244 (quoting
Foster, 136 S. Ct. at 1754).
The “question of discriminatory intent [at step
three] represents a finding of fact of the sort accorded
great deference on appeal.” Hernandez, 500 U.S. at
364. Because this finding will “largely turn on . . .
credibility,” id., it is reviewed for clear error, id. at
369. See also Snyder, 552 U.S. at 477 (“On appeal, a
trial court’s ruling on the issue of discriminatory in-

83a
tent must be sustained unless it is clearly erroneous.”). As the Supreme Court has instructed, “where
there are two permissible views of the evidence, the
factfinder’s choice between them cannot be clearly erroneous.” Hernandez, 500 U.S. at 369 (quoting Anderson v. Bessemer City, 470 U.S. 564, 574 (1985)).
In ruling upon a Batson objection, the circumstances warranting consideration may include statistical evidence relating to the government’s use of peremptory strikes. Miller-El v. Dretke, 545 U.S. 231,
240–41 (2005). But side-by-side comparisons can be
more powerful than statistics. Id. at 241. “If a prosecutor’s proffered reason for striking a black panelist
applies just as well to an otherwise-similar nonblack
who is permitted to serve, that is evidence tending to
prove purposeful discrimination to be considered at
Batson’s third step.” Id.
C. Savage’s Claims of Error
Against this legal backdrop, we turn to the substance of Savage’s Batson challenge. Savage agrees
there’s no need to address the first step in the analysis
as the prosecution offered its reasons for exercising
the peremptory strike. See Hernandez, 500 U.S. at
359. Nor does Savage contend that the Government
failed to offer race-neutral reasons for striking Number 185: the prospective juror’s unemployment and
the safety concerns associated with her residence are
both facially neutral.55 Savage tacitly acknowledges
Of course, the defense did assert during voir dire that striking
Number 185 because she lived in North Philadelphia—an area
that was in their view “predominantly” black—was simply a
proxy for “striking people on the basis of their race.” A34:18034;
55

84a
as much in that he targets the District Court’s engagement with the third step of the Batson analysis:
its determination that there was no purposeful discrimination. See Def. Br. 155–56. Savage contends
that the nondiscrimination finding was clearly erroneous because the District Court procedurally and
substantively erred.
1. Procedural Error
Court’s Analysis

in

the

District

The Supreme Court has reiterated that trial
courts must consider “all of the circumstances that
bear upon the issue of racial animosity” in ruling on a
Batson objection. Foster, 136 S. Ct. at 1748 (quoting
Snyder, 552 U.S. at 478); see also Miller-El, 545 U.S.
at 239. Savage contends that the District Court failed
to heed this instruction and engage with the evidence
before it.
We cannot conclude that the District Court failed
to consider all of the circumstances. We have “note[d]
that ‘a judge considering a Batson challenge is not required to comment explicitly on every piece of evidence in the record.’” Hardcastle v. Horn, 368 F.3d
246, 259 (3d Cir. 2004) (quoting Riley v. Taylor, 277
18049. But the record here is devoid of evidence concerning the
racial composition of North Philadelphia. Moreover, the Government did not simply identify where Number 185 resided as the
reason for striking her. It noted its concern about safety and security given the circumstances of the case that warranted the
empanelment of anonymous juries in 2005 and again in this
prosecution. Considering the totality of the Government’s second
reason for exercising a peremptory strike, we see nothing inherently suggestive of racial discrimination.

85a
F.3d 261, 290 (3d Cir. 2001)). Here, the District Court
heard argument from counsel for all the parties, took
the objection under advisement, entertained further
argument from the parties, was very familiar with the
security issues surrounding this prosecution, and had
the opportunity to observe the demeanor of counsel
and all prospective jurors before ruling on any challenges.
2. Substantive Challenges to the District
Court’s Ruling
Savage first faults the District Court for considering the fact that a black juror had already been
seated. Savage relies on Sanchez v. Roden, 753 F.3d
279, 299 (1st Cir. 2014), in arguing that this observation by the judge constituted error. In Sanchez, the
First Circuit reviewed a ruling in a § 2254 petition
and concluded that the Massachusetts Appeals Court
had unreasonably applied Batson at step one by acknowledging the “presence of other black people on
the jury.” Id. The First Circuit explained that “by focusing exclusively” on the fact that some black jurors
had already been seated, the court “sent the unmistakable message that a prosecutor can get away with
discriminating against some African Americans . . . so
long as a prosecutor does not discriminate against all
such individuals.” Id. (emphasis omitted). Because
the prosecution had not been required to articulate a
race-neutral explanation for its challenge, the First
Circuit vacated the judgment and remanded for further proceedings.
Savage’s reliance on Sanchez is misplaced. It is
one thing for a court to “focus[] exclusively” at step

86a
one on the fact that some black individuals have been
seated on a jury, Id. Such a narrow focus would be
error. But a court may—indeed should—consider all
the circumstances at step three, including the status
of black prospective jurors who were not excused for
cause or hardship. Here, it was Kidada who, in responding to the Government’s reasons for exercising
its strike, initially reviewed the status of the seven
black prospective jurors called prior to Number 185.
And contrary to Savage’s assertion, the District Court
recited more than the mere fact that one black juror
had been seated. In ruling, the judge recounted the
status of the three black individuals who had not been
excused (Numbers 2, 20 and 185), and then considered the reasons proffered by the Government for
striking Number 185. The District Court’s mentioning that Number 2, a black person, had been seated
on the jury was insufficient, by itself, to constitute error in the ruling as to Number 185.
a. Number 149 and Number 185 are not
similarly situated.
Savage asserts that the District Court “failed to
consider or address the contrast between the Government’s treatment of Jurors 149 and 185.”56 Def. Br.
In a footnote, Savage submits that the Government’s acceptance of other white prospective jurors with more pressing
hardships further demonstrates that its reasons for striking
Number 185 were pretextual. Def. Br. 161 n.71. He specifically
refers to Numbers 315, 551 and 734. But these prospective jurors
were not comparable. Savage cites the “extreme inconvenience”
of Number 315’s unavailability to her children. Id. (citing
A33:17562). Number 315, however, was a working mother with
two children, and the concern she expressed was based in part
56

87a
160. In Savage’s view, Number 149, a white male, and
Number 185, a black female, were similarly situated.
If both served, he claimed, each would be subject to
extremely long days that might interfere with his or
her service on the jury. While the Government did not
object to Number 149, it did move to strike Number
185.
Miller-El teaches that “side-by-side comparisons”
can be “powerful” evidence “tending to prove purposeful discrimination.” 545 U.S. at 241. Yet Savage correctly notes that the District Court did not discuss
Number 149. We do not consider this an oversight.
Number 149 had been voir dired and challenged by
the defense just the day before, so the District Court
no doubt recalled what that voir dire had revealed.
While there is some congruence between Numbers
on the possibility that the jury would be sequestered. Number
551, Savage contends, had a more pressing hardship than Number 185 as his “employer could not find a replacement.” Def. Br.
161 n.71. But the concern expressed about a replacement was
assuaged when Number 551 realized that finding a replacement
was his employer’s concern and not his. He therefore conceded
he did not have a personal hardship that would affect juror service. As to Number 734, Savage cites her husband’s upcoming
surgery and her caregiver responsibility for her eightyeightyear-old mother as hardships that were greater than Number 185’s extended day. The transcript of voir dire reveals, however, that Number 734’s caregiver responsibility was not for her
mother, but her mother-in-law. Moreover, that caregiver responsibility was simply companionship; her mother-in-law would not
be in physical danger if she were to serve on the jury. And although her husband’s surgery would require him to temporarily
be in a sling, Number 734 stated that he could “take care of himself,” A34:18129, and that after the first four weeks of his recovery, her husband could then assist with his mother’s care.

88a
149 and 185 in that each would have been required to
serve a long day (yet only if Number 185 was able to
obtain employment) there were also significant differences. Notably, Number 149 was not unemployed. In
fact, he was a business owner whose track record included regularly “work[ing] long hours.” A34:18003.
Number 185 had no such track record, so her capacity
and stamina for serving both on the jury and in a parttime job were unknown. Further, the Government
had no reason to be concerned for Number 149’s safety
based on his area of residence. Given the differences
between Number 149 and Number 185, the side-byside comparison does not support Savage’s claim.
b. The Government’s concern about
Number 185’s safety was not baseless.
Savage also contends that the Government’s express concern for Number 185’s safety because she resided in North Philadelphia was baseless. We
acknowledge, as we must, that Number 185 denied
knowing any of the prospective witnesses named on
eleven pages of the jury questionnaire, and that she
did not express concern about serving on the jury. Yet
her responses do not themselves render the Government’s stated safety concerns without merit. The indictment charged Savage and others with participating in a RICO conspiracy that involved murders, drug
trafficking and arson, not to mention tampering with
and retaliating against a witness. The District Court
had already demonstrated its safety concerns by directing that the jury would serve anonymously and
that special security measures were to be taken in

89a
transporting jurors to and from court. And the District Court noted that an anonymous jury had been
seated in Savage’s 2005 trial. There was also the prosecution’s stark reminder that Savage had threatened
to “go[] after jurors.” A34:18052.
Nor can we ignore that Number 185’s stated unfamiliarity with those named in the jury questionnaire
did not rule out that she may have been unwittingly
acquainted with any one of them based on physical
appearance from having previously seen the person
somewhere or even knowing of a person by nickname.
Based on the foregoing, we reject Savage’s contention
that the Government’s express concern regarding
Number 185’s North Philadelphia residence lacked
factual support.
c. Statistical evidence does not compel
a conclusion that the Government’s
peremptory strike was racially motivated.
Savage’s final argument in support of his Batson
claim marshals statistical evidence that he claims
demonstrates that the Government’s strike was motivated by race.57 Savage notes that of the seventy-eight
He asserts that statistical evidence was presented to, but ignored by, the District Court when the defense raised its final
Batson challenge to Number 364. At that time, Savage asserted
that there was an “even greater pattern” of discrimination,
A34:18065, as the Government had exercised twelve peremptory
strikes and “50 percent of them have been against minorities,
four African-Americans and two Hispanics.” A34:18061. Given
the substance of Number 364’s voir dire examination and her
emotional response to the questioning about her son, the District
Court was not obliged to comment on all of the evidence before
57

90a
prospective jurors in the venire, the Government exercised twenty-two peremptory strikes, and that six
of them were against black prospective jurors. This
yields a 27.3% strike rate against Blacks that “far exceeded [their] representation . . . in the venire as a
whole (9.67%) as well as in the master jury wheel for
the Eastern District of Pennsylvania (8.37%).” Def.
Br. 165.
Savage also points out that the Government
struck six of the eleven black prospective jurors,
which equates to a strike rate of 54.5%. In contrast,
the Government struck only sixteen of the sixty-seven
non-black prospective jurors, yielding a 23.9% strike
rate.
Unsurprisingly, the Government contends that
these statistics are not a basis for overturning the District Court’s Batson findings. Rather than address the
total number of Blacks in the venire, the Government
focuses on the number of Blacks at the time of the second Batson challenge to Number 364, when there
were forty-three individuals in the venire, six of whom
were black. The Government highlights that it had
accepted three Blacks: Number 2, who was the first
black juror seated on the jury, and two others who,
ironically, the defense had struck.
We acknowledge that there is more than one way
to analyze the racial statistics presented in this case.
Most instructive for us are the numbers considered by
ruling from the bench. There were several patently race-neutral
grounds cited by the prosecution for striking Number 364, all of
which the District Court found credible.

91a
the Supreme Court in its more recent Batson cases,
Miller-El, Foster and Flowers—the total number of
Blacks in the venire and the number of strikes of
those black venire members.
In Miller-El, there were eleven Blacks in the venire. 545 U.S. at 240, 265. The government struck ten
of the eleven black prospective jurors, which constitutes a “strike rate”58 of 91%. Id. at 240–41. These
strikes were made “in a selection process replete with
evidence that the prosecutors were selecting and rejecting potential jurors because of race” by
“shuffl[ing]” the jury59 and using “disparate lines of
questioning . . . meant to induce qualms about applying the death penalty (and thus explain a strike),” id.
at 265, as well as phrasing questions in a way “meant
to induce a disqualifying answer,” id. at 266. Given
these circumstances, the Court rejected the state’s argument that it had not stricken two of the prospective
jurors because they were black. Id.
In Foster, stark numbers also contributed to the
Court’s conclusion that the prosecution had violated
Batson. The venire’s composition in that case included
four Blacks. 136 S. Ct. at 1743. The government
struck each of them, yielding a 100% strike rate for
the black prospective jurors. Id. at 1742–43. Those
numbers were accompanied by shifting explanations
Miller-El does not utilize the term “strike rate.” But it did compute the percentage of Blacks in the venire that were stricken by
the government. For that reason, we use the term “strike rate.”

58

59 Miller-El explained that jury shuffling is a Texas procedure
that allows either party to rearrange the order in which the venire is seated and questioned. 545 U.S. at 253.

92a
for why the strikes were made, misrepresentations
about the record, and a copy of the prosecutor’s annotated file identifying not only which venirepersons
were black but also focusing on race in several other
respects with an eye to seating an all-white jury. Id.
at 1744–45, 1754. The Supreme Court commented
that the “sheer number of references to race in that
file is arresting.” Id. at 1755.
Most recently, the Supreme Court vacated the
judgment of the Mississippi Supreme Court in Flowers after concluding that the evidence demonstrated
the state court had committed clear error in rejecting
the defendant’s Batson challenge. 139 S. Ct. at 2251.
The venire in Flowers’s sixth trial included six Blacks.
The state moved to strike five of the six Blacks in the
venire, yielding a strike rate of 83%. Id. at 2237. The
Supreme Court also considered the state’s repeated
use of peremptory strikes in all of Flowers’s six trials,
cumulatively removing forty-one of forty-two Blacks,
an overall strike rate of 97.6%.60 Id. at 2235–36. This
usage of strikes against black venirepersons was consistent with other evidence of discriminatory strikes.
Together, all the evidence convinced the Court that
striking one of the black prospective jurors had been
“motivated in substantial part by discriminatory intent.” Id. at 2248. The Court “reiterate[d]” that it did
not “decide that any one . . . fact[] alone would require
reversal.” Id. at 2251. Rather, it emphasized that “all
of the relevant facts and circumstances taken together establish that the trial court at Flowers’s sixth
60 At times, the state used all, or almost all, of its peremptory
strikes against Blacks. 139 S. Ct. at 2236–37.

93a
trial committed clear error” in denying the defendant’s Batson objection. Id.
Here, contrary to Savage’s characterization, the
numbers are not comparable. There were eleven
Blacks among the prospective jurors. The Government’s challenging of six of the eleven established a
54.5% strike rate. That percentage is well below the
strike rates of 91% in Miller-El, 100% in Foster, and
83% in Flowers.
Moreover, the 54.5% rate in this case is not nearly
as powerful as Savage contends because we may take
into account the seating of the black alternate. See
Bond v. Beard, 539 F.3d 256, 269–70 (3d Cir. 2008)
(considering black alternates in determining whether
the government’s strikes raised an inference of discrimination). Accordingly, there were twelve Blacks
in the venire thereby yielding a strike rate of 50%.
That strike rate, by itself, hardly supports Savage’s
Batson claim.
*

*

*

In sum, we conclude that Savage has failed to establish that the District Court clearly erred when it
found that the Government’s strike of Number 185
was not motivated by race. At the time of this Batson
challenge, the District Court made a finding that the
“government ha[d] not exercised its challenge for racial reasons.” A34:18056. Later, in ruling on post-trial
motions, the District Court expressly took “into account the prosecutor’s demeanor and credibility” and
found that the Government was not “motivated by a
discriminatory intent.” A1:159. These factual findings

94a
are entitled to “great deference.” Hernandez, 500 U.S.
at 364. We will not disturb them.
IX.

THE DISTRICT COURT DID NOT PLAINLY ERR IN

INSTRUCTING THE JURY ON THE DOCTRINE OF TRANSFERRED INTENT.

This claim concerns the 2004 firebombing of the
Coleman house. Recall that Coleman’s mother, Marcella, was in the home with his infant son (Damir Jenkins), his twelve-year-old nephew (Tajh Porchea), his
fifteen-year-old nephew (Sean Rodriguez), his cousin
(Tameka Nash) and her ten-year-old daughter (Khadijah Nash). All six individuals—two adults and four
children—perished in the fire. Savage was charged
with the six murders as violent crimes in aid of racketeering (“VICAR”) under 18 U.S.C. § 1959.
In his jury charge, Judge Surrick explained the
doctrine of transferred intent. That instruction was
given to assist the jury in deciding whether, if it found
that Savage had a specific intent to kill Marcella Coleman, such intent could be “transferred” to the five
other victims to meet the intent element of the six
VICAR murder charges. Specifically, the District
Court instructed:
Now, in determining whether a defendant, in
this instance Kaboni Savage, Robert Merritt,
Kidada Savage, committed the murders of the
Nash family as noted in Counts 10 through 15,
you may find that any such crime was committed in aid of racketeering by applying the following principle of transferred intent. The doctrine of transferred intent and its additional application says that if a defendant shoots one

95a
person with the intent to kill and inadvertently
kills another, you are permitted to attribute or
transfer the defendant’s intent to kill to the second person. Now, as applied in this case, ladies
and gentlemen, that principle says that if a defendant planned to commit a murder to maintain or increase his or her position in an enterprise and in attempting to carry out that plan
committed a murder of another person, the intent of the planned murder may be transferred
to the other murders. What this means for your
purposes, ladies and gentlemen, is that the government may prove the fourth and fifth elements of the offense charged in Counts 11
through 15 by proving that on October 9, 2004,
Defendants Kaboni Savage, Robert Merritt and
Kidada Savage specifically intended to cause
the death of Marcella Coleman for the purpose
of maintaining or increasing their position in
the enterprise, and then willfully set the fire
that killed Tameka Nash, Sean Anthony Rodriguez, Tajh Porchea, Khadijah Nash and Damir
Jenkins, as well as Marcella Coleman. So the
intent to kill Marcella Coleman is transferred to
the other victims.
A29:15197–99 (emphasis added).
Savage claims this instruction incorrectly defined
the doctrine of transferred intent and thereby impermissibly “gave jurors permission to ‘transfer’—or
more accurately, to multiply—Savage’s alleged intent
that Lamont would kill Marcella Coleman . . . to the

96a
other arson victims, including the children.”61 Def. Br.
167. In addition, because a similar instruction was
given at sentencing, Savage claims the instruction
“infected Savage’s capital-sentencing hearing, producing an unreliable death verdict.” Id. We are not
persuaded.
A. Standard of Review
A defendant claiming error in jury instructions
must inform the District Court of any specific objection and specify the grounds for it. See Gov’t of Virgin
Islands v. Cruz, 478 F.2d 712, 718 (3d Cir. 1973); Fed.
R. Crim. P. 30(d), 52(b). Savage did not object on the
trial record to the transferred intent instruction, despite the District Court’s reminders to counsel that
they should do so. See A29:15225 (“All right, counsel,
any additions or corrections to the Court’s charge?”);
A29:15227 (In response to a reference to a discussion
during the charge conference, the District Court
stated: “You better be more specific because we were
in chambers, and it’s not on the record.”).
Because the claimed error is unpreserved, we review for plain error. Jones v. United States, 527 U.S.
373, 388 (1999) (if a capital defendant fails to preserve
an objection to a jury instruction, plain error review
61 Although Savage seems to imply that there was insufficient
evidence to support the murder convictions as to the arson victims other than Marcella Coleman, his claim challenges only the
District Court’s jury instruction on transferred intent. Savage
has therefore forfeited a sufficiency of the evidence claim. See
United States v. Baxter, 951 F.3d 128, 136 (3d Cir. 2020) (declining to consider forfeited claim), petition for cert. filed, No. 205133 (July 14, 2020).

97a
applies). To prevail on plain error review, Savage
must establish: (1) there was an error; (2) it was plain;
(3) it affected his substantial rights (i.e., it affected the
outcome of the proceeding); and (4) it affected the fairness, integrity or public reputation of the proceeding.
United States v. Olano, 507 U.S. 725, 733–36 (1993).
An error is plain if it is “obvious” or “clear under current law.” United States v. Vazquez, 271 F.3d 93, 100
(3d Cir. 2001) (en banc) (quoting Olano, 507 U.S. at
734).
B. The “generic” doctrine of transferred intent in the context of VICAR murder
The VICAR statute, 18 U.S.C. § 1959, “was enacted by Congress in 1984 as a violent crime corollary
to the RICO statute.” United States v. Jones, 566 F.3d
353, 361 (3d Cir. 2009). It proscribes certain violent
crimes—including murder—when committed, inter
alia, to maintain or increase one’s position in a racketeering enterprise.62 Although VICAR expressly applies to murder, it does not define it. See 18 U.S.C. §

62

Section 1959(a)(1) provides:
Whoever, as consideration for the receipt of, or as consideration for a promise or agreement to pay, anything of
pecuniary value from an enterprise engaged in racketeering activity, or for the purpose of gaining entrance to or
maintaining or increasing position in an enterprise engaged in racketeering activity, murders, kidnaps, maims,
assaults with a dangerous weapon, commits assault resulting in serious bodily injury upon, or threatens to commit a crime of violence against any individual in violation
of the laws of any State or the United States, or attempts
or conspires so to do, shall be punished—for murder, by

98a
1959. Savage argues that the absence of a definition
indicates Congress’s desire to employ a “generic” definition of murder—and more specifically, transferred
intent—for VICAR purposes. He suggests that the
source for a generic definition should be “indications
of national legal consensus” such as “the Model Penal
Code, learned treatises, and other sources that show
how the majority of jurisdictions defined the crime.”
Def. Br. 180.
Our Court has not had occasion to decide whether
VICAR requires an instruction specific to state law,
or if a “generic” definition is preferable. Some jurisdictions view generic definitions as appropriate in
RICO cases. See United States v. Kehoe, 310 F.3d 579,
588 (8th Cir. 2002) (“RICO’s reference to state crimes
identifies the type of generic conduct which will serve
as a RICO predicate and satisfy RICO’s pattern requirement.” (internal quotation marks omitted));
United States v. Tolliver, 61 F.3d 1189, 1208–09 (5th
Cir. 1995) (“[F]ederal courts typically require only a
‘generic’ definition of the underlying state crime in a
RICO charge.”), vacated on other grounds by Moore v.
United States, 519 U.S. 802 (1996).
But the VICAR statute requires a predicate act
that is chargeable under state or federal law. See 18
U.S.C. § 1959 (prohibiting certain predicate acts in
“violation of the laws of any State or the United
States”). So as the Second Circuit has observed, trial
courts frequently instruct juries on the elements of
death or life imprisonment, or a fine under this title, or
both.

99a
the specific state or federal offense that is charged as
the predicate act rather than outlining a “generic”
version of the crime. United States v. Carrillo, 229
F.3d 177, 184–85 (2d Cir. 2000) (suggesting that the
“best practice” is to instruct juries on the elements of
the state offenses that are charged as predicate acts
because, even if theoretically permissible, instruction
on a “generic” offense risks prejudice to the defendant
and possible reversal on appeal); see also United
States v. Adkins, 883 F.3d 1207, 1211 (9th Cir. 2018)
(“[C]ourts, in certain circumstances, should instruct
on the state definition or otherwise risk prejudice to
the defendant.”). Notably, in Savage’s case, the District Court’s instruction on the elements of “murder”
tracked Pennsylvania law because murder under
Pennsylvania law was the predicate act charged, and
Savage does not claim that the District Court erred by
defining the predicate offense of murder under Pennsylvania law rather than “generically.” See A29:15194
(“[I]n order for the state offense of murder to be considered as a racketeering act, the government must
prove beyond a reasonable doubt that a member of the
enterprise committed murder as defined by the Commonwealth of Pennsylvania.”); see also A29:15172–73
(defining murder under Pennsylvania law for RICO
purposes).
For purposes of Savage’s transferred intent claim,
we need not choose between Pennsylvania’s state law
definition and a “generic” definition. That is because
the doctrine is essentially the same regardless of
whether it is Pennsylvania’s definition or a generic
version. As the Supreme Court instructed in Taylor v.
United States, a “generic” definition usually refers to

100a
the common law meaning of a term, unless contemporary usage and relevant statutes indicate a divergence from that definition. 495 U.S. 575, 592–93
(1990). Pennsylvania’s doctrine of transferred intent
is rooted in the common law and is consistent with the
formulation adopted in the Model Penal Code. See 18
Pa. Cons. Stat. Ann. § 303(b);63 Commonwealth v.
Gaynor, 648 A.2d 295, 298 (Pa. 1994) (Pennsylvania
adopted the Model Penal Code’s version of transferred
intent); Commonwealth v. Gibbs, 626 A.2d 133, 138
(Pa. 1993) (“The ‘transferred intent’ theory provides
that if the intent to commit a crime exists, this intent
can be transferred for the purpose of finding the intent element for another crime.”); see also, e.g., Commonwealth ex rel. McCant v. Rundle, 211 A.2d 460,
63 Section 303(b) codifies the doctrine of transferred intent. It
provides:

When intentionally or knowingly causing a particular result is an element of an offense, the element is not established if the actual result is not within the intent or the
contemplation of the actor unless:
(1) the actual result differs from that designed or contemplated as the case may be, only in the respect that a different person or different property is injured or affected
or that the injury or harm designed or contemplated
would have been more serious or more extensive than
that caused; or
(2) the actual result involves the same kind of injury or
harm as that designed or contemplated and is not too remote or accidental in its occurrence to have a bearing on
the actor’s liability or on the gravity of his offense.
With section 303(b), Pennsylvania has adopted the Model Penal
Code’s approach to transferred intent. See Model Penal Code §
2.03(2).

101a
461 (Pa. 1965); Commonwealth v. Johnson, 68 A. 53,
53 (Pa. 1907); Commonwealth v. Eisenhower, 37 A.
521, 521 (Pa. 1897). We can discern no difference between a generic version and Pennsylvania’s articulation of the doctrine.
The parties discuss the propriety of the District
Court’s transferred intent instruction by considering
cases from numerous jurisdictions, many of which
rely on the common law doctrine, to establish that
there is a consensus as to how the majority of jurisdictions define the doctrine. Indeed, as Maryland’s
Supreme Court has observed, “there is a singular unanimity among the decisions in the overwhelming majority of the states” concerning application of transferred intent. Gladden v. State, 330 A.2d 176, 181
(Md. 1974). We therefore follow the parties’ approach
and consider a broad survey of cases from jurisdictions throughout the United States before reaching
our conclusions as to the “generic” meaning and application of the transferred intent doctrine.
C. Savage fails to establish that the District
Court’s transferred intent instruction
clearly diverges from the “classic doctrine.”
Both Savage and the Government agree that an
instruction on transferred intent can be permissible
during a jury charge on the meaning of intent in the
context of VICAR murder, Def. Br. 181; Gov’t Br. 145,
and we concur. As the Court of Appeals for the Second
Circuit concluded in United States v. Concepcion,
transferred intent applies to VICAR crimes. 983 F.2d

102a
369, 381–82 (2d Cir. 1992); see also United States v.
Rahman, 189 F.3d 88, 141 (2d Cir. 1999).
Savage raises a more narrow issue in challenging
the District Court’s transferred intent instruction: he
draws a distinction between “classic” or “generic”
transferred intent—the long-accepted common law legal principle that he concedes could apply in a VICAR
murder case—and “expanded” or “multiplied intent,”
which he argues is a novel legal theory. See Def. Br.
176, 188.
According to Savage, transferred intent specifically and exclusively means that “a defendant, who
intends to kill one person but instead kills a bystander,
is deemed the author of whatever kind of homicide
would have been committed had he killed the intended victim.” Def. Br. 181 (emphasis added) (internal quotation marks omitted) (quoting 2 Wharton,
Criminal Law § 144 at 197 (14th ed. 1979)). Thus,
transferred intent in Savage’s view: (1) is limited exclusively to situations in which the intended victim
survives; and (2) applies only when there is one intended victim and one actual, unintended victim.
Having circumscribed the doctrine in this fashion,
Savage is able to argue that because Marcella was
murdered, the specific intent to murder her cannot
“multiply” to the additional victims.
We do not share this narrow view of the doctrine.
Caselaw from numerous jurisdictions over many decades indicates that transferred intent, as it is generically and historically understood in the common law,
applies to the circumstances of Savage’s case.

103a
We begin with United States v. Sampol, 636 F.2d
621 (D.C. Cir. 1980), a case that recognized the deep
historical roots of the common law doctrine of transferred intent and applied it in a manner contrary to
Savage’s narrow approach. In Sampol, three defendants were accused of detonating a car bomb that killed
the Chilean Ambassador to the United States along
with another passenger. The defendants were
charged, inter alia, with first-degree murder as to
both victims, and the jury found them guilty. On appeal, the Sampol defendants argued that there was
insufficient evidence of intent to kill the other passenger who was an unintended victim. The Sampol court
was unpersuaded:
We reject this argument because of the doctrine
of transferred intent. Under this doctrine one
who intends to kill one person and kills a bystander instead is deemed to have committed
whatever form of homicide would have been
committed had he killed the intended victim.
There are even stronger grounds for applying
the principle where the intended victim is killed
by the same act that kills the unintended victim.
Id. at 674 (citation omitted) (emphasis added).
In reaching its determination, the Sampol court
described the common law roots of the transferred intent doctrine, going back to the English courts of the
1500s and continuing through modern American statutory and common law. Id. at 674–75. Examination of
the doctrine led the Sampol court to conclude that the
defendants were accountable for both murders—de-

104a
spite the fact that the defendants had intended a single death (the ambassador’s) and had achieved that
goal. Id. at 675 (“[T]he mens rea of a defendant as to
his intended victim will carry over and affix his culpability when such criminal conduct causes the death
of an unintended victim.” (quoting Gladden, 330 A.2d
at 189)). Thus, in Sampol, common law transferred
intent was not limited to what Savage would have us
conclude is the “classic” scenario in which one unintended victim is killed rather than the intended target.
Similarly, in United States v. Weddell, the Eighth
Circuit applied the doctrine of transferred intent to
circumstances akin to Sampol. 567 F.2d 767, 768 (8th
Cir. 1977). There, the defendant was convicted of two
murders: a bullet passed through the intended victim
and also killed an unintended victim. Id. The trial
court instructed, among other things, that, once intent as to the intended victim was determined, the
jury “could possibly find a lesser degree or no degree”
as to the unintended victim, but not a greater degree.
Id. at 769. On appeal, the Eighth Circuit affirmed the
convictions and concluded that the instruction “adequately cover[ed] the applicable law.”64 Id. at 770.
Savage contends that Weddell supports his claim that transferred intent does not apply to his circumstances, arguing that
“the court of appeals approved the jury instructions because they
did not direct the jury, if it found an intent to kill the first victim,
to transfer that to the second one as a matter of law.” Def. Br.
184. We fail to see how the permissive nature of the jury instruction in Weddell supports Savage’s argument. The Weddell Court
did not discuss, much less conclude, whether transferred intent
is limited to a situation in which the intended victim survives or

64

105a
Pennsylvania similarly interprets transferred intent more broadly than Savage suggests. In Commonwealth v. Jones, the Pennsylvania Supreme Court
considered the claims of a defendant who was convicted of capital murder for participating, with two codefendants, in “firing a barrage of twenty bullets at [a
group of] people in the courtyard” resulting in two
deaths. 610 A.2d 931, 935, 938 (Pa. 1992).65 The bullets were apparently intended for a specific victim,
but that person was not hit. Id. at 935. The Jones
Court rejected the defendant’s claim that he lacked
specific intent to murder the two unintended victims:
where there is only a single victim. To the contrary, the Weddell
Court upheld the transferred intent instruction although the defendant murdered both an unintended and an intended victim.
See Weddell, 567 F.2d at 768. Moreover, the instruction in Weddell is consistent with the instruction in Savage’s case, inasmuch
as they both contain permissive, not mandatory, language. See
A29:15198 (“The doctrine of transferred intent . . . says that if a
defendant shoots one person with the intent to kill and inadvertently kills another, you are permitted to attribute or transfer the
defendant’s intent to kill to the second person.”).
Savage would have us limit our consideration to sources that
existed in 1984—the year of the enactment of the VICAR statute.
He has not cited any authority to support that limitation. In any
event, the doctrine of transferred intent does not appear to have
changed since 1984, so we need not take a position on the issue.
Absent some indication that a post-1984 case has diverged from
the common law “generic” doctrine, more recent caselaw buttresses our understanding just as pre-1984 caselaw does. In
other words, although the transferred intent doctrine is of “ancient vintage,” “[i]t has lost none of its patina by its application
over the centuries down unto modern times; its viability is recognized by its current acceptance and application.” Gladden, 330
A.2d at 181.

65

106a
“[U]nder the doctrine of transferred intent, criminal
responsibility is not affected by the fact that the bullets struck persons other than the one for whom they
were apparently intended.” Id. at 938. Thus, Pennsylvania holds that the intent to kill one individual can
“multiply”—to use Savage’s word—to apply to several
unintended victims. Indeed, in another case decided
the same year as Jones, Pennsylvania’s Supreme
Court echoed this conclusion, and further observed
that it would be “ludicrous” to hold otherwise. It
stated:
Appellant argues that the death sentence is excessive in this case because he . . . was convicted
of murder of the first degree based upon “transferred intent.” This position is ludicrous. The
jury found that appellant did intend to kill and
did kill, and he has no basis to compare himself
with those who did not. One who intentionally
kills, but whose fatal blow falls on a mistaken
victim, is if anything more culpable than murderers who do not carelessly kill innocent bystanders. This type of murder . . . is the product
of a heart turned not only against the intended
victim but also against all those anonymous but
within range of the murder weapon.
Commonwealth v. Williams, 615 A.2d 716, 727 (Pa.
1992) (first and third emphases added).
New Jersey takes the same approach as Pennsylvania. In State v. Worlock, the Supreme Court of New
Jersey rejected the claim that the successful murder
of an intended victim meant that the specific intent
could not transfer to the unintended victim. 569 A.2d

107a
1314, 1324–25 (N.J. 1990). Although New Jersey codified the transferred intent doctrine in its penal code,
the Worlock court recognized that the transferred intent doctrine is a long-standing principle that predates the adoption of the penal code. The doctrine provides that “[w]hen a defendant intentionally shoots at
one victim but kills another, his punishment should
be consistent with his intent and not his bad aim.” Id.
at 1325. The Worlock court also observed that federal
courts apply transferred intent in the same manner.
Id. (citing Sampol, 636 F.2d 621, and Weddell, 567
F.2d 767). Thus, the Worlock court rejected the defendant’s claim that he lacked specific intent to kill
the unintended victim solely because he also killed
the intended victim.66 Id.

66 There are numerous jurisdictions that similarly interpret
transferred intent. For instance, the District of Columbia Court
of Appeals has concluded that “application of the transferred intent doctrine is not limited to situations in which the intended
victim survives the deadly assault.” Lloyd v. United States, 806
A.2d 1243, 1251 (D.C. 2002); see also Hunt v. United States, 729
A.2d 322, 326 (D.C. 1999). And the Indiana Supreme Court concluded that a defendant’s intent to kill his wife transferred to the
accidental death of their child, whom the wife was holding during the attack. Noelke v. State, 15 N.E.2d 950, 952 (Ind. 1938).
The Appellate Court of Illinois rejected a claim that transferred
intent cannot apply when both an intended and unintended victim are killed. People v. Young, 635 N.E.2d 473, 481 (Ill. App.
Ct.), appeal denied, 642 N.E.2d 1300 (Ill. 1994). And in Smith v.
Commonwealth, the Supreme Court of Kentucky upheld a death
sentence where the defendant, in the course of ultimately killing
the single intended victim, also killed three unintended victims.
734 S.W.2d 437, 447 (Ky. 1987).

108a
The Supreme Court of Connecticut has considered—and rejected—the same arguments that Savage makes here. In State v. Hinton, the defendant
killed three individuals with a single shot of “triple
ought” buckshot and was charged with three murders. 630 A.2d 593, 596 (Conn. 1993). The defendant
disputed the transferred intent jury charge, contending that the instruction was erroneous because (1) the
intended victim was killed; and (2) there was more
than one victim. Id. at 597. “The defendant claims
that because the court’s transferred intent instruction
improperly allowed the jury to find him guilty of all
three murders even if there had been only one intended victim, all three intentional murder convictions must be reversed.” Id.
The Hinton court rejected this argument. It concluded that Connecticut’s statute codifying transferred intent “leads to the result that, when a person
engages in conduct with the intent to kill someone,
there can be a separate count of murder for every person actually killed by the conduct.” Id. at 598. The
Hinton court considered the typical usage of singular
phrasing in the century-old description of the transferred intent doctrine—the same formulation that
Savage relies upon—but it observed that the use of
the singular was never intended to limit the doctrine’s
application exclusively to single-victim scenarios.
“[A]lthough the traditional formulation of the doctrine of transferred intent is usually stated in singular terms, that does not mean that such intent, once
employed, is thereby totally expended.” Id. at 598 (citation omitted). Concluding that such use of the singular should not rule out application of the doctrine

109a
to conduct that kills more than one unintended victim, and consistent with Sampol, Jones, Worlock and
other cases, the Hinton court observed that “the purpose of deterrence is better served by holding defendant responsible for the knowing or purposeful murder
of the unintended as well as the intended victim.” Id.
at 599.
In yet another case, Commonwealth v. Melton, the
Supreme Judicial Court of Massachusetts observed
that “[w]e have never required that a defendant’s intent be directed at the precise victim of the crime.”
763 N.E.2d 1092, 1097 (Mass. 2002). Instead, “the
requisite mens rea must be shown, but it does not
need to be shown separately or independently for each
victim. Rather, once established as to any victim, it
satisfies that element with respect to all other victims,
even if those victims are unintended or even unknown
to the defendant.” Id. at 1098 (emphasis added).
Although Melton concerned assault rather than
murder, the opinion discussed the longstanding principle of transferred intent, citing numerous examples
of decisions from many jurisdictions going back decades, including Sampol, Worlock and Hinton, in
which the “principle of transferred intent applies to
satisfy the element of intent when a defendant harms
both the intended victim and one or more additional
but unintended victims.” Id. at 1097 (emphasis
added). The Melton court recognized that a minority
of jurisdictions take the view that transferred intent
does not apply in cases in which a defendant succeeds
in perpetrating the intended crime against the intended victim. Id. at 1098 n.7 (citing People v. Birreuta, 208 Cal. Rptr. 635 (Cal. 1984) and Ford v. State,

110a
625 A.2d 984 (Md. 1993)).67 The Melton court expressly rejected that minority view: “[t]o hold that a
defendant who succeeds in perpetrating a crime on
his intended victim cannot commit any form of intentional crime against anyone who is not his actual intended victim fails to recognize the harm perpetrated
on others who are unfortunate enough to be injured
or killed by the defendant’s criminal conduct.” Id.
Savage cites a handful of cases lending support to
his narrow interpretation of transferred intent. For
instance, he points to Roberts v. State, in which the
Court of Criminal Appeals of Texas observed that,
where the intended victim was pregnant—a fact of
which the defendant was not aware—“we cannot use
transferred intent to charge capital murder based on
the death of the unintended [unborn] victim, as that
would require using a single intent to support the requirement of two intentional and knowing deaths.”

Notably, the portions of both cases cited as supporting the minority view have since been set aside in favor of the majority approach. In 2002, the Supreme Court of California concluded that
Birreuta’s transferred intent analysis was incorrect and that
“[i]ntent to kill transfers to an unintended homicide victim even
if the intended target is killed.” People v. Bland, 48 P.3d 1107,
1115 (Cal. 2002). Similarly, in 2011, the Court of Appeals of Maryland rejected the dictum in Ford and concluded that “transferred intent is fully applicable where both the intended victim
and an unintended victim are killed.” Henry v. State, 19 A.3d
944, 951 (Md. 2011). Bland and Henry rely on many of the same
cases we have cited in our discussion concerning the “classic”
meaning of transferred intent, including Sampol, Worlock and
Hinton.
67

111a
273 S.W.3d 322, 330 (Tex. Ct. Crim. App. 2008).68 But
the mere existence of a minority view of a legal doctrine hardly suggests that a jury instruction that was
consistent with the majority view amounts to plain
error.
Numerous state and federal cases, decided both
before and after VICAR’s 1984 enactment, reveal that
the principle of transferred intent is not limited to scenarios in which the intended victim survives and
there is only one unintended victim. While we concede
that the examples we have considered do not constitute an exhaustive study, they are more than sufficient to allow us to conclude—with confidence—that
if there is any error in the District Court’s transferred
intent instruction, such error is neither “clear” nor obvious.” The District Court’s transferred intent instruction was not plainly erroneous.69

The Roberts court based its conclusion on the language of the
Texas capital murder statute, which requires a discrete “specific
intent to kill” as to each death. Id. The Court of Criminal Appeals
of Texas has since limited Roberts, observing that its dictum requiring “proof of intent to kill the same number of persons who
actually died” was improvident. Ex parte Norris, 390 S.W.3d 338,
341 (Tex. Ct. Crim. App. 2012). But Texas requires separate conduct to establish “separate intents” for each death. Id.
68

69 Savage also contends that the prosecution made erroneous arguments by relying on a transferred intent theory. For the same
reasons we are unpersuaded that the transferred intent jury instruction was plainly erroneous, we are similarly unpersuaded
that counsel’s arguments consistent with the jury instruction
constitute plain error.

112a
D. The District Court did not plainly err by
instructing the jury on transferred intent
during the sentencing phase.
During the sentencing phase of Savage’s trial, the
District Court again instructed the jury on the doctrine of transferred intent. See A32:16804–05. Savage
did not object. See A32:16841–47. Savage now contends this instruction was improper, claiming that
“[n]either the language nor the history of the [Federal
Death Penalty Act (FDPA), 18 U.S.C. § 3591,] suggests that Congress meant to incorporate . . . the
transferred-intent doctrine into the determination of
aggravating factors at a capital-sentencing hearing.”
Def. Br. 187. In addition, Savage challenges the transferred intent instruction as unconstitutional. Relying
upon Enmund v. Florida, 458 U.S. 782, 794, 800
(1982), he argues that the Eighth Amendment prohibits the use of transferred intent in a capital sentencing to substitute for proof of the actual mental state.
We do not agree.
Savage has not identified any case holding that
transferred intent cannot apply in a federal capital
sentencing.70 Indeed, there appears to be little federal
Although Savage’s brief makes a passing reference to the effect
that language and history of the FDPA prohibit the use of transferred intent in a federal capital sentencing proceeding, he provides no substantive argument concerning the language and history of the FDPA to support this position. Such a passing reference is insufficient to raise the issue for our review. See United
States v. Hoffecker, 530 F.3d 137, 162–63 (3d Cir. 2008). The issue is therefore forfeited. See United States v. Pelullo, 399 F.3d
197, 222 (3d Cir. 2005) (“It is well settled that an appellant’s failure to . . . argue an issue in his opening brief constitutes waiver
70

113a
authority on the subject, although several state courts
have upheld the application of the doctrine in capital
sentencing. See People v. Shabazz, 130 P.3d 519, 524–
25 (Cal. 2006); State v. Higgins, 826 A.2d 1126, 1137–
38 (Conn. 2003); Diaz v. State, 860 So.2d 960, 969
(Fla. 2003); Williams, 615 A.2d at 727–28; Smith v.
Commonwealth, 734 S.W.2d 437, 447 (Ky. 1987). And
the Supreme Court has upheld on habeas review the
application of transferred intent in a state capital proceeding. Bradshaw v. Richey, 546 U.S. 74, 75–76
(2005).
Savage’s sole support for his position that transferred intent cannot apply in a federal capital sentencing proceeding appears in a footnote in his brief
wherein he argues that “the few state courts to consider the issue [of transferred intent as an aggravated
factor at a capital sentencing] have expressly refused
to read the doctrine into their death-penalty statutes.” Def. Br. 187 n.75. He cites two “murder for hire”
cases: Grandison v. State, 670 A.2d 398 (Md. 1995)
and Commonwealth v. Gibbs, 626 A.2d 133 (Pa. 1993).
Neither case stands for the proposition he advances.
In Grandison, the defendant was sentenced to
death for hiring an assassin to commit a double murder on his behalf. 670 A.2d 398, 406–07. The assassin
killed one intended victim and, due to mistaken identity, killed a second, unintended victim. In considering Grandison’s challenge to his sentence, Maryland’s
highest court rejected his claim that the sentencing
of that issue on appeal.”). Accordingly, we will focus, as Savage
did, on whether caselaw supports his claim.

114a
court erred by not instructing the jury on the doctrine
of transferred intent. Id. at 424. According to Grandison, the aggravating circumstances of his “murder
for hire” conviction necessarily relied on a transferred
intent theory. Id. The Maryland Court of Appeals disagreed because, for purposes of capital sentencing, it
did not matter if the victim was intended or unintended. Rather, the specific aggravating factor under
Maryland law concerned only whether or not Grandison hired someone to commit a murder; it did not
matter who the intended or unintended murder victim was.71 Id. Accordingly, while transferred intent
might have played a role in Grandison’s conviction, it
simply was irrelevant to the “murder for hire” aggravating factor at sentencing. Id. at 425.
Gibbs concerned the sentencing of an assassin who
committed a murder for hire, rather than the individual who did the hiring. 626 A.2d 133, 135 (Pa. 1993).
Gibbs was hired to kill a woman’s husband but ultimately killed a security guard instead; he received a
death sentence for that murder.72 Id. The Pennsylvania Supreme Court considered whether “the trial

71 Under then-applicable Maryland law, an aggravating factor
for the death penalty included whether “the defendant employed
or engaged another to commit the murder and the murder was
committed under an agreement or contract for remuneration or
promise of remuneration.” Md. Code Ann., Crim. Law § 2303(g)(1)(vii). Section 2-303 was repealed in 2013.

Although there was some question as to whether Gibbs was
hired to kill the security guard as well, see Gibbs, 626 A.2d at
135, the possibility that the security guard was an intended victim was not relevant to consideration of the transferred intent
72

115a
court erred in determining that the common law principle of transferred intent is applicable with respect
to finding a ‘contract killing’ an aggravating circumstance when the victim is not the person the killer was
hired to kill.” Id. at 136.
The Pennsylvania Supreme Court considered
Gibbs’s petition seeking review of the refusal to issue
an order precluding consideration of the death penalty. The Superior Court ruled that the trial court
erred in applying transferred intent to a “contract
killing” as an aggravating circumstance because
Gibbs killed an unintended victim rather than the individual he was hired to murder. The Pennsylvania
Supreme Court affirmed. It concluded that the “plain
language” of its aggravating factor statute, 42 Pa.
Cons. Stat. § 9711(d)(2), required the killing of the intended victim, not an unintended one.73 “The plain
language of the statute does not include an unintended victim. Rather the clear language requires
that the defendant was to be paid to kill the victim.”
Id. at 138 (emphasis added).
Gibbs and Grandison simply do not demonstrate
that the District Court in Savage’s case plainly erred
in instructing on transferred intent at sentencing.

issue because there was no challenge to the sufficiency of the evidence, see id. at 137.
73 The statute provides, “[t]he defendant paid or was paid by another person or had contracted to pay or be paid by another person or had conspired to pay or be paid by another person for the
killing of the victim.” 42 Pa. Cons. Stat. § 9711(d)(2) (emphasis
added).

116a
Both Gibbs and Grandison concerned specific statutory language in “murder for hire” aggravating factor
statutes. Neither case speaks to the applicability vel
non of transferred intent at a capital sentencing absent the murder for hire context. Rather, each relied
on specific statutory language to determine whether
transferred intent could apply under the particular
circumstances.
“Murder for hire” was not one of the aggravating
factors in Savage’s sentencing. More importantly,
Savage does not argue that the aggravating factors
that were at issue in his sentencing included analogous language making the particular identity of the
victim—and more specifically, whether the victim
was intended or unintended—relevant, as it was in
Gibbs and Grandison.
Savage’s aggravating factors do not rely on
whether the actual victim was the intended victim.
See 18 U.S.C. § 3592(c)(6) (“The defendant committed
the offense in an especially heinous, cruel, or depraved manner in that it involved torture or serious
physical abuse to the victim.”), (c)(9) (“The defendant
committed the offense after substantial planning and
premeditation to cause the death of a person or commit an act of terrorism.”), (c)(11) (“The victim was particularly vulnerable due to old age, youth, or infirmity.”), (c)(16) (“The defendant intentionally killed or
attempted to kill more than one person in a single
criminal episode.”). For instance, one aggravating factor refers to “substantial planning and premeditation
to cause the death of a person.” § 3592(c)(9) (emphasis
added). The statutory language does not imply that

117a
the “person” must be an intended victim, and Savage
offers nothing to persuade us otherwise.
In support of his Eighth Amendment claim, Savage relies on Enmund, 458 U.S. at 794, 800, to argue
that the Eighth Amendment “forbids application of
felony-murder doctrine at capital sentencing to substitute for proof of [an] accomplice’s actual mental
state.” Def. Br. 188. Enmund’s felony-murder analysis does not assist Savage.
Enmund concerned a defendant who remained in
the getaway car during a robbery that resulted in two
unplanned murders. Id. at 788. Under Florida law,
Enmund was convicted of first-degree murder under
the felony-murder rule and was sentenced to death.
Id. at 786. The Supreme Court held that imposition of
the death penalty in such a circumstance violates the
Eighth Amendment. Id. at 788.
Specifically, the Supreme Court concluded that it
is cruel and unusual punishment to sentence a defendant to death if the defendant “aids and abets a
felony in the course of which a murder is committed
by others but who does not himself kill, attempt to
kill, or intend that a killing take place or that lethal
force will be employed.” Id. at 797 (emphasis added).
For death penalty purposes, consideration should
have been limited to the crime in which Enmund actually participated—robbery—rather than murder.
Id. at 801 (“For purposes of imposing the death penalty, Enmund’s criminal culpability must be limited
to his participation in the robbery, and his punishment must be tailored to his personal responsibility
and moral guilt.”).

118a
Savage’s circumstances differ profoundly from
Enmund’s, rendering Enmund unhelpful to our plain
error review. It was a decision specific to felony murder, and it was of central importance to the Supreme
Court’s analysis that Enmund did not intend to kill
anyone. Id. at 798 (“Enmund himself did not kill or
attempt to kill; and . . . the record before us does not
warrant a finding that Enmund had any intention of
participating in or facilitating a murder.” (emphasis
added)). In contrast, the jury determined that Savage
specifically intended the death of at least one individual, Marcella Coleman. Because Savage acted with lethal intent, we are not convinced that Enmund clearly
supports an Eighth Amendment violation in Savage’s
case.
*

*

*

Savage has failed to show that the District Court’s
transferred intent instructions, both during the trial
and during the sentencing proceeding, were plainly
erroneous.
X.

THE DISTRICT COURT DID NOT PLAINLY ERR IN

ITS JURY INSTRUCTION ON LAY OPINION EVIDENCE.

At trial, Agent Kevin Lewis provided lay opinion
testimony intended to assist the jury in understanding the meaning of certain coded words and phrases
used during recorded conversations between Savage
and his confederates. Savage claims that the District
Court’s jury instruction concerning Lewis’s opinion
testimony violated Rule 701 of the Federal Rules of
Evidence by suggesting that he was an expert.

119a
We conclude that the District Court’s lay opinion
jury instruction is not plainly erroneous for two reasons. First, the instruction is consistent with our
Court’s caselaw. Second, when viewed in context, the
instruction did not mislead the jury or suggest that it
should afford undue weight to Agent Lewis’s opinions.
A. Standard of Review
Savage argues that our review is de novo because
he has raised a legal question as to whether the District Court presented the correct legal standard in its
jury instructions. See United States v. Urban, 404
F.3d 754, 779 (3d Cir. 2005) (“Where the challenge to
a jury instruction is a challenge to the instruction’s
statement of the legal standard, we exercise plenary
review.” (internal quotation marks omitted)). But
Savage did not object on the record to the instruction
on Agent Lewis’s testimony,74 and we have already rejected the claim that we should simply assume that
Savage objected off the record during the District
Court’s charging conference. See generally supra Part
III. Accordingly, under Rules 30 and 52 of the Federal
Rules of Criminal Procedure, we review the instruction for plain error. See Fed. R. Crim. P. 30(d), 52(b);
United States v. Salahuddin, 765 F.3d 329, 337 (3d
Cir. 2014); United States v. Brennan, 326 F.3d 176,
192 (3d Cir. 2003). We therefore “inquire whether
there is (1) an error; (2) that is plain; and (3) that affected substantial rights.” Salahuddin, 765 F.3d at
337 (internal quotation marks omitted). If all three of
74 Savage raised other objections to the jury instructions, but not
an objection to the lay opinion instruction.

120a
those inquiries are answered in the affirmative, we
have discretion to grant relief “if the error seriously
affects the fairness, integrity, or public reputation” of
the proceeding. Id. (citation omitted). An error is
“plain” if it is “obvious” or “clear under current law.”
Vazquez, 271 F.3d at 100 (quoting Olano, 507 U.S. at
734) (internal quotation marks omitted).
B. The District Court’s instruction is consistent with our caselaw concerning lay
opinion testimony.
Federal Rule of Evidence 701 permits the introduction of lay opinion testimony that is “rationally
based on the witness’s perception” and “helpful to
clearly understanding the witness’s testimony or to
determining a fact in issue.” Fed. R. Evid. 701(a), (b).
Rule 702, in contrast, provides for the admission of
testimony by a qualified expert, which must be based
on, inter alia, “the expert’s scientific, technical, or
other specialized knowledge.” Fed. R. Evid. 702(a).
In 2000, Rule 701 was amended to add subsection
(c), which bars lay testimony “based on scientific,
technical, or other specialized knowledge within the
scope of Rule 702.” Fed. R. Evid. 701(c). Subsection (c)
clarifies the distinction between lay opinion and expert opinion “to eliminate the risk that the reliability
requirements set forth in Rule 702 will be evaded
through the simple expedient of proffering an expert
in lay witness clothing.” Fed. R. Evid. 701 advisory
committee’s note to 2000 amendments. Subsection (c)
“prohibits a party from ‘us[ing] Rule 701 as an endrun around the reliability requirements of Rule 702
and the disclosure requirements of [Federal Rule of

121a
Criminal Procedure 16].’” United States v. Shaw, 891
F.3d 441, 453 (3d Cir. 2018) (alterations in original)
(quoting Hirst v. Inverness Hotel Corp., 544 F.3d 221,
227 (3d Cir. 2008)).
Here, Savage claims that the District Court’s instruction on Agent Lewis’s lay opinion testimony ran
afoul of Rule 701(c).75 The District Court instructed:
Ladies and gentlemen, witnesses are generally
not permitted to state their own personal opinions about questions during the trial. However,
a witness may be allowed to testify to his or her
opinion if it is rationally based on the witness’
perception and is helpful to a clear understanding of the witness’ testimony or to the determination of the facts at issue.
I’m speaking now about the testimony you will
remember of Special Agent Kevin Lewis. In this
75 Prior to trial, the Government moved in limine to admit Agent
Lewis’s lay opinion testimony pursuant to Rule 701. Robert Merritt and Kidada Savage opposed the motion; Kaboni Savage did
not, although he earlier filed a preemptive motion requesting
that the District Court grant him any pretrial relief sought by
his co-defendants. Kidada argued, inter alia, that Lewis’s testimony would violate Rule 701(c). The District Court granted the
Government’s motion. The District Court acknowledged some
risks in having Agent Lewis provide lay opinion testimony, but
concluded that “such risks are mitigated by vigorous policing of
the Government’s questioning to ensure Special Agent Lewis
does not testify about clear statements or provide speculative
opinions outside the realm of his rational perception.” A1:96 (citation omitted). Despite his co-defendants’ pretrial objection to
the admission of Lewis’s opinion testimony, Savage does not
challenge on appeal the District Court’s decision to admit the
testimony.

122a
case, Agent Lewis was permitted to offer his
opinions as to the meaning of certain words or
conversations. He gave you these opinions
based upon his perceptions.
The opinions of this witness should be received
and given whatever weight you think is appropriate, given all of the other evidence in this
case and the other factors discussed in these instructions.
Now, ladies and gentlemen, in weighing Special
Agent Kevin Lewis’ opinion testimony, you
must consider his qualifications, the reasons for
his opinions, the reliability of the information
supporting those opinions, as well as the other
factors discussed in these instructions for
weighing the testimony of witnesses.
You may disregard the opinion entirely, if you
decide that the witness’ opinion was not based
on sufficient knowledge or skill or experience or
training or education. You may also disregard
the opinion if you conclude that the reasons
given in support of the opinion are not sound,
or if you conclude that the opinions are not supported by the facts shown by the evidence or if
you think that the opinions are outweighed by
other evidence.
So, ladies and gentlemen, you have opinions
that were offered to you by experts who have
special training, skill, knowledge and experience. You have opinions that were offered to
you by Agent Lewis, a lay witness, based upon
his perceptions and his experience as it relates

123a
to this matter. It is for you to weigh those opinions and give them whatever weight you believe
they deserve.
A29:15119–21 (emphasis added).76
Savage focuses on the District Court’s mention of
Agent Lewis’s qualifications, reasons for his opinions,
and reliability of those opinions, as well as the District Court’s statement that the opinions may be disregarded if based upon insufficient knowledge, skill,
experience, education or training. He contends that
this language pertains to expert witness testimony
The District Court’s instruction varied from our Circuit’s
model jury instruction on lay opinion testimony, which provides:
76

Witnesses are not generally permitted to state their personal opinions about important questions in a trial. However, a witness may be allowed to testify to his or her
opinion if it is rationally based on the witness’ perception
and is helpful to a clear understanding of the witness’
testimony or to the determination of a fact in issue.
In this case, I permitted (name) to offer (his)(her) opinion
based on (his)(her) perceptions. The opinion of this witness should receive whatever weight you think appropriate, given all the other evidence in the case and the other
factors discussed in these instructions for weighing and
considering whether to believe the testimony of witnesses.
3d Cir. Model Criminal Jury Instructions § 4.09. Our Model Jury
Instructions are not binding on District Courts, however, and a
variance from the model instruction does not necessarily constitute error. United States v. Shannon, 766 F.3d 346, 352 n.9 (3d
Cir. 2014); United States v. Maury, 695 F.3d 227, 259 (3d Cir.
2012) (“[T]he Model Instructions are not-binding on this, or any,
court. They thus cannot invalidate the decisions of this Circuit
or others.”).

124a
under Rule 702 and therefore improperly invited the
jury to consider Lewis as an expert and “to trust
Lewis unduly, despite his lay status.” Def. Br. 193.
Savage argues that the purportedly erroneous instruction could reasonably have affected the outcome
of the trial and sentencing.
The District Court’s instruction is not clearly erroneous because it is consistent with our Circuit’s
caselaw addressing lay opinion testimony. We require
lay testimony to be grounded either in experience or
specialized knowledge. In Asplundh Manufacturing
Division v. Benton Harbor Engineering, we held that
“in order to be ‘helpful,’ an opinion must be reasonably
reliable,” and Rule 701 therefore “requires that a lay
opinion witness have a reasonable basis grounded either in experience or specialized knowledge for arriving at the opinion that he or she expresses.” 57 F.3d
1190, 1201 (3d Cir. 1995).
In the time since Congress amended Rule 701, we
have repeatedly affirmed our holding in Asplundh
that the reliability of lay opinion testimony should be
assessed in light of the witness’s relevant specialized
knowledge and experience. See, e.g., Eichorn v. AT&T
Corp., 484 F.3d 644, 649–50 (3d Cir. 2007) (“In order
to satisfy these . . . Rule 701 requirements, the trial
judge should rigorously examine the reliability of the
lay opinion by ensuring that the witness possesses
sufficient special knowledge or experience which is
germane to the lay opinion offered.” (quoting
Asplundh, 57 F.3d at 1201)); Donlin v. Philips Lighting N. Am. Corp., 581 F.3d 73, 83 (3d Cir. 2009) (“A
trial judge must rigorously examine the reliability of
a layperson’s opinion by ensuring that the witness

125a
possesses sufficient specialized knowledge or experience which is germane to the opinion offered.” (citing
Asplundh, 57 F.3d at 1200–01)). We have clarified
that “[w]hen a lay witness has particularized
knowledge by virtue of her experience, she may testify—even if the subject matter is specialized or technical—because the testimony is based upon the layperson’s personal knowledge rather than on specialized knowledge within the scope of Rule 702.” United
States v. Fulton, 837 F.3d 281, 301 (3d Cir. 2016)
(quoting Donlin, 581 F.3d at 81).
Thus, “as long as the technical components of the
testimony are based on the lay witness’s personal
knowledge, such testimony is usually permissible”
under Rule 701.77 Id.; (5th Cir. 2011) (“Testimony
need not be excluded as improper lay opinion, even if
some specialized knowledge on the part of the agents
was required, if it was based on first-hand observations in a specific investigation.”); United States v.
Rollins, 544 F.3d 820, 831–32 (7th Cir. 2008) (agent’s
testimony as to the meaning of coded terms is based
on experience in the particular case and is therefore
77 The permissibility of lay opinion testimony based upon specialized knowledge aligns with the advisory committee’s note to
Rule 701, which explains that the amendment is not designed to
prevent lay witnesses from testifying based on “particularized
knowledge that the witness has by virtue of his or her position.”
Fed. R. Evid. 701 advisory committee note to 2000 amendments;
see also, e.g., Tampa Bay Shipbuilding & Repair Co. v. Cedar
Shipping Co., 320 F.3d 1213, 1222 (11th Cir. 2003) (concluding,
based on the advisory committee’s note citing Asplundh, that
“opinion testimony by business owners and officers is one of the
prototypical areas intended to remain undisturbed” by Rule
701(c)).

126a
permissible under Rule 701). Indeed, as one of our sister circuits has observed, it is appropriate to inform a
jury of a lay witness’s qualifications and experience so
that the jurors may assess the value of the opinion
testimony:
Had the agent been testifying exclusively as a
lay witness about the code words he had
learned the meaning of in the course of his investigation of the defendants’ conspiracy, it
would not have been improper to introduce him
to the jury as an experienced investigator, rather than a novice listening to taped conversations of drug conspirators for the first time, any
more than it is improper to ask an eyewitness
whether he has good vision.
United States v. Moreland, 703 F.3d 976, 983 (7th Cir.
2012), holding modified on other grounds by United
States v. Jett, 908 F.3d 252 (7th Cir. 2018).
In light of our precedent, the error Savage says is
in the jury instructions is certainly not “clear under
current law.” Vazquez, 271 F.3d at 100.
C. When viewed in context, the District
Court’s instruction did not mislead the
jury.
We abide by the longstanding principle that jury
instructions are not to “be evaluated in artificial isolation,” but “must be evaluated in the context of the
overall charge.” United States v. Berrios, 676 F.3d
118, 137 (3d Cir. 2012) (citations omitted). When the
District Court’s lay opinion instruction is considered
in context, the instruction does not suggest that Agent

127a
Lewis’s opinion testimony should be treated as that of
an expert to whom the jury should defer. See id. (“[A]n
instruction that appears erroneous on its own may be
remedied by the balance of the court’s instructions.”).
Immediately prior to giving the instructions regarding Agent Lewis’s lay opinion, the District Court
provided instructions regarding expert witnesses. It
used the term “expert” throughout those instructions,
specifying that “because of their knowledge, their
skill, their experience, their training and their education in a particular science or profession, these witnesses were permitted to give you their opinions in
those areas of their expertise.” A29:15118 (emphasis
added). The District Court did not mention Agent
Lewis during its instruction on expert opinion.
When it reached its instructions regarding Agent
Lewis, the District Court preceded those instructions
with the transition that “a witness may be allowed to
testify to his or her opinion if it is rationally based on
the witness’ perception . . . . I’m speaking now about
the testimony you will remember of Special Agent
Kevin Lewis.” A29:15119–20 (emphasis added).
Shortly thereafter, it stated that Agent Lewis’s opinions were based on his perceptions, rather than on expertise. See A29:15120 (reiterating that “[Agent
Lewis] gave you these opinions based upon his perceptions”) (emphasis added). And the District Court concluded by explaining a third time the difference between expert opinion testimony and Agent Lewis’s lay
opinion testimony: “So, ladies and gentlemen, you
have opinions that were offered to you by experts who
have special training, skill, knowledge and experience. You have opinions that were offered to you by

128a
Agent Lewis, a lay witness, based upon his perceptions and his experience as it relates to this matter.”78
A29:15121 (emphasis added). Thus, the District Court
took appropriate care to explain to the jury that Agent
Lewis’s lay opinion testimony was based upon his personal perceptions and was different from the testimony of the expert witnesses.
The District Court also instructed the jury in multiple instances that it was not required to accept the
testimony of any witness, including Agent Lewis. See
A29:15098 (“Ladies and gentlemen, you have to give
the evidence whatever weight you believe it deserves.”); A29:15104 (“[Y]ou must decide what testimony you believe and what testimony you did not believe.”); A29:15107 (“[A]fter you make your own judgment about the believability of a witness, you can
then attach to that witness’ testimony the importance
or the weight that you think that witness’ testimony
deserves.”); A29:15121 (“It is for you to weigh those
opinions and give them whatever weight you believe
they deserve.”). And of course, as a general matter, we
presume that juries follow the instructions given to
them. United States v. Bryant, 655 F.3d 232, 252 (3d
Cir. 2011).

78 Relatedly, the District Court instructed that a witness’s status
as a law enforcement officer does not mean that the individual’s
testimony is entitled to any special weight: “The fact that a witness is employed as a law enforcement officer does not mean that
his or her testimony necessarily deserves more or less consideration or greater or lesser weight than that of any other witness.”
A29:15108–09.

129a
Considered in context, then, the District Court’s
instructions do not suggest the jury should give undue
weight to Agent Lewis’s opinion testimony. Savage
has failed to establish that the District Court’s jury
instruction on lay opinion amounts to plain error.
XI.

NO

ERROR OCCURRED DURING THE PENALTY-

PHASE PROCEEDINGS.

Finally, Savage raises six issues relating to his
“penaltyphase” proceedings. None constitute reversible error.
A. Background
We start by reviewing the capital-sentencing process generally, and the Federal Death Penalty Act
specifically. Every criminal prosecution involves two
basic segments: First, is the defendant guilty? And
second, if he is guilty, what should the punishment
be? In most trials, the trier-of-fact—paradigmatically,
a jury—answers the first question; the judge decides
the second, considering the government’s recommendation before choosing from the statutory menu of potential punishments.
But when the government seeks the death penalty, recognizing the special need “to maintain a link
between contemporary community values and the penal system,” the law requires that a jury answer the
second question. Gregg v. Georgia, 428 U.S. 153, 190
(1976) (plurality opinion) (quoting Witherspoon v. Illinois, 391 U.S. 510, 519 n.15 (1968)); see also Ring v.
Arizona, 536 U.S. 584, 615–16 (2002) (Breyer, J., concurring in the judgment). And to pass constitutional
muster, a sentencing statute authorizing the death

130a
penalty must guide the jury’s discretion with “general
rules that ensure consistency in determining who receives a death sentence.” Kennedy v. Louisiana, 554
U.S. 407, 436 (2008). It must also empower the jury to
consider “the ‘character and record of the individual
offender and the circumstances of the particular offense.’” Id. (quoting Woodson v. North Carolina, 428
U.S. 280, 304 (1976) (plurality opinion)).
In federal courts, the Federal Death Penalty Act,
18 U.S.C. §§ 3591–3599, authorizes the death penalty
for defendants guilty of certain homicides, as long as
an aggravating circumstance makes a death sentence
neither “excessive” nor “grossly disproportionate.”
Coker v. Georgia, 433 U.S. 584, 592 (1977) (plurality
opinion). And even then, all the aggravating circumstances must outweigh any mitigating circumstances
“that might induce a sentencer to give a lesser punishment.” Ring, 536 U.S. at 611 (Scalia, J., concurring); see § 3593(e).
If the government intends to seek the death penalty, it must file a pretrial notice “stating that . . . the
circumstances of the offense” justify a capital sentence and specifying which “aggravating factor or factors” it “proposes to prove.” § 3593(a). The FDPA identifies sixteen statutory aggravating factors for homicide, and the government can propose additional nonstatutory aggravators tailored to the particular offense. See § 3592(c).79 The FDPA also identifies seven

79

The sixteen statutory aggravating factors are:
1. if the homicide occurred during commission of another
crime;

131a
mitigating factors, plus a catchall provision for any
“factor[] in the defendant’s background, record, or
character or any other circumstance of the offense
that mitigate[s] against imposition of the death sentence.” § 3592(a).80
2. if the defendant previously committed a violent felony
involving a firearm;
3. if the defendant previously committed an offense punishable by death or life imprisonment;
4. if the defendant previously committed other serious offenses;
5. if the homicide created a grave risk of death to other persons;
6. if the homicide was especially heinous, cruel or depraved;
7. if the defendant procured the homicide by payment;
8. if the defendant committed the homicide for pecuniary
gain;
9. if the homicide involved substantial planning and premeditation;
10. if the defendant previously committed two felony drug
offenses;
11. if the victim was particularly vulnerable;
12. if the defendant previously committed a serious federal
drug offense;
13. if the homicide occurred during a continuing criminal enterprise involving drug sales to minors;
14. if the victim was a high public official;
15. if the defendant previously committed sexual assault or
child molestation; or
16. if the homicide involved multiple killings or attempted
killings.
See § 3592(c)(1)–(16).
80

The seven mitigators include:
1. if “[t]he defendant’s capacity to appreciate the wrongfulness of the defendant’s conduct or to conform conduct to
the requirements of law was significantly impaired”;

132a
The government’s notice triggers “a bifurcated
procedure . . . in which the question of sentence is not
considered until the determination of guilt has been
made.” Gregg, 428 U.S. at 190–91 (plurality opinion).
If the jury returns a guilty verdict, a second proceeding is conducted to determine the sentence. Each side
may offer opening arguments; the government presents testimony and exhibits supporting the noticed
aggravators; the defense may present testimony and
exhibits supporting any mitigators; each side may put
on rebuttal testimony and exhibits; each side may offer closing statements; the District Court instructs
the jury; the jury then deliberates. See § 3593(c). Notably, the Federal Rules of Evidence do not apply—
the District Court may exclude relevant information
only “if its probative value is outweighed by the danger of creating unfair prejudice, confusing the issues,
or misleading the jury.” Id.
To impose the death penalty, the jury must unanimously find that

2. if “[t]he defendant was under unusual and substantial
duress”;
3. if “the defendant’s participation was relatively minor”;
4. if another “equally culpable” defendant “will not be punished by death”;
5. if “[t]he defendant did not have a significant prior history
of other criminal conduct”;
6. if “[t]he defendant committed the offense under severe
mental or emotional disturbance”; or
7. if “[t]he victim consented to the criminal conduct that resulted in the victim’s death.”
See § 3592(a)(1)–(7).

133a
•
•

at least one statutory aggravating factor exists
beyond a reasonable doubt; and
all the aggravating factors found unanimously
beyond a reasonable doubt outweigh “the perceived significance” of all the mitigating factors
that any juror found by a preponderance of the
evidence.

United States v. Ebron, 683 F.3d 105, 150 (5th Cir.
2012) (quoting Jones v. United States, 527 U.S. 373,
408 (1999) (Ginsburg, J., dissenting)); see § 3593(c)–
(d).
Here, the Government sought the death penalty
on all thirteen homicide counts. The jury found multiple aggravators for each, including the statutory aggravator that the arson murders were especially heinous, cruel or depraved, and the nonstatutory aggravators that Savage posed a risk of future dangerousness, and that he caused the victims’ families injury
and loss.81 The jury found several mitigators as well,
The jury found others too. The longest list applied to Counts
12 through 15, which relate to the arson murders. The jury found
eleven aggravators, seven statutory and four nonstatutory:
• Savage knowingly created a grave risk of death to other
persons;
• Savage committed the offense in an especially heinous,
cruel or depraved manner;
• Savage committed the offense as consideration for pecuniary gain;
• the offense entailed substantial planning and premeditation;
• Savage had a previous serious federal narcotics conviction; Savage intended to kill more than one person in a
single criminal episode;
• the victims were particularly vulnerable;
81

134a
including the statutory mitigator that Lamont Lewis,
although an equally culpable defendant, would not receive the death penalty. And they found nonstatutory
mitigators that “Savage has been a positive influence
in the lives of his children, niece, and nephew,” and
that he “can continue to be an important influence in
the lives of his children.” A2:790. Yet after weighing
the aggravators against the mitigators, the jury unanimously agreed Savage should be sentenced to death
on each count.
Savage now contends that the Government offered
erroneous argument supporting the “future dangerousness” aggravator, that the Government impermissibly offered victimimpact statements supporting the
“harm to victims’ families” aggravator, and that the
District Court improperly admitted the arson victims’
autopsy photographs to support the “especially heinous, cruel, or depraved” aggravator. He also argues
that the Government’s penalty-phase summation relied on unconstitutional inferences to undercut the
“equally culpable” mitigator, that the Government
improperly rebutted the mitigators concerning Savage’s relationship with his family, and that the verdict form layout impermissibly emphasized the aggravators while giving short shrift to the mitigators. We
reject each claim for the reasons that follow.

•
•
•
•

Savage posed a risk of future dangerousness;
Savage caused injury and loss to the victims;
Savage had committed additional murders; and
Savage obstructed justice.

135a
B. The Government permissibly argued that
Savage posed a risk of future dangerousness.
As noted, the Government proposed—and the jury
unanimously found beyond a reasonable doubt—the
nonstatutory aggravator “that Kaboni Savage would
be a danger in the future to the lives and safety of
other persons, and is likely to commit or procure the
commission of, retaliatory and other criminal acts of
violence in the future.” A2:737–87. Savage now claims
that three arguments the Government made to support this aggravator lacked factual support: First,
that the “Special Administrative Measures” (SAMs)
imposed by the Bureau of Prisons (BOP) to constrict
Savage’s ability to contact the outside world might not
remain in effect indefinitely. Second, that Savage
might collude with his attorneys to circumvent the
SAMs. And third, that managing the security risks
necessary to safely house Savage indefinitely would
saddle the BOP with an enormous burden.
We review a district court’s ruling as to whether a
prosecutor’s argument is appropriate for abuse of discretion. Moore v. Morton, 255 F.3d 95, 107 (3d Cir.
2001). If the argument was improper, we determine
whether it justifies relief by “examin[ing] the prosecutor’s offensive actions in context and in light of the
entire trial, assessing the severity of the conduct, the
effect of the curative instructions, and the quantum of
evidence against the defendant.” Id.
Applying that standard, we first conclude that
there was no error: the prosecutor’s comments accurately summarized information before the jury. And

136a
we also conclude that even if error occurred, it was
harmless given the mounds of evidence against Savage and the other aggravating factors the jury found.
1
Before turning to the specific comments Savage
challenges, we need to review what the jury knew
about Savage’s SAMs and why they were considered
necessary.
a
Recall that Savage planned, coordinated, and directed the killing of seven people while being held in
a federal prison. Savage had Tybius Flowers killed to
prevent him from testifying about Lassiter’s murder.
Then Savage orchestrated the Coleman house firebombing as retaliation for Eugene Coleman’s cooperation with prosecutors. Two women, three children
and one infant died as a result.
The horrid nature of these murders is underscored
by a disturbing series of comments Savage made from
prison reflecting both his desire and ability to kill or
intimidate witnesses:
•

“No witness, no crime. No witness, no case.”
A29:15551.

•

“The rats will pay.” A29:15564.

•

“Death before
A29:15565.

•

“That’s why that N[*****]’s got to pay. Those
f[***]ing rats. Those kids got to pay for making
my kids cry. I want to smack one of their fouryear-old sons in the head with a bat straight

dishonor

to

the

family.”

137a
up. I have dreams about killing their kids, killing their kids, cutting their kids’ heads off.”
A29:15566.
•

“These rats are going to pay. Their momma is
going to pay. I’m sick of them. I’m killing them
what they love while they’re in there.”
A29:15568.

•

“These rats deserve to die. Wars with the rats.
I’m going to hunt every last one b[****] that I
can. I’m going to kill ’em.” A29:15570.

•

“By the time of trial everybody be dead. . . .
[W]e’re just getting started. The night’s still
young.” A29:15571.

•

“The fight don’t stop until the casket drop.”
A29:15572.

•

“I can still get messages out over the bowl”—a
reference to his ability to sneak communications through his cell toilet’s plumbing system.
A29:15572.

•

“You can’t stop the inevitable.” A29:15572.

•

“Tears of rage, I’m flooded internally from ’em.
Tears of rage because these sons of b[*****]s
are going to pay, man. They gonna pay or my
name ain’t what it is, my pop name wasn’t what
it was, they gonna pay. They kids gonna pay,
they mommas gonna pay. That’s the kind of
conviction that I got for this s[***], man. I’m
dedicated to their death, man. . . . They better
hope and pray I go to jail for a long time. It don’t

138a
matter because while I’m still living, I’m a get
them.” A29:15572–73.
In at least six cases, Savage was caught on tape
actually threatening to kill a cooperator or his family:
•

Tybius Flowers, see A29:15552 (“Don’t
worry about it. He’s not going to take the
stand. He’ll never make it to trial.”);

•

Paul Daniels, see A29:15565 (“Think about
what you’re doing man, because your son,
he’s history. I got to tell you how I feel. Everything must go.”); see also A29:15566 (“I’d
rather just kill his mother f[***]ing mom. I
want this N[*****]. You see what I’m saying?”); A29:15567 (“I got to get [Daniels’s
girlfriend]’s a[**], [her] and that little
b[****]y baby he got.”);

•

Keith Daniels, see A29:15568 (“The rats,
they got to pay. I have dreams about hitting
[his] daughter in the head, man, opening
her head wide open with 40s, dumdums,
man. That’s all I dream about getting that
N[*****] killed. I want to erase his whole
family tree, man. You hurt my kids sending
me to jail. Your kids, your mom. Nobody is
getting a pass, man. Before I get a dollar,
they are going to pay. That’s all I dream
about.”);

•

Juan Rosado, see A29:15565 (“You know
what it’s going to cost you, your life and your
mom’s life. I’m going to kill your mother

139a
F[***]ing a[**]. Tell the prosecutor I threatened you, too, b[****].”);
•

Stanley Smith, see A29:15565–66 (“I’m going to kill everything that you love.”); see
also A29:15566 (“Yeah, he got a daughter
down my way. I’m going to blow her little
head off. She like five.”); and

•

Craig Oliver, see A29:15569 (“His family
goes first. His mom, his pop, all of them.”).

These comments led the BOP to separate Savage
from potential government witnesses in BOP custody,
and even required several witnesses to enter the Witness Protection Program.
Savage made similar comments about a prison
guard. See A29:15567–68 (“I want to F[***] the captain up. I want to blow his head off. I want everybody
to know it, too. . . . That captain is a mother F[***]er,
man. He’s going to die a miserable death, and I hope
I’m there. I hope I’m the cause of that mother f[***]er.
I’m going to torture his a[**]. I’m going to set him on
fire alive. That’s what I want to do with the N[*****].
I want to set that N[*****] on fire alive. Watch him
jump around like James f[***]ing Brown. Get a metal
chair and cuffs, douse him with that gasoline, set his
a[**] on fire and say welcome to hell, b[****]. I’m going to get somebody. That fire’s a motherf[***]er.”).
And these comments take on added meaning when
we consider Savage’s conduct while incarcerated. In
2011, prison guards searching Savage’s cell discovered Savage had somehow obtained confidential
prison records revealing information about potential

140a
government witnesses in BOP custody, including
some of the ones who entered Witness Protection. The
BOP also terminated his ability to make monitored
social calls after those calls “started to get kind of
coded.” A29:15713. And as recently as fall 2012—during jury selection for this trial, and even under SAMs
severely curtailing his ability to communicate with
the outside world—Savage exploited opportunities to
make unmonitored legal calls by telephoning his attorney’s office and having them patch him through to
unapproved individuals. He instructed those individuals to send him packages disguised as legal mail, detailing what his attorneys’ address labels looked like
so the packages would not attract attention. Savage
managed to illicitly receive at least one package this
way. Then once the Government discovered his abuse
of legal calls, he bragged to a prison guard that he had
“got a lot of information out on those calls and got a
lot done during those calls.” A29:15683.
All told, the jury learned of Savage’s persistent efforts to thwart restrictions on his ability to communicate with the outside world, and the extraordinary
danger he posed if he succeeded in doing so.
b
The jury also heard information about Savage’s
present and potential future confinement conditions.
Because of the security risks described above, the
BOP transferred Savage to USP Florence ADMAX—
the highest security prison in the federal system. Inmates at ADMAX fall into four categories depending
on their security risk. The BOP holds the lowestrisk
inmates—those demonstrating improvement during

141a
their time at ADMAX—in a step-down unit preparing
them for transfer back to another penitentiary. The
BOP holds the “average” ADMAX inmate—still someone the BOP determines it cannot control in any other
facility—in a general population unit, where they
spend twenty-two hours per day in single cells and
recreate in enclosures. The “Control Unit” is even
more restrictive, reserved for inmates “who have committed homicides” inside BOP facilities, “are serious
escape risks[,] or [are] a severe threat to the orderly
running of an institution.” A30:16067. Finally, there
is the “H Unit”—the most restrictive unit and the one
for defendants like Savage who are subject to SAMs.
The H Unit is comprised of thirty-six single-inmate cells. When an inmate arrives at the H Unit, he
typically spends at least the first year subject to the
most stringent restrictions. During that initial phase,
the BOP permits inmates three showers per week and
ninety minutes of daily recreation alone in an individual enclosure. With the warden’s approval, an inmate
can move to a more relaxed phase. In that phase, a
daily shower is available and although prisoners still
recreate in an individual enclosure, they do so in the
presence of other inmates. After another year, an inmate may recreate with up to four inmates in the enclosure.
The BOP allows an H Unit inmate one social call
and five non-contact visits per month. Visitors and
callers must be pre-approved, and each call or visit
must be arranged in advance and monitored by the
FBI. To initiate a call, a guard physically dials the
number and ensures that the person who answers has

142a
been pre-approved. The guard then passes the receiver to the inmate through a slot in the cell door
while holding the phone. H Unit inmates are permitted to make an unlimited number of legal calls, conducted in much the same way, though such calls are
unmonitored. (The guard “stand[s] back at a respectable distance” so he can see the phone but not hear
what is said. A30:16029–30.)
The FBI x-rays and reviews all non-legal mail, and
that mail can only come from pre-approved senders.
Similarly, legal mail must come from the inmate’s
counsel of record; guards open it in the inmate’s presence and cursorily review it to ensure it contains no
contraband.
On top of these general H Unit restrictions, each
inmate receives specific SAMs tailored to their individual security risks. Savage faces even more limitations on who he can contact, who can visit him, and
what publications he can receive—though he remains
able to have unlimited and unmonitored legal calls. A
SAM expires if not renewed annually by the Attorney
General.
The BOP’s goal is to move inmates from the H Unit
to the general population units once they show sufficient rehabilitation to warrant lifting their SAMs.
And after entering the general population units, compliant inmates begin a three-year process that gradually moves them through the step-down unit to a more
typical penitentiary. The point, as both a government
and defense expert observed, is that ADMAX is not
meant to be “a permanent assignment.” A31:16566–
67 (“We don’t want people in there permanently.”).

143a
Once transferred to another penitentiary, inmates
have much more freedom to move and interact. Typical federal penitentiaries house roughly 1500 inmates
in double cells, locked from 10:00 p.m. to 6:00 a.m.
Outside those hours, inmates are generally expected
to be at a job or educational site. In other words,
“[t]here is nobody escorting them. There is nobody
standing over there, telling them what to do. From the
time the cells are opened . . . they are responsible to
go where they are supposed to be.” A31:16562. “They
have access to all of the 1500 other inmates and all
the staff that are in the institution,” including recreating and eating together without physical restraint.
A31:16562. The BOP records social calls but monitors
only about 10% of them, and even then only partially.
Some former H Unit inmates have been transferred to other federal institutions through this process. See, e.g., Rezaq v. Nalley, 677 F.3d 1001, 1004–
06 (10th Cir. 2012) (four inmates, one involved in a
1985 airline hijacking that killed fifty-seven airline
passengers, plus three planners of the 1993 World
Trade Center bombing). Still other inmates remain on
the H Unit but under relaxed conditions allowing
greater contact with other inmates. See, e.g., Mohammed v. Holder, 47 F. Supp. 3d 1236, 1243 (D. Colo.
2014) (terrorist who bombed the U.S. Embassy in
Tanzania moved to a less-restrictive phase of H Unit
incarceration); Yousef v. United States, No. 12-2585,
2014 WL 1908711, at *2–4 (D. Colo. May 13, 2014)
(1993 World Trade Center bombing leader remains on
H Unit but under relaxed confinement conditions allowing him to communicate with other inmates during recreation, showers, at the law library, and while

144a
working as an orderly). By the time of the sentencing
proceedings in this case, Savage had already been recommended for a move to a more-relaxed phase of H
Unit confinement, though the approving official denied the request. Officials have also allowed Savage
to work as an orderly, which affords him time outside
his cell without physical restraints.
2
Against this backdrop, we conclude that the Government’s arguments supporting Savage’s future
dangerousness accurately summarized and fairly
characterized information before the jury. See Darden
v. Wainwright, 477 U.S. 168, 180–82 (1986) (holding
comments casting the death penalty as the only guarantee against future similar acts do not deprive the
defendant of a fair trial as long as they “d[o] not manipulate or misstate the evidence”). Here are the specific statements Savage alleges constituted prosecutorial misconduct:
•

From the Government’s penalty-phase opening
statement:
o “They put tighter restrictions on Kaboni
Savage. They put tighter restrictions on his
ability to have visits. They put tighter restrictions on his ability to make phone calls
and his ability to interact with other inmates. Problem solved? Not exactly, because you’re going to hear that, first of all
SAMs restrictions have to be updated every
year. They are not automatic. There’s no

145a
guarantee. They don’t follow him necessarily for life. There’s no guarantee they will
continue.” A29:15574.
•

From the Government’s penalty-phase summation:
o “You’ve heard the testimony of why he will
be a future danger. Why should everyone in
BOP be on constant vigil for the next 40
years of his life? That is the question that
you need to answer. In order to protect the
prisoners, staff, cooperators in jail, cooperators’ families out of jail, he will have to remain at AD[MA]X on SAMs forever. Even
then you’re not sure that [] will be enough.
Putting aside for a moment that no one will
likely be on SAMs for life, and he will likely
enter the step-down process at some point
in time, remember what he did while on
SAMs, while under the restrictions imposed
by the Attorney General of the United
States, the most severe sanctions and restrictions there can be. [BOP] will have to
monitor him until when? For what purpose?
He’s vowed to fight to the death. At what
risk do we not take him at his word? As he
said, ‘you can’t stop the inevitable.’ He still
gets visits. He still has the bowl. You know
he will find a way to get the word out. You
know that after the evidence presented to
you in this penalty phase. He manipulates
and he abuses the systems in place to defeat
their purposes. SAMs restrictions, this

146a
highest level of restriction that you can
have, no problem.” A31:16705–06.
o “You’ve heard the phrase, the reference,
‘The past is prologue.’ . . . It’s truly applicable in this case. Kaboni Savage’s past has
foretold you what the future will hold.
There truly is no other option in this case.
He will not be on SAMs forever. He will not
be at AD[MA]X forever. He will manipulate
the guards. He will compromise the guards,
and he will compromise the system at every
chance. He will continue to do what he has
done since the day he was incarcerated in
2004. He will seek revenge on every cooperating witness and everything that they
[h]old dear, their family, and he will do that
from behind prison walls. Kaboni Savage
refuses to stop. There’s no way to be truly
safe from his conniving ways as he vows,
‘The fight don’t stop till the casket drops.’”
A31:16713–14.
•

From the Government’s penalty-phase rebuttal:
o “[Defense counsel] says no one has been
harmed [by Savage] in the nine years since
2004. He’s correct, at this point in time no
one has been harmed. It’s not because of Kaboni Savage. It’s in spite of Kaboni Savage.
. . . It’s because of AD[MA]X. It’s because of
a lot of things. It’s because of the [Witness
Protection] program. You heard a number of
the witnesses in this case had to give up

147a
their lives. They gave up their names and
were moved to locations where they have to
start all over again all because of Kaboni
Savage. So the [Witness Protection] program worked for them. Lamont Lewis is in
[Witness Protection] in jail. It’s worked for
him. How long does this program have to go
on to keep Kaboni Savage from acting out?
At what cost and for what reason? . . . Now,
if he is sentenced to life imprisonment, he
goes to AD[MA]X for some period of time.
None of us know how long. It’s not going to
be forever. . . . Now you have to put your
trust and faith in people you don’t know
hoping, praying that they will do their jobs
and be as vigilant, and 24 hours a day they
will stay on top of Kaboni Savage . . . . Do
you really want to run that risk? For what
reason? . . . He starts at the H Unit. Where
he goes from there is up to Kaboni Savage
essentially. The SAMs are in place right
now. How long will they be in place? None
of us know. It’s a yearly renewal. The Attorney General has to agree every single year
to do this. If the decision is made to take
down the SAMs, Kaboni Savage can be sent
to a general population at a U.S. penitentiary anywhere. In general population, he
will be free 16 hours a day. We’re not talking about a couple of years, ladies and gentlemen. We’re talking about a lifetime. In
five, six, eight, ten years Kaboni Savage

148a
could easily be at a USP in general population, if that’s what he decided to do. At that
time, he has the freedom to do everything
that he did at FDC and more.” A31:16769–
71.
o “I just want to make one point very clear. . .
. There was a discussion [during cross-examination of a government expert witness]
of three-way phone calls and the ability to
monitor three-way phone calls. Let me be
clear, that does not exist at the Bureau of
Prisons. You heard that testimony. That
does not exist. If Mr. Savage compromises
those phone calls, he will be able to make
three-way calls without anyone monitoring
them.” A31:16771–72.
o “Why is a sentence of death appropriate? He
killed 12 people, killed innocent mothers,
killed helpless children. He killed an innocent man over a car bump. He used fire to
torture a family. He killed a witness to obstruct justice. He killed a family to obstruct
justice. He coordinated killings from inside
prison. He vowed to kill cooperators and
their families until he dies. He manipulates
the system to his advantage. He compromises BOP employees. You know the SAMs
are not built to last forever. He won’t be
housed at AD[MA]X forever. There is no
way to guarantee the safety of the community even while he’s incarcerated.”
A31:16774.

149a
o “While [Savage’s] children are certainly innocent victims in all of this, his very limited
relationship with them does not outweigh
the horrific violence that he has caused, and
there’s no reason to exhaust BOP resources
to keep him from himself. . . . I’ll rephrase
the word, just to be clear . . . resources will
be expended for him. Why do we need to expend resources for him?” A31:16775–76.
o “[W]hy must you make a choice to spare him
the punishment he earned when it comes
with so much peril and constant monitoring
and is so likely subjected to compromise
with a potentially deadly result?”
A31:16777.
Savage correctly points out that the government
may not urge jurors to speculate that a defendant will
pose a future danger because prison officials might
act incompetently. See Darden, 477 U.S. at 180 (condemning a prosecutor’s argument that executing a defendant for a murder committed while furloughed was
the “only guarantee” to prevent future violence because corrections officials might release him again);
Tucker v. Kemp, 762 F.2d 1496, 1508 (11th Cir. 1985)
(en banc) (deeming a prosecutor’s comments about future parole improper because they “extended beyond
a mere argument about future dangerousness into a
claim that the jury had to account for errors to be committed by other actors in the criminal justice system”). But that is not what the prosecutor argued
here. Rather than implying the Attorney General or
BOP officials might erroneously or lawlessly remove
Savage’s SAMs, prosecutors merely emphasized what

150a
both side’s experts had testified to—no one can really
say how long Savage will remain on SAMs, but everyone knows SAMs are not intended as a permanent solution. Additionally, as both experts conceded, although the H Unit/SAMs combination may effectively
control Savage’s behavior, no precaution can eliminate all security risks. See also Tucker, 762 F.2d at
1507 (concluding prosecutorial comments about the
possibility of a defendant killing a prison guard or inmate if given a life sentence were “proper because
they concerned the valid sentencing factor of [the defendant]’s future dangerousness”); cf. United States v.
Caro, 597 F.3d 608, 625–26 (4th Cir. 2010) (finding
parts of the government’s future-dangerousness argument “troubling” but refusing relief since they were
isolated, responsive to the defendant’s suggestion
that the BOP could adequately secure the inmate, and
supported by the record).
Savage again overreaches in claiming the prosecutor suggested that his lawyers “would criminally conspire to help him violate the SAMs at AD[MA]X by
arranging to ‘patch him through’ for unmonitored
communications with unauthorized persons.” Def. Br.
230. In examining the comments in question, we believe the Government merely highlighted the vulnerability of the legal-call system and Savage’s prior manipulation of it. What’s more, while presenting testimony on Savage’s prior abuse of legal calls, prosecutors clarified that Savage’s trial counsel played no
role. See A29:15642–43 (“Q: I want to be absolutely
clear here. Different attorneys in 2004 and 2005 than
the attorneys who represent Mr. Savage here, correct?
A: Yes. Q: If you can tell us, you are fully competent,

151a
his current attorneys and their offices in no way participated in this type of scheme? A: Correct.”). So prosecutors neither impugned Savage’s trial team nor
strayed from information that had been presented to
the jury.
Finally, despite what Savage says now, the Government never directly argued that keeping Savage
alive would be too costly. It is indeed improper for
prosecutors to “argue that death should be imposed
because it [is] cheaper than life imprisonment.” Blair
v. Armontrout, 916 F.2d 1310, 1322–25 (8th Cir. 1990)
(quoting Brooks v. Kemp, 762 F.2d 1383, 1412 (11th
Cir. 1985)) (holding the district court erred—though
harmlessly—by permitting the prosecutor to argue
“Why should we as taxpayers have to house this man
for fifty years? Why should we have to feed him three
meals a day for fifty years, clothe him for fifty years,
furnish him recreation, medical care?”). But only economic efficiency arguments that specifically reference
the pecuniary cost of prosecuting a defendant or of
keeping a defendant alive have been held to violate
that rule. See, e.g., Baer v. Neal, 879 F.3d 769, 787
(7th Cir. 2018) (“We are not anxious to file the death
penalty . . . the cost is unbelievable. Who knows what
it’s going to cost our community. Probably a half a million dollars. We’ve got people laid off. It’s not something you do haphazardly. It’s something you do to
seek justice in a community” (alteration in original));
see also Edwards v. Scroggy, 849 F.2d 204, 210 n.5
(5th Cir. 1988) (finding error but declining to award
habeas relief after a prosecutor argued for a death
sentence because the defendant could “watch television and live off the taxpayers’ money for ten years . .

152a
. [a]nd get fed and housed and given all the conveniences of life”). In short, general references to the financial and administrative burden of ensuring a safe
prison environment do not cross the line.
And that’s what these comments did: they focused
on the burdens the BOP faced to protect guards, other
inmates and the public from Savage. The only time
the prosecutor used the word “cost” was in relation to
the need to keep witnesses in the Witness Protection
Program. Even then, the reference was plausibly to
emotional and psychological costs to witnesses rather
than economic costs to taxpayers and the BOP. Those
references were not improper prosecutorial comment.82
C. The District Court did not plainly err by
admitting victim-impact statements.
Savage next challenges the admission of victimimpact statements supporting the “harm to victims’
families” aggravator. Although he concedes some
statements permissibly “relat[ed] to the personal
characteristics of the victim and the emotional impact
82 Even if it could be said that any of the comments complained
of were improper, such error would have been harmless beyond
a reasonable doubt. The quantum of evidence mustered against
Savage was weighty, and future dangerousness was just one of
numerous aggravating factors the jury found unanimously beyond a reasonable doubt. See supra note 81. With that constellation of aggravating factors in mind, we are “confident that the
jury would have imposed the same sentences even if the [futuredangerousness] factor had not been submitted for their consideration.” United States v. Bernard, 299 F.3d 467, 485 (5th Cir.
2002).

153a
of the crimes on the victim’s family,” Payne v. Tennessee, 501 U.S. 808, 817 (1991), he still argues that others crossed the line and impermissibly involved “characterizations and opinions . . . about the crime, the
defendant, and the appropriate sentence.” Bosse v.
Oklahoma, 137 S. Ct. 1, 2 (2016) (per curiam).
1
We must first determine the applicable standard
of review. Since Savage challenges the statements on
Eighth Amendment grounds, plenary review will apply if he preserved the issue in the District Court. See
United States v. Torres, 383 F.3d 92, 95 (3d Cir. 2004)
(applying plenary review to preserved challenges presenting legal questions). If not preserved, we review
the issue for plain error—an actual, obvious error that
prejudiced Savage and that substantially affected his
trial’s fairness, integrity and public reputation. See
United States v. Plotts, 359 F.3d 247, 248–49 (3d Cir.
2004).
Savage contends plenary review applies. He
makes that argument because his counsel asserted
during a presentencing- phase hearing that “there are
issues with . . . about 90 percent of the victim impact
letters,” including “some things which just blatantly
shouldn’t be in the[m]” such as the authors’ “thoughts
[about] the punishment.” A29:15431, 15437. But Savage’s counsel retreated from that position once the
Government agreed to redact statements “mak[ing]
reference to what the appropriate punishment should
be.” A29:15437. The District Court then recessed the
hearing to “give [the parties] a chance to look at” the
letters, adding: “If there’s any disputes, I’ll hear them

154a
before the day is out.” A29:15438–39. Significantly,
Savage’s counsel never returned to the issue. And
when it came time to admit the victim-impact statements, Savage’s counsel remained silent. See
A30:15776–15825. We therefore conclude that Savage
did not “contemporaneous[ly] object[] to the victimimpact testimony.” United States v. Davis, 609 F.3d
663, 683 (5th Cir. 2010). So we review his claims for
plain error. Id.
2
We begin our review by surveying the law governing use of victim-impact statements in capital sentencing cases, including some state court decisions in
cases raising Eighth Amendment challenges. The
government may generally introduce victim-impact
evidence “relating to the personal characteristics of
the victim and the emotional impact of the crimes on
the victim’s family.” Payne, 501 U.S. at 817. Presenting that information “is simply another form or
method of informing the sentencing authority about
the specific harm caused by the crime in question.” Id.
at 825. And the government can always “remind[] the
sentencer that just as the murderer should be considered as an individual, so too the victim is an individual whose death represents a unique loss to society
and in particular to his family.” Id. (quoting Booth v.
Maryland, 482 U.S. 496, 517 (1987) (White, J., dissenting)).
Yet we are mindful that “admission of a victim’s
family members’ characterizations and opinions
about the crime, the defendant, and the appropriate

155a
sentence” violate the Eighth Amendment if they “distract the sentencing jury from . . . the background and
record of the accused and the particular circumstances of the crime” and thereby “create[] an impermissible risk that the capital sentencing decision will
be made in an arbitrary manner.” Bosse, 137 S. Ct. at
2; Booth, 482 U.S. at 505–07, overruled on other
grounds by Payne, 501 U.S. 808. In Booth v. Maryland, the Supreme Court considered victim-impact
statements saying that the victims were “butchered
like animals,” that the defendant could “[n]ever be rehabilitated” and should not be “able to . . . get away
with it” or “to do this again,” and that even “animals
wouldn’t do” what the defendant did. 482 U.S. at 505–
08. The Court held that those statements violated the
Eighth Amendment because they directly characterized both the crime and the defendant in a way that
“serve[d] no other purpose than to inflame the jury
and divert it from deciding the case on the relevant
evidence.” Id. at 508.
Mindful of the Supreme Court’s admonition about
jurors characterizing the appropriate sentence, courts
have held victim-impact statements directly asking
the jury for a death sentence violate the Eighth
Amendment, too. See, e.g., Dodd v. Trammell, 753
F.3d 971, 995–96 (10th Cir. 2013); Ex parte Washington, 106 So.3d 441, 445–46 (Ala. 2011) (same); Miller
v. State, 362 S.W.3d 264, 283–84 (Ark. 2010) (same).
That said, abstract pleas for justice, accountability
or closure do not by themselves violate the Eighth
Amendment. See State v. Worthington, 8 S.W.3d 83,
89–90 (Mo. 1999). Nor does “emotionally charged tes-

156a
timony” inviting the jury to “infer” a desire for “execution,” as long as “no evidence as to the witnesses’
preferred sentence [i]s actually admitted.” United
States v. Whitten, 610 F.3d 168, 190–92 (2d Cir. 2010)
(noting “[i]t cannot be expected that victim impact testimony will be cool and dispassionate” and concluding
“anguished testimony . . . describ[ing] how [the victim’s] children visit the cemetery on Father’s Day and
other occasions, write letters to their father, and embrace his headstone . . . . does not appear to exceed (or
approach) the margins of what has been allowed”); see
also Williams v. State, 251 S.W.3d 290, 293–95 (Ark.
2007) (upholding admission of a victim’s testimony,
“The meeting of my brother and sisters when we get
together it’ll never be the same. We ask ourselves
what can we do in situations like this. Well, we can’t
do anything as a family but hold together and pray
together. But you can do something. You are in a position to do that. What would you do if it was your
brother or your sister or your baby that someone stole
away from you. I can’t do anything, but you can. No
words can express how we feel. Silence, the silence of
never hearing [my brother]’s voice again haunts me
and it will continue to haunt me. We miss him. We
want him back but we can’t.”); State v. Chinn, 709
N.E.2d 1166, 1188 (Ohio 1999) (upholding admission
of a victim’s testimony that “now we feel that the time
has come for [the defendant] to be punished according
to the law of Ohio.”).
And statements expressing an ongoing fear of reprisals fall well within bounds since they “properly
show[] how the victim’s death affected his surviving
relatives.” People v. Wilson, 114 P.3d 758, 792 (Cal.

157a
2005); see also United States v. Battle, 173 F.3d 1343,
1348 (11th Cir. 1999); People v. Tully, 282 P.3d 173,
245–46 (Cal. 2012); Baker v. State, 71 So.3d 802, 817–
18 (Fla. 2011).
To be sure, applying these rules requires a judge,
inevitably, to engage in line-drawing. At one end of
the spectrum, the Fifth Circuit held that a district
court plainly erred by admitting a father’s victim-impact statement saying, “our children were tragically
and recklessly stolen from us. . . . [I]t was just a useless act of violence and a total disregard of life,” apparently concluding the statement would distract the
jury and cause them to make an arbitrary sentencing
decision. United States v. Bernard, 299 F.3d 467, 480
(5th Cir. 2002).
At the other end, the California Supreme Court
permitted a sister to testify “that she could not understand why someone whom [her late brother] befriended and trusted would kill him,” holding the
statement did not improperly characterize the defendant but rather merely addressed how the murder
affected her. Wilson, 114 P.3d at 790–92 (Cal. 2005).
The Arkansas Supreme Court reached a similar conclusion about a victim-impact statement expressing
“disbelief,” “anger,” and the feeling of being “torn
apart.” Kemp v. State, 919 S.W.2d 943, 957 (Ark.
1996). The Fourth Circuit likewise upheld the admission of a mother’s victim-impact statement expressing
her suffering through rhetorical questions posed to
the defendant. See United States v. Barnette, 390 F.3d
775, 797–800 & n.7 (4th Cir. 2004) (“I didn’t get to tell
her goodbye. She was the joy of my life. Marc [the de-

158a
fendant] knew she was the joy of my life. The only little girl I had. You knew that, Marc. You took her life.
Took away her future. You know how much she meant
to me. . . . How can you kill my baby? Why you kill
[sic] my baby, Marc? She loved you, you know that.
She never mistreated you, Marc.”), vacated on other
grounds, 546 U.S. 803 (2005); cf. United States v.
McVeigh, 153 F.3d 1166, 1218–22 (10th Cir. 1998) (allowing emotionally “devastating” victim-impact statements about “witnesses’ last contacts with deceased
family members” killed in the 1995 Oklahoma City
bombing and their “agonizing efforts to find out what
happened to their loved ones,” “the professional and
personal histories of victims,” a mother’s “recovery
and return of her deceased daughter’s hand six
months after the explosion,” and a graphic depiction
of the near-suicide of a victim’s husband).
3
Against this background, we turn to the specific
victim-impact statements Savage challenges:
•

“What gives anybody the right to blatantly take
a life with no thought of remorse and audacity
to play God?” A30:15779–80.

•

“I disconnected myself from most of my family,
not wanting to be in the presence of constant
reminders of better times. Also a lot of them
didn’t want me around fearing that I would put
them and their families in danger. . . . I questioned my faith because—let’s see. The only
positive I see in my future is justice. . . . I know
it will not bring my family back, but this will
not allow anyone to hurt anyone else. This

159a
should end right here.” A30:15796–98. Because
this victim worked as a prison guard, she also
explained her “genuine concern of [being]
where [Savage was] in any way affiliated with
anyone, whether they know him. When in the
presence of inmates, it took me [to] a whole different level. I began to have anxiety attacks
when in the presence of a lot of them in the rec
room[,] leading to my transfer and [a] no inmate contact agreement.” A30:15797–98.
•

“[P]lease, we ask of you, the Court, let justice
be done for all that have been killed by these
people. Please let justice be done.” A30:15805–
06.

•

“How can anyone take the lives of women and
kids[?]” A30:15809.

•

“It is not fair or right for . . . the person directly
or indirectly responsible for the death of those
souls to walk around the earth free, not being
held accountable for the part of the crime. We
deserve closure in this matter and for [the] full
extent of the law to be done in this matter. . . .
All I ask is for the members of our family’s lives
not to be in vain.” A30:15811–12.

•

“It hurts my heart when I look in their eyes, see
the pain we all share. Just waiting for justice. .
. . My sister’s and nephew’s heart have been
broken into many pieces. What kind of man
would kill women and children?” A30:15812–
13.

160a
•

“I can’t understand how or why a person would
do such a heinous act. Then to say such hurtful
words after you have did this to our family. . . .
I feel that everyone involved should get the
same sentence as if they all threw the gasoline
and match. How do they sleep at night? My
family didn’t deserve this at all. We don’t trust
no one with or around our children, and don’t
feel protected because if calls were [monitored
by the Government], why did we have to lose
our family members? . . . I’m afraid of courtrooms due to you don’t know who is who and
not living in a safe environment because of pollution of murderers who saw fit to kill children
. . . . My prayer is full justice for all.”
A30:15813–15.

•

“[M]y son and his paternal family were brutally
murdered for no reason . . . . This was the worst
crime in the history of Philadelphia in 2004. . .
. How do you live with yourself and the decisions you’ve made[?] . . . How do we go on in our
daily lives knowing you could care less that you
inflicted so much pain and grief to so many people?” A30:15816–17.

•

“My daughter said to me, Mommy, I still can’t
believe my brother is gone. I have no closure.
How do I comfort my child? Honestly, I can’t
because we have no closure.” A30:15817.

•

“I will never understand how someone could
kill anyone, anyone kill innocent people who
are full of life.” A30:15819.

161a
•

“Every year on October 9th I’m reminded how
the evil actions of one man cost my family a tremendous loss.” A30:15820.

•

“I will forever have the image of their bodies
being carried out in those blue bags. For a long
time after the fire I couldn’t go past 6th Street
because that’s all I saw. He, Kaboni Savage,
turned my last memory of a place that I and
many of my other family members shared so
many fun times, into the most terrible thing I
ever saw, into a lasting image and heart-tearing image.” A30:15821.

•

“Sean Anthony Rodriguez’s life ended on October 9, 2004 at the age of 15. His murder caused
his family pain unlike no other. He spent the
night at a friend’s house and never came home,
the life of an innocent child, and a part of his
family died never knowing that you will get
what is coming to you, and hopefully the next.”
A30:15823.

•

“I’m still confused about how anyone could do
something like this to anyone. I personally continue to feel the pain of having to live with the
fact that the people who are responsible for this
crime have not been held accountable for their
actions. But with this having been said, I hope
that this will bring some cleansing for myself
and my family.” A30:15824.

None of these statements form a basis for plain error. The Government acknowledges some “came close
to” the constitutional line, Gov’t Br. 203, and we don’t
disagree. But none are blatant violations of the

162a
Eighth Amendment’s prohibition against direct and
inflammatory characterizations. Nor do any explicitly
request the death penalty.83 At most, the statements
express a generalized desire for justice and closure.
Some seem to gesture vaguely toward capital punishment. Others emphasize a victim’s individuality and
the unique loss a victim’s death posed, or highlight a
witness’s profound loss and vulnerability. And most
significantly for plain-error purposes, all resemble
statements that other courts of appeals and state supreme courts have declared constitutional.
In any event, even if a statement crossed the line
(which we do not see here), we conclude Savage was
not prejudiced “[i]n light of all of the other evidence,
including the properly admitted victim impact testimony and the grisly nature of [the] crime.” Storey v.
Roper, 603 F.3d 507, 521 (8th Cir. 2010) (refusing relief for improper victim-impact testimony because it
did not affect the defendant’s substantial rights); see
also Hain v. Gibson, 287 F.3d 1224, 1239–40 (10th
Cir. 2002) (holding “the jury would have imposed a
sentence of death even absent the improper victim impact testimony” because “the horrific nature of the
murders”—the defendants forced the victims into a
car trunk before setting the car on fire—“was uncontroverted” and “the evidence of [the defendant’s] guilt
83 Indeed, underscoring that none of the victim-impact statements directly opined on what Savage’s sentence should be, the
District Court instructed the jury that “because the law does not
permit any witness to state whether he or she personally favors
or opposes the death penalty, you should draw no inference either way from the fact that no witness has testified as to their
views on this subject.” A32:16795.

163a
[and future dangerousness] was substantial”). Either
way, no victim-impact statement considered by the
jury, nor any portion thereof, constituted plain error.84
D. The District Court’s admission of autopsy
photographs offered to support the “especially heinous, cruel, or depraved” aggravator was not improper.
Savage challenges the District Court’s decision to
admit the firebombing victims’ autopsy photographs.
Although the Federal Rules of Evidence do not apply
during a capital sentencing phase, the FDPA supplies
a limitation paralleling Rules 402 and 403: “information may be presented as to any matter relevant to
the sentence, including any mitigating or aggravating
factor,” but “may be excluded if its probative value is
outweighed by the danger of creating unfair prejudice, confusing the issues, or misleading the jury.” §
3593(c).85

84 Savage also claims the Government compounded a constitutional violation by highlighting these victim-impact statements
during its penalty-phase summation. We reject this argument
for many of the same reasons we reject his challenge to the statements themselves. What’s more, we conclude that even if these
prosecutorial comments were improper, they would not warrant
plain error relief since they are “not, in and of themselves, nearly
as inflammatory as the graphic evidence of the murders, or as
powerful as the extensive victim impact testimony” itself. Mikhel, 889 F.3d at 1056 (quoting United States v. Mitchell, 502
F.3d 931, 995–96 (9th Cir. 2007)).

In fact, § 3593(c) is slightly more sensitive than 403, because
Rule 403 only excludes evidence “if its probative value is sub85

164a
Here, Savage brings something akin to a Rule 402
relevancy challenge. The Government offered the autopsy pictures to show the arson murders were “especially heinous, cruel, or depraved”—a noticed statutory aggravator. § 3592(c)(6). That aggravator requires proof of “torture” or “serious physical abuse.”
Id. As relevant here, prosecutors can prove “serious
physical abuse” by showing a defendant “inflicted ‘suffering or mutilation above and beyond that necessary
to cause death.’” United States v. Montgomery, 635
F.3d 1074, 1095–96 (8th Cir. 2011) (quoting United
States v. Agofsky, 458 F.3d 369, 374 (5th Cir. 2006)).
Savage argues the pictures are not relevant to that
point since they don’t reveal anything about the cause
of death, but “merely document the . . . . ‘gruesome
spectacle’ of the murders’ aftermath.” Def. Br. 263
(quoting Godfrey v. Georgia, 446 U.S. 420, 433 n.16
(1980)).
He also brings what is effectively a Rule 403 challenge, arguing “any conceivable probative value of the
autopsy photographs was negligible and far outweighed by their unfair prejudicial impact.” Def. Br.
274.
The District Court disagreed on both fronts. The
Judge ruled that the gruesome postmortem injuries
remained relevant to the “serious physical abuse”
question. And though acknowledging the photographs
stantially outweighed by a danger of . . . unfair prejudice, confusing the issues, [or] misleading the jury.” (emphasis added).
That said, Rule 403 also allows for exclusion based on undue delay, waste of time or cumulativeness, none of which justify exclusion under § 3593(c).

165a
were “not pleasant,” he allowed the jury to view them
under conditions designed to minimize unfair prejudice. A32:16861. We discern no error.
1
Here too the parties dispute the applicable standard of review. Citing United States v. Trala, Savage
argues for de novo review because he says the District
Court’s decision to admit the autopsy photographs
rested on an erroneous understanding of a legal
standard. See 386 F.3d 536, 545 (3d Cir. 2004). For its
part, the Government says any “decision regarding
the admissibility of evidence is reviewed for abuse of
discretion.” Gov’t Br. 220. We need not decide the issue because the District Court’s rulings on relevancy
and prejudice withstand even plenary review.
2
Here, the District Court got the relevancy question
right. The autopsy pictures tended to show that the
fire mutilated the victims above and beyond their
cause of death. And that fact supports the “especially
heinous, cruel, or depraved” aggravator. Savage’s contrary argument fails, both on precedent and even on
its own terms.
Savage’s quasi–Rule 403 challenge fails as well.
The autopsy photographs may be horrific, but they
have considerable probative value, and the District
Court took adequate steps to ameliorate any risk of
unfair prejudice.
a

166a
Savage raises a narrow legal challenge to the photographs’ relevancy. He claims that for a murder to
involve serious physical abuse, the abuse cannot arise
directly from the same force that caused death. This
position allows Savage to argue that the autopsy pictures lack relevancy because “[t]he exact same force
that was used to kill the victims—the ignition of the
arson—also produced the . . . post-mortem thermal injuries captured in the photographs.” Reply Br. 90. But
that can’t be right.
If Savage is correct, the “especially heinous, cruel,
or depraved” aggravator would almost never apply to
an arson murder. Yet that’s not how some courts have
seen it. Several state courts have recognized that arson murders are often—if not always—especially heinous, cruel or depraved. See, e.g., Scott v. State, 163
So.3d 389, 470 (Ala. Crim. App. 2012); Dunaway v.
State, 746 So.2d 1021, 1039–41 (Ala. Crim. App.
1998); State v. Knapp, 562 P.2d 704, 716 (Ariz. 1977)
(en banc) (“We can hardly think of a more ghastly
death than this for anyone.”); Hain v. State, 919 P.2d
1130, 1146–47 (Okla. Crim. App. 1996); Smith v.
State, 659 P.2d 330, 337 (Okla. Crim. App.) (“The victim was beaten into helplessness and left in the bed
of his pickup truck, and the truck was then set on fire.
He died from the inhalation of flames and smoke. It is
clear that the defendant either intended to inflict a
high degree of pain or else he was utterly indifferent
to his victim’s suffering.”), vacated on other grounds,
464 U.S. 924 (1983).
Although those state court decisions do not directly interpret the federal statute at issue here, they
clearly demonstrate that burning someone to death is

167a
a heinous crime within the ordinary meaning of that
word. And being burned to death certainly involves
‘torture or serious physical abuse’ as required by the
FDPA. § 3592(c)(7). That is a more than sufficient basis to invoke the “especially heinous, cruel, or depraved” aggravator. The autopsy photos were directly
relevant to proving that the victims died as a result of
the arson. They were thus directly relevant to the applicability of the aggravator.
b
The District Court also correctly held that the risk
of unfair prejudice did not outweigh the probative
value of the photographs. Savage protests, arguing
that the photographs are extremely graphic. They
are. They depict the horrific results of a horrific crime.
Yet it should hardly be surprising that evidence probative of the “especially heinous, cruel, or depraved”
aggravator will often be horrific in nature. That fact
alone cannot be a reason for excluding it.
And it is worth emphasizing that these autopsy
photographs came into evidence during the penalty
phase of the proceedings and not the guilt phase. The
jury had already concluded Savage was guilty of the
murders. So the classic Rule 403 concern—that a photograph’s gruesome nature will “lure the factfinder
into declaring guilt” based on emotion or passion, Old
Chief v. United States, 519 U.S. 172, 180 (1997)—is
inapposite here. Put simply, the jury had already decided Savage was guilty of the six arson murders. Deciding just how brutal or cruel those murders were is
inherent in penalty-phase determinations.

168a
On this point, the autopsy pictures—gruesome as
they are—offer singular probative value. Photographs
convey a pictorial accuracy and detail that words cannot duplicate nor that advocates can spin. Twelve jurors listening to a description of an abused corpse
might walk away with twelve different understandings of the abuse’s severity. Color photography, especially these photographs, leave little room for disparate impressions. It is hard to imagine more accurate
evidence of a murder’s cruelty, heinousness or depravity. We therefore conclude that any danger of unfair
prejudice did not outweigh the photographs’ probative
value.86
Although we reach that conclusion based on our
examination of the photographs themselves, we also
consider the District Court’s prudent steps intended

86 In so holding, we join several other courts of appeals in allowing autopsy photographs to support the “especially heinous,
cruel, or depraved” aggravator. See, e.g., United States v. Brown,
441 F.3d 1330, 1362 (11th Cir. 2002) (holding color photographs
of stab wounds, both fatal and nonfatal, were admissible to prove
the “especially heinous, cruel, or depraved” aggravator); United
States v. Sampson, 486 F.3d 13, 43 (1st Cir. 2007) (holding the
district court did not abuse its discretion in admitting autopsy
photographs during the penalty phase because they “shed light
on the manner in which each victim was killed (an important
integer in the jury’s determination of whether the murders were
committed in an especially heinous, cruel, or depraved manner)”); United States v. Ortiz, 315 F.3d 873, 897 (8th Cir. 2002)
(finding no abuse of discretion after a district court admitted
“graphic” photographs of a murder “victim’s bloody corpse” to
“support the government’s contention that the crime was particularly heinous and depraved”).

169a
to mitigate the risk of unfair prejudice. Even after admitting the photographs into evidence, the District
Court did not immediately publish them to the jury.
Instead, the photographs were placed in an envelope,
leaving it to the jury to decide whether they wished to
view them. When the jurors, during their deliberations, asked to see the photographs, the District Court
returned them to the courtroom, warned that the photographs were “not pleasant,” reminded the jurors
“that your decisions in this matter must be based
upon the evidence and testimony and not based upon
any bias or prejudice or emotion,” told them to “heed
those instructions when you are looking at these photographs,” and directed them to return the photographs after they finished viewing them. A32:16861.
The jury returned the photographs less than ten
minutes later.87 To the extent the photographs posed
a risk of unfair prejudice—and we acknowledge that
such risk is always present when photographic evidence of this nature is before a jury—the District
Court took sensible and effective measures to mitigate it.
*

*

*

87 The pictures’ quantity and composition further diminish the
risk of unfair prejudice. The District Court admitted only one
photograph for each victim, and the bodies are depicted lying on
a medical examination table, not amid the arson ashes and rubble. So although “gruesome crimes result in gruesome photos,”
Hain, 919 P.2d at 1143, these photographs portray the victims
in a manner not designed to accentuate the victims’ horrific injuries.

170a
All told, the District Court correctly admitted the
autopsy photographs as proof of the “especially heinous, cruel, or depraved” aggravator.
E. The Government’s argument against the
“equally culpable” mitigator did not violate the Fifth or Sixth Amendments.
Savage’s penalty-phase strategy sought to cast Lamont Lewis as an equally culpable defendant who was
nevertheless not facing the death penalty—a statutory mitigator jurors were to consider. See §
3592(a)(4). Indeed, it was Lewis who firebombed the
Coleman home and later admitted to five other murders—yet ultimately pled guilty in exchange for forty
years of imprisonment.
In response, the Government sought to distinguish
Lewis’s past conduct as less blameworthy than Savage’s. Savage now contends that making the distinction impermissibly turned his Fifth and Sixth Amendment rights against him.
1
We start with this passage from the Government’s
penalty-phase closing argument (but ignore the underlining for now):
I want to talk about . . . equally culpable defendants not getting death. That is one of the mitigators. You know in this case Lamont Lewis is
not getting the death penalty. You know that.
He will be sentenced to 40 years to life. . . .
When weighing that mitigator, consider Lamont Lewis’ acceptance of responsibility. His
acknowledgment of his wrongs, his willingness

171a
to cooperate, the fact that he does not have a
vendetta against the rats or the rats’ families.
He doesn’t have a pact to kill loved ones. He did
not call out hits from inside the jail. He’s not
bent on destroying the justice system by killing
witnesses. He is not and has not abused the
right to communicate while he has been in
prison. While these two men, Kaboni Savage
and Lamont Lewis, were engaged in the same
criminal actions at times and Lamont Lewis is
certainly responsible for his violent killing
spree, these two men are not equally culpable.
They are not equally culpable for the rampage
that Mr. Savage is responsible for. The only
person responsible for all of that is Kaboni Savage. That’s why justice warrants the ultimate
punishment.
A31:16708–09 (emphasis added).
Then came the defense summation. Savage’s attorney tried to reinforce the “equally culpable” mitigator by contrasting Lewis’s extensive criminal history with his lesser punishment. Defense counsel also
tried to use Lewis’s criminal history—including his
admission during the guilt-phase trial that he sold
drugs in jail—to suggest Lewis himself posed a future
danger. “You should be [concerned] about future dangerousness,” he concluded. Id. at 16742. “You are
looking at it right there, Lamont Lewis.” Id.
The Government pushed back during its rebuttal,
acknowledging that recommending Lewis’s non-capital sentence required a “tough call,” but urging jurors

172a
to “remember [Lewis’s] testimony” when “comparing”
him to Savage:
He sat in this courtroom and he took responsibility for everything that he has ever done
wrong. He admitted he was wrong. He didn’t
say, “The rats had it coming.” He didn’t say his
problems were caused by rats. He admitted he
was the one who was at fault. He isn’t a danger
going forward. He told you that he had time to
reflect when he got to [jail] and realized the
magnitude of all of the harm that he had
caused. He does not have the vendetta going
forward that Kaboni Savage has. He is not trying to blame people on the outside for his situation. He is trying to take steps to try to get some
amends for what he has done. . . . Never going
to happen, but at least he’s trying. Also, remember that . . . Lamont Lewis did the . . . murders
under the direction and when ordered by Kaboni Savage. Kaboni Savage is the one who
wanted those people dead. . . . Lamont Lewis is
not seeking revenge. He’s not looking to kill witnesses. . . . Lamont Lewis is like a trigger on a
gun. Kaboni Savage is the trigger man.
Id. at 16764–66 (emphasis added).
As for Lewis’s criminal history, the prosecutor
noted Lewis “admitted it was wrong” after
ha[ving] time to reflect and think about what
he had done and to understand and appreciate
the magnitude of what he had caused. He told
you that’s one of the reasons he pled guilty.

173a
That’s one of the reasons when you’re considering comparing Lamont Lewis to Kaboni Savage,
that the two are not equally culpable. Remember that Lamont Lewis has been in federal custody since 2007. Did you hear one peep during
his testimony about him illegally using the legal mail or the legal phone calls to talk to, to
coordinate, to make—touch base with people on
the outside illegally? Not once. He did not order
any murders from prison. Kaboni Savage ordered two that ultimately resulted in seven
deaths. I say this not because Lamont Lewis is
an angel. He is not. He is a convicted killer of
multiple people. But when you’re comparing
the two, he is not the danger that Kaboni Savage is. Kaboni Savage is a danger going forward.
Id. at 16766–67 (emphasis added).
2
Savage contends that the prosecutorial comments
that we have underlined violated the Fifth and Sixth
Amendments by faulting Savage for not pleading
guilty and for failing to testify. But in context, the
statements he challenges weren’t about him at all; the
Government was merely rebutting defense counsel’s
suggestions of equal culpability and of future dangerousness by pointing to the fact of Lewis’s cooperation.
a
The parties again disagree about the standard of
review. The Government argues for abuse-of-discretion review, the usual standard when a defendant

174a
challenges a district court’s decision to allow or excuse
certain prosecutorial comment. See Moore, 255 F.3d
at 107. But Savage argues for the more exacting de
novo standard since these statements related to his
Fifth and Sixth Amendment rights. See Def. Br. 279
(citing United States v. Hardy, 37 F.3d 753, 756 (1st
Cir. 1994); United States v. Mayans, 17 F.3d 1174,
1185 (9th Cir. 1994)). We need not resolve the issue
since the prosecutor’s comments clear either hurdle.
b
The Government’s penalty-phase closing and rebuttal did not impermissibly trench on Savage’s Fifth
and Sixth Amendment rights. True, the Fifth Amendment does forbid prosecutors from commenting on a
defendant’s decision not to testify, just as the Sixth
Amendment forbids prosecutors from commenting on
a defendant’s decision to plead not guilty. See United
States v. Jackson, 390 U.S. 570, 581–83 (1968). But
prosecutors cross these lines only when they use language “manifestly intended” or “of such character that
the jury would naturally and necessarily take it to be
a comment on the failure of the accused to testify” or
plead guilty. United States v. Chaney, 446 F.2d 571,
576 (3d Cir. 1971) (internal quotation marks omitted)
(quoting Hayes v. United States, 368 F.2d 814, 816
(9th Cir. 1966)).
So we consider the specific statements that Savage
challenges. Here’s how he describes them in his brief:
“the prosecutor’s adverse references to Savage’s failure to ‘cooperate,’ ‘ple[a]d guilty,’ ‘t[ake] responsibility,’ and thus ‘get some amends for what he has

175a
done.’” Def. Br. 292 (underlining added) (alterations
in original).
None of these statements, nor all of them taken together, come close to violating Savage’s constitutional
rights. First of all, the underlined language does not
describe Savage’s failure to do anything. Rather, Savage plucks individual words and phrases from portions of the Government’s closing argument that highlighted the cooperation of Lewis. Hearken back to the
underlined language in the quotations. Fairly viewed
and read in context, rather than in sliced-and-diced
form, these statements focus on Lewis, explaining
why he wasn’t equally culpable and why he wouldn’t
pose a future danger. Savage’s invocation of the
equally culpable mitigator necessarily invites just
such testimony and argument.
And Savage offers no authority to support his constitutional injury-by-implication argument. Instead,
courts find a constitutional injury only when a prosecutor explicitly faults a defendant’s exercise of his
own constitutional rights. Lesko v. Lehman is just
such a case. There, a prosecutor impermissibly highlighted the defendant’s lack of remorse, “ask[ing] the
jury to consider [the defendant’s] ‘arrogance’ in taking
the ‘witness stand’ to present mitigating evidence
about his background, without even having the ‘common decency to say I’m sorry for what I did.’” 925 F.2d
1527, 1544–45 (3d Cir. 1991) (quoting trial transcript)
(describing “[t]he prosecutor . . . parod[ying] the gist
of [the defendant]’s testimony: ‘I don’t want you to put
me to death, but I’m not even going to say that I’m
sorry.’” (quoting trial transcript)). So too in United
States v. Whitten, where a prosecutor tried using a

176a
capital defendant’s own failure to take the stand to
discredit the defendant’s penalty-phase allocution.
610 F.3d 168, 198–200 (2d Cir. 2010) (restating “the
uncontroversial rule that prosecutors can emphasize
that an allocation is unsworn and uncrossed” but
holding the prosecutor’s remark that “[t]he path to
that witness stand has never been blocked for [the defendant]” could be understood as an impermissible
comment on the defendant’s failure to testify during
the guilt-phase trial).
If anything, the Government’s comments in this
case land closer to what was said in United States v.
Mikhel, where a prosecutor rebutted the “equally culpable” mitigator by asking the jury to “compare [the
cooperator’s] conduct with that of [the defendants]”
and noting the cooperator “led the FBI to bodies they
never would have found in this case.” 889 F.3d 1003,
1060 (9th Cir. 2018) (quoting trial transcript) (emphasis omitted). Judge Bybee explained these comments
did not violate the Fifth Amendment since they
“would[n’t] naturally and necessarily be understood
as commenting on defendants’ failure to testify.” Id.
(internal quotation marks omitted). So too here.
Viewed in their proper context, the challenged statements merely rebut both Savage’s “equally culpable”
mitigator stance and his argument concerning
Lewis’s future dangerousness. A jury would not naturally—and certainly not necessarily—take them as a
comment on Savage’s choice to exercise his constitutional rights.
And once again, any error in this regard would
have been harmless since the jury unanimously
agreed that the “equally culpable” mitigator did apply

177a
despite the prosecutor’s arguments to the contrary. In
that way, this case mimics United States v. Runyon,
where a prosecutor undercut the “equally culpable”
mitigator by pointing out that another defendant pled
guilty rather than forcing “a jury[ to] weigh in on all
the evidence and determine whether [he] was guilty.”
707 F.3d 475, 508 (4th Cir. 2013) (second alteration in
original). Without deciding whether this comment impermissibly shaded the defendant’s Fifth and Sixth
Amendment rights, the Fourth Circuit concluded that
any error would have been harmless beyond a reasonable doubt since the jury unanimously found the
“equally culpable” mitigator anyway. Id. at 510 (citing
Chapman v. California, 386 U.S. 18, 24 (1967)) (noting “[t]he list of aggravators and mitigators weighed
by the jury would thus have been identical with or
without the statements of which [the defendant] complains”).
*

*

*

In sum, the prosecutor rebutted the “equally culpable” mitigator without impermissibly faulting Savage for invoking his constitutional rights. And even
had he crossed the line, any error would have been
harmless because the jury still found for Savage on
the “equally culpable” mitigator.
F. The Government properly rebutted the
mitigators relating to Savage’s relationship with his family.
We turn to two nonstatutory mitigating factors
concerning Savage’s relationship with his family: that
“Savage has been a positive influence in the lives of
his children, niece, and nephew” and that “Savage can

178a
continue to be an important influence in the lives of
his children.” A2:790. Although the Government
sought to rebut these mitigators with testimony and
argument tending to show Savage had maintained little contact with his family, eight jurors still found the
first mitigator and four jurors found the second. Despite those findings, Savage now rehashes the prosecution’s rebuttal, arguing the Government violated
his constitutional rights by limiting his contact with
family while he was imprisoned, and then disparaging the limited nature of the familial relationships.
For analytical purposes, we separate his argument
into two claims: First, that the Government unconstitutionally interfered with his ability to develop mitigation evidence about family relationships; second,
that the Government’s rebuttal of the “familial relationship” mitigators unfairly characterized those relationships as limited.
Distilled to its essence, the first claim challenges
Savage’s confinement conditions. To be sure—and for
reasons previously explained—the Government
broadly circumscribed Savage’s ability to communicate generally with the outside world. Those restrictions reasonably related to legitimate penological
interests and, at all events, the record shows Savage
still had an adequate opportunity to develop and present mitigation evidence about his familial relationships.
The second claim boils down to allegations of improper cross-examination and prosecutorial argument. Here too, we discern no error. The challenged
cross-examinations reiterated facts the defense itself

179a
had already elicited, and the challenged argument appropriately rebutted the defense’s mitigation evidence.
1
The first claim—that the Government unconstitutionally interfered with Savage’s ability to develop
mitigation evidence about his familial relationships—
simply retreads disagreements over the time, place
and manner of Savage’s family visits. These disagreements began dring voir dire, and prompted a memorandum opinion from the District Court recognizing
that Savage needed “the opportunity to develop . . .
evidence” to “present at the sentencing phase of his
trial.” The District Court also agreed with the defense
that “the ability to visit with his children could impact
the preparation of [Savage]’s mitigation case.” A1:46–
48. The Judge ultimately refereed ongoing disputes
over the time, place and manner of the visitation
throughout the trial. Savage, however, was never satisfied.
One such example stems from the BOP’s confinement of Savage on FDC-Philadelphia’s maximum-security floor during the trial. Although the maximumsecurity floor had a visitation room, the BOP did not
allow the presence of minors on that floor. That led
defense counsel to demand either that the BOP make
an exception and allow Savage’s children onto the
maximum-security floor, or that the BOP transfer
Savage to another facility that could accommodate
minors’ visits under maximum-security conditions
(like, apparently, the Metropolitan Correctional Cen-

180a
ter in New York, where the BOP sometimes held Savage during breaks in his trial). For its part, the BOP
offered to shut down the entire lower-security floor’s
visitation area and to conduct the visit there. But because of the lower-security environment, the BOP
said Savage would have to be immobilized by keeping
him in a seated position. Defense counsel bristled,
protesting that “[t]hat is inappropriate to meet with
his children,” thereby precipitating an impasse that
went unresolved. A34:18080.
Yet we fail to see how this impasse amounts to a
constitutional deprivation. The defense team still
managed to arrange two occasions for the defense’s
expert social worker to observe Savage interacting
with his children. The social worker testified that she
had considered “a lot of evidence” and formed an educated opinion—an opinion that was very favorable to
Savage, and that went largely unchallenged by the
Government. A30:16264–68. She never suggested
that more observation would have changed her opinion, and Savage never specified what additional witnesses or information he was prevented from offering.
Although more familial contact may have strengthened his ability to build mitigation evidence generally, the same could be said for every capital defendant. The Constitution simply does not guarantee capital defendants unfettered access to their families.
At all events, to the extent Savage challenges the
BOP’s refusal to allow him to be unrestrained on a
lower-security floor, he is essentially challenging the
reasonableness of a prison regulation. But “restrictive
prison regulations are permissible if they are ‘reasonably related to legitimate penological interests[]’ and

181a
are not an ‘exaggerated response’ to such objectives.”
Beard v. Banks, 548 U.S. 521, 528 (2006) (citation
omitted) (quoting Turner v. Safley, 482 U.S. 78, 87
(1987)). Savage never explains why the BOP’s conditions violated this standard; indeed, Savage doesn’t
even cite the standard. That failure is fatal to his argument since “the prisoner ‘bears the burden of persuasion’ when he is challenging a regulation.” Sharp
v. Johnson, 669 F.3d 144, 157 (3d Cir. 2012) (quoting
Banks, 548 U.S. at 529).
We regard the BOP’s insistence on immobilizing
Savage in a seated position as well within bounds.
“[P]rison administrators are not required to use the
least restrictive means possible to further legitimate
penological interests,” Monroe v. Beard, 536 F.3d 198,
207 (3d Cir. 2008), and we “presum[e] that the prison
officials acted within their ‘broad discretion,’” Shaw v.
Murphy, 532 U.S. 223, 232 (2001) (quoting Thornburgh v. Abbott, 490 U.S. 401, 413 (1989)). “We must
accord substantial deference to the professional judgment of prison administrators, who bear a significant
responsibility for defining the legitimate goals of a
corrections system and for determining the most appropriate means to accomplish them.” Overton v.
Bazzetta, 539 U.S. 126, 132 (2003). Given Savage’s extraordinary history of initiating violent crime through
his contact with the outside world, we are especially
unwilling to second-guess the BOP’s assessment of
the risks Savage posed outside his specially modified,
maximum-security cell.
Savage’s proposed alternatives—allowing minor
children onto a maximum-security floor or transferring him to another facility—would “burden . . . prison

182a
resources.” Jones v. Brown, 461 F.3d 353, 360 (3d Cir.
2006). That factor, plus that Savage “retain[ed an] alternative means of” visiting his children and that no
“alternative” would “fully accommodate” Savage’s request “at de minimis cost to valid penological interests,” underscore the reasonableness of the BOP’s position. Id.
2
Next, Savage identifies four prosecutorial comments—two made during cross-examination and two
in closing arguments—which he contends improperly
exploited his restricted familial relationship.
a
Before we discuss the comments themselves, we
summarize the relevant portions of Savage’s mitigation case. The mother of one of Savage’s children described Savage as “a good father, a loving person, very
family-oriented,” and someone who “always wanted
all the kids . . . . to come over and spend time with
him.” A30:16224, 16228. She also testified that their
daughter Siani
loves her father very much. She wants to talk
to him. She wants to come visit him, but we haven’t been able to do that on a regular basis. . .
. Kaboni has always been a positive factor in his
daughter’s life. These negative things that people are bringing about is nothing that we have
witnessed, his daughter has not witnessed. He’s
been a positive influence on her.
...

183a
They have a bond with each other that just was
unbreakable. . . . [S]he loves him regardless of
anything that is happening in this case. This
has been her father since birth. She’s grown up
and basically looked up to him. He has been her
hero. She was daddy’s little girl from the beginning, so it’s really difficult and hard for her to
not have him around. She still loves him and
wants him in her life, and I want him to be part
of her life as well. He needs to be around. She
needs to have him in her life. She has to have
him in her life. She doesn’t want to function
without him in her life. She still goes to school
and does well anyway and gets good grades and
wants to make him proud, and that’s what she
focuses her goals on.
A30:16228–29, 16241–42.
Savage’s own mother similarly noted that Savage
still communicated with his children through letters,
and that “they love him so hard.” A31:16400.
Savage’s son Kaiion testified that before his father’s arrest, they “went out every weekend to the
movies” and that Savage “stayed on us all the time
about school” and “made sure he raised us like men.”
A31:16527. Kaiion also expressed a belief that despite
Savage’s incarceration, his father “c[ould] continue to
have influence in [his] life.” A31:16543.
Similarly, Savage’s nephew Yusef described a
“school project” from “2004” when he

184a
had to choose the person of the year, the person
who impacted [his] life the most, and [he] nominated [Savage] because of the role that [Savage] played on [him] and pushing [him] in [his]
education and stuff [Savage] taught [him]
about being a man and taking care of [his] family.
A30:15991–93.
The defense also introduced letters Savage wrote
to his children, niece and nephew over the years. That
said, Kaiion conceded during his testimony that he
“ha[dn’]t gotten a letter in a long time.” A31:16533.
To buttress the significance of Savage’s familial relationships, defense witnesses reiterated the barriers
Savage had to overcome to maintain contact with family. Both Kaiion and Savage’s sister Conchetta testified that Savage’s niece and nephew were not permitted to visit Savage since they were not his children.
Conchetta noted that it became much harder to communicate with Savage once the Government moved
him to ADMAX, and that Savage’s niece and nephew
communicated with him through phone calls and letters “up until the point where we could.” A30:15974.
The Government did little to refute this evidence.
Prosecutors briefly cross-examined Kaiion:
Q: Good afternoon, Mr. Savage.
A: How you doing.
Q: You are 17 years old?
A: Yes.

185a
Q: And your whole life, have you lived with your
mother?
A: Yes.
Q: Your mother has been your primary caregiver?
A: Yes.
Q: It’s safe to say that for most of your life your
father has been incarcerated, is that right?
A: Yes.
Q: On that letter that [defense counsel] just
showed you[,] there was no date on that letter?
A: No.
Q: But that letter was sometime within the last
year that that was written to you by your father?
A: No.
Q: Last—approximately when was it written, do
you know?
A: 2011, 2010, something like that.
Q: So sometime within the last couple of years, is
that correct?
A: Yes.
Q: Last two or three years?
A: Yes.
Q: Since he has been charged in this case?
A: Yes.
Q: And you are, as Mr. Savage’s son, you are allowed visits occasionally, right?

186a
A: Yes.
Q: You are allowed to have phone calls with your
father, right?
A: Yes.
Q: But despite that, you said you have not gotten
a letter from him in a long time?
A: No.
Q: How long has it been since you last got a letter
from your father?
A: Around like two, three years ago.
[Prosecutor]: Nothing further.
A31:16544–45. And when cross-examining Yusef, the
Government reiterated that his “Man of the Year”
project took place in 2004—a fact defense counsel had
already elicited. Compare A30:15991 (defense’s direct) (“Q: In 2004, did you in a school project put him
in for some sort of award? A: Yes.”), with A30:15998
(Government’s cross) (“Q: [Defense counsel] showed
us this certificate that you did for your uncle when
you were a young man, correct? A: Yes. Q: What’s the
date on that? A: December 8, 2004.”).
During its sentencing summation, the Government admonished the jury to “not allow [Savage] to
use his children as a mercy shield from imposing the
ultimate sentence.” A31:16683. And after the defense
summation had emphasized mitigating evidence involving Savage’s family, the prosecution used its rebuttal to remind the jury about the dearth of recent
correspondence, and to argue that “[w]hile his children are certainly innocent victims in all of this, his

187a
very limited relationship with them does not outweigh the horrific violence that he has caused.”
A31:16775.
b
Savage claims the following comments improperly
leveraged his restricted familial relationship against
him:
•

the Government’s cross-examination of Yusef,
which reiterated the “Man of the Year” school
project was in 2004;

•

the Government’s cross-examination of Kaiion,
which established Savage had not written him
in several years;

•

the Government’s summation comment that
Savage shouldn’t be able to use his children as
a “mercy shield”; and

•

the Government’s rebuttal assertion that Savage had a “very limited relationship” with his
children.

Savage concedes his trial counsel failed to object to
these comments, so we review them for plain error.
See Fed. R. Crim. P. 52(b). None clear that high bar.
First, the one-off question asked during Yusef’s
cross-examination and which reminded the jury that
Yusef’s school project nominating Savage as “Man of
the Year” took place back in 2004. But defense counsel
had already elicited this fact on direct examination,
so the Government’s query was not an error let alone
a plain one. See Glass v. Phila. Elec. Co., 34 F.3d 188,
194 (3d Cir. 1994) (citing Fed. R. Evid. 611(b)).

188a
Second, a fleeting comment during Kaiion’s crossexamination similarly rehashed a point already made
on direct examination. The jury knew from defense
questioning that Kaiion had admitted his father
hadn’t written him a letter “in a long time.”
A31:16533. Again, this cannot constitute error.
Third, there is also the “mercy shield” comment.
To be sure, the locution was derisive. But stripped of
its rhetorical gloss, the term merely underscored the
Government’s position that Savage’s relationship
with his children did not outweigh the aggravating
factors. The “mercy shield” reference may have been
a hard blow, but it is not one we can rule as a foul.
Finally, characterizing Savage’s parental relationship as “very limited” is innocuous. Savage’s limited
familial contact was hardly news to the jurors: the defense itself had cataloged the severe restrictions Savage faced and the strain those restrictions placed on
his familial relationships. In fact, much of Savage’s
mitigation case was an attempt to prove that familial
bonds remained despite the limited contact. How,
then, could it be plain error for the Government to
suggest that the same limited contact might cut
against mitigation? The prosecution was merely arguing a competing inference. See also 18 U.S.C. § 3593(c)
(“The government . . . shall be permitted to rebut any
information . . . and shall be given fair opportunity to
present argument as to the adequacy of the information to establish the existence of any aggravating
or mitigating factor . . . .”); United States v. Montgomery, 635 F.3d 1074, 1097–98 (8th Cir. 2011) (permitting the government to rebut a “familial relationship”
mitigator by disparaging the defendant’s parenting,

189a
including asking the defendant’s young daughter
whether the defendant had “ever apologize[d] for
what she put you and your siblings through”).
*

*

*

In sum, because the Government did not act to obstruct Savage’s opportunities to develop his mitigation case, and because the Government properly rebutted his argument supporting the “familial relationship” mitigators, there was no error.
G. The verdict sheet’s format did not violate
the Eighth Amendment.
Finally, we take up Savage’s argument that the
District Court constitutionally erred by producing a
verdict form “dramatically overemphasiz[ing]” the aggravating factors “while relegating” the mitigating
factors “to an afterthought.” Def. Br. 325. As the District Court correctly concluded, this argument lacks
both factual and legal merit.
Savage specifically faults the verdict form for
marching count-by-count through the various aggravating factors the Government offered while merely
enumerating the defense’s blanket list of mitigating
factors once at the end of the form. Alternatively, he
suggests the form could have listed the mitigating factors once if it had listed the aggravating factors only
once. The error, he contends, was “unfairly elevat[ing]
the significance of the aggravating factors by repeating them over and over while relegating the mitigating ones to a single, short list at the back of the form.”
Def. Br. 332.

190a
Once again, the parties do not agree on our standard of review. Though this claim deals solely with the
District Court’s verdict form, not its instructions, Savage analogizes to United States v. Sussman’s de novo
review of “a district court’s refusal to give a jury instruction on a defendant’s ‘theory of defense.’” 709
F.3d 155, 175 (3d Cir. 2013). But Savage isn’t arguing
that the District Court refused to include the mitigators on the form; he merely protests how the mitigators appeared on the form. So the closer analogy
would be to a “refusal to give a particular instruction
or the wording of instructions,” which Sussman reviewed for “abuse of discretion.” Id. (quoting United
States v. Jimenez, 513 F.3d 62, 74 (3d Cir. 2008)). The
Government offers United States v. Hedgepeth as
more support for abuse-of-discretion review. That
case involved a “District Court’s decision to submit a
special verdict form to the jury.” 434 F.3d 609, 612 (3d
Cir. 2006). And of course, applying the abuse-of-discretion standard here tracks how we review trial
management rulings generally. See, e.g., Duquesne
Light Co. v. Westinghouse Elec. Corp., 66 F.3d 604,
609 (3d Cir. 1995). Accordingly, we review Savage’s
challenge to the verdict form’s layout for an abuse of
discretion.
Yet the verdict form would pass muster under any
standard. Repeating the aggravating factors for each
count but listing the mitigating factors once at the end
makes sense both legally and factually.
Legally, a capital defendant’s default sentence is
life imprisonment. A death sentence can be reached
only after all twelve jurors find a statutory aggravator

191a
beyond a reasonable doubt. Sequentially, then, finding and weighing mitigating factors becomes important only after a jury has already found—unanimously—at least one aggravating factor. This means
that if jurors go through all capital counts without
finding a single aggravating factor, there is no need
for them to consider any mitigators. Their work is
over, and the defendant must receive a sentence of life
imprisonment. Listing the mitigators after the aggravators tracks this order of jury deliberations, and
should be of assistance to the jurors in their work.
This format makes good sense.
And viewed factually, it makes sense for two reasons. First, each of the thirteen capital counts had a
unique set of applicable aggravators; the Government
tailored thirteen separate lists, weaving different
statutory aggravators with different non-statutory
aggravators. But the defense sought to globally apply
the same general list of twenty mitigators to all
counts. So although the verdict form needed to specify
which aggravators applied to which counts, nothing
demanded repeating the twenty mitigators, count-bycount.
Second, and relatedly, the FDPA obliges jurors to
consider “any mitigating factor,” while limiting jurors
to the aggravating factors “for which notice has been
given.” § 3592(a), (c) (emphasis added). That means
the verdict form had to include several blank lines for
the jury to add any additional mitigators. So when the
District Court produced the verdict form, although a
certain subset of aggravators applied to each count, it
was not clear in advance how many mitigators might

192a
apply, and what mitigators might apply to what
counts.
Moreover, the District Court prevented any risk of
confusion by emphasizing the need to apply the mitigating factors to each capital count. On the verdict
form itself, prominent oversized text preceded the list
of mitigators and notified jurors that
IN CONSIDERING THE MITIGATING
FACTORS, YOU MUST KEEP IN MIND
THAT EACH MITIGATING FACTOR IS
ALLEGED WITH RESPECT TO EACH OF
THE CAPITAL COUNTS. IF YOU DETERMINE BY A PREPONDERANCE OF THE
EVIDENCE THAT A MITIGATING FACTOR IS PRESENT, THEN IT MUST BE
CONSIDERED IN THE WEIGHING PROCESS FOR EACH AND EVERY CAPITAL
COUNT.
A2:788. Elsewhere, the verdict form tasked jurors
with specifying “the number of jurors who have found
the existence of that mitigating factor to be proven by
a preponderance of the evidence with regard to each
of the capital counts.” Id. (emphasis added). And when
instructing the jury during the sentencing phase, the
District Court repeatedly highlighted the need for a
count-by-count analysis.
In sum, the District Court reasonably formatted
the verdict form to reflect this case’s unique factual
and legal circumstances. And it took several additional steps to ensure that jurors correctly understood
and followed the form. We commend the District
Judge for crafting and approving a verdict form that

193a
so intelligibly presented to the jurors the many difficult questions they were being asked to resolve. Nothing in the verdict form gave rise to legal error.
XII.

CONCLUSION

As Savage reminds us in his opening brief, “it has
been nearly a century since this Court last adjudicated a direct appeal in a capital case.” Def. Br. 1.
That passage of time has given rise to considerable
debate over the death penalty: Is it just? Is it moral?
Is it applied and administered in a manner that does
not discriminate on the basis of race? These and other
serious questions resound within the public square.
Yet none of those questions are what this Court is
called upon to resolve.
We have meticulously combed the very substantial
record provided us. We have given scrupulous attention to, and taken great care in resolving, each of the
issues brought before us. And we have done so with
what the late Justice Thurgood Marshall called “especial concern”—because, as he solemnly noted more
than three decades ago, “execution is the most irremediable and unfathomable of penalties.” Ford v. Wainwright, 477 U.S. 399, 411 (1986) (plurality opinion).
Exercising the heightened responsibility required
of us, we discern no grounds entitling Savage to relief
on any of the issues he raises. The judgment of the
District Court therefore will be affirmed.

194a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
UNITED STATES OF
AMERICA
v.

CRIMINAL ACTION
NO. 07-550

KABONI SAVAGE
MEMORANDUM
SURRICK, J.

SEPTEMBER 25, 2017

Presently before the Court is Defendant-Appellant Kaboni Savage’s Motion for a Complete and Accurate Record for Appeal. (ECF No. 1669.) For the
following reasons, Defendant’s Motion will be
granted in part and denied in part.
I. BACKGROUND
On May 13, 2013, a jury found Defendant Kaboni
Savage guilty of conspiring to participate in the affairs of a racketeering enterprise, in violation of 18
U.S.C. § 1962(d) (“RICO conspiracy”), twelve counts
of murder in aid of racketeering under 18 U.S.C. §
1959(a)(l), conspiracy to commit murder in aid of
racketeering under 18 U.S.C. § 1959(a)(5), retaliating against a witness under 18 U.S.C. § 1513(a), and
using fire to commit a felony, in violation of 18
U.S.C. § 844(h)(l). (Verdict Sheet, ECF No. 1330.)
Defendant was tried with three co-Defendants: his
sister, Kidada Savage; Robert Merritt; and Steven
Northington.

195a
Jury selection for the Fourth Superseding Indictment began on September 26, 2012. Opening statements commenced on February 4, 2013. The guilt
phase of the trial lasted approximately fourteen
weeks. During the trial, the Government presented
over 70 witnesses, over 1,000 exhibits, and numerous intercepted Title III wiretap conversations. All
of this evidence was used to establish the Government’s theory that Defendants, together with other
co-conspirators, participated in an overarching
RICO conspiracy involving drug distribution, murder, arson, witness tampering, and witness retaliation.
On May 13, 2013, the jury returned a verdict.
Savage was found guilty on all counts. On May 31,
2013, after a penalty phase hearing, the same jury
that determined his guilt sentenced Savage to death
on each of the thirteen death-eligible counts. (Sentencing Verdict, ECF No. 1434.) His sentence was
imposed on June 3, 2013. (Min. Entry, ECF No.
1443.).
A. Procedural History of Appeal
On September 29, 2014, Savage filed a notice of
appeal to the Third Circuit Court of Appeals. (ECF
No. 1591.) On October 23, 2014, Barry Fisher, Esquire, of the Public Defender Office for the Northern
District of New York (“Appellate Counsel”), was appointed to represent Savage during the appeals process.1 United States v. Savage, No. 14-9003 (3d Cir.).
In November 2014, January 2015, April 2015, July
1

Savage’s trial counsel were permitted to withdraw.

196a
2015, November 2015, December 2015, January
2016, February 2016, March 2016, and April 2016,
Savage requested extensions of time to file transcript purchase orders with the Third Circuit. Each
time, Savage’s request was granted. On May 13,
2016, Savage filed the transcript purchase order
form on the Third Circuit docket, advising the court
that transcripts were on file with the District Court.
On June 24, 2016, an Order was entered by the
Third Circuit setting July 25, 2016, as the deadline
by which Savage must file his brief on appeal. On
July 18, 2016, Savage filed a motion for a 180-day
extension of time to file his opening brief. On January 30, 2017, the Third Circuit entered an order consolidating Savage’s appeal with the appeals of his
co-Defendants and granted Savage’s request for a
stay of the briefing schedule. The parties were directed to file a proposed briefing schedule prior to
July 13, 2017. On July 13, 2017, Savage requested
that the Third Circuit stay its order requesting a
briefing schedule for an additional 90 days. Savage
contended that the stay is appropriate as he continues his attempts to construct the complete appellate
record. The Government opposed Savage’s request
for a stay. The Third Circuit has scheduled oral argument for September 27, 2017, on Savage’s request
to stay the briefing schedule.2

Oral argument will also address Savage’s motion for relief from
the Special Administrative Measures (“SAMs”) to which he is
subjected at the United States Penitentiary.

2

197a
B. District Court’s Assistance to Appellate
Counsel
From as early as December 2014, over ten members of the District Court staff, including members
of Judge Surrick’s Chambers, have assisted Defendant’s Appellate Counsel, Barry Fisher, Esquire, in
numerous requests for information, documents, and
transcripts. Chambers staff and Clerk’s Office staff
have been involved in collecting, copying, and producing documents for Fisher, and communicating
with him about his various requests.
In December 2014, upon the request of Appellate
Counsel, the Clerk’s Office immediately ordered the
official record of Savage’s criminal case from the
Federal Records Center and made it available for
Appellate Counsel's review. In mid-January 2015,
Appellate Counsel reviewed that file. He requested
that the Clerk’s Office make copies of numerous documents that comprised the record. The Clerk’s Office complied and sent boxes of documents via Federal Express to Appellate Counsel’s office in New
York.
Appellate Counsel also requested access to all
documents that were filed under seal, including any
sealed documents that related specifically to co-Defendants, including one co-Defendant, Mackie Dent,

198a
who was never charged with Savage in any indictment, and did not testify in Savage’s trial.3 Prior to
being given access to the actual documents, he was
permitted to review the expanded docket, which included detailed descriptions of each of the sealed
documents. Many of the sealed entries related to the
appointment of and the authorization of expenses
to, various experts and attorneys retained by Defendants. On May 20, 2016, the Court entered an
Order unsealing all of the sealed entries for the limited purpose of permitting Appellate Counsel access
to the documents. (ECF No. 1657.) After the Order
was entered, Clerk’s Office staff members immediately began locating and making copies of the 126
sealed documents, and sending them via Federal
Express to Appellate Counsel in his New York office. Only eight of those 126 sealed documents related to Savage specifically; the remaining documents were filed on behalf of his co-Defendants and
Mackie Dent.
The Clerk’s Office also complied with Appellate
Counsel’s request to transcribe over 30 proceedings
that had not yet been transcribed. Of those proceedings, only seven relate in any way to Savage’s case;
the remaining relate to co-Defendants, and five predate Savage even being named in an Indictment.

Dent was only charged in the First Indictment with Lamont
Lewis. Lewis entered into a plea agreement with the Government and testified as a Government witness. Savage was first
indicted in Second Superseding Indictment.

3

199a
Most of these transcripts appear to be wholly irrelevant to any appeal issues Savage could raise with
respect to his conviction and sentence.
Finally, in May 2017, Appellate Counsel requested access to the official record from Savage’s
2005 drug conspiracy case before Judge Mary
McLaughlin in the Eastern District of Pennsylvania. The Clerk’s Office staff ordered the file from the
Federal Records Center and notified Appellate
Counsel shortly thereafter that it was available for
his review. Despite access to the file being granted
over four months ago, Appellate Counsel has still
not visited the District Court to review the file.
III. DISCUSSION
Savage filed an appeal of his conviction and sentence nearly three years ago. Since that time, Appellate Counsel has spent more time “compiling the
record on appeal” than the District Court and the
parties spent on over 60 pretrial motions and associated hearings, a multi-month jury selection process, and a fourteen-week trial. Savage’s Motion inaccurately casts blame on the District Court and the
Government for not providing him with items he alleges are essential “for a complete and accurate” appellate record. We appreciate the fact that this was
a complex capital case, and that Appellate Counsel
is under an obligation to aggressively protect his client’s rights. For this reason, the District Court has
allocated countless hours and resources assisting
Appellate Counsel in obtaining every request he has
made to date. However, the continued and increasing demands of Appellate Counsel, when viewed in

200a
juxtaposition with his repeated continuance requests to the Third Circuit, suggest that this Motion
may simply be a tactic to further delay Savage’s appeal. This Motion is essentially an unprecedented
attempt to conduct a discovery fishing expedition on
a district court. Counsel seeks an inordinate
amount of information from this Court-including all
notes taken by the District Court Judge, all notes
taken by every attorney involved in the case, and
every e-mail that the District Court Judge’s staff exchanged with the parties. This information is unrelated to what comprises a record on appeal. See Fed.
R. App. P. lO(a). In addition, compiling this information would impose an extraordinary burden on
the District Court and the parties. Several of Savage's requests are reasonable and relate to information that comprises the record on appeal. These
requests will be granted. However, many of the requests find no support in the law and will be denied.
Appellate counsel requests that the following information be provided by the Court or the Government:
1. Documentary evidence introduced or published by the Government.
2. Recordings introduced or published by the
Government.
3. Tangible exhibits admitted or published by
the Government.
4. Exhibits introduced or published by the Defendants.
5. Written communications not filed on ECF.

201a
6. The District Court Judge’s notes and files, in
addition to an Order directing each attorney
to provide their notes and files.
7. Docket entries not yet received by Appellate
Counsel.
8. Lists of jurors in the case that reflect race and
gender.
9. An order from the Court directing that a corrected transcript be filed for April 8, 2013.
We will address each request separately.
A. Documentary Evidence Introduced or
Published By the Government
Appellate Counsel for Savage requests that the
Court compel the Government to provide a complete
set of the Government’s trial exhibits. Appellate
Counsel had requested that Government Counsel
copy its binder of all Government exhibits admitted
during the trial. The Government responded that
they did not have a binder that contained a complete
set of exhibits admitted at trial, and to recreate one
would entail great effort and expense on their part.
The Government offered to make available all Government exhibits that were admitted during the
trial for Appellate Counsel to review and copy at his
leisure.4 Appellate Counsel refused the Government’s offer, contending it was too burdensome in

The Government also reminded Appellate Counsel that he is
already in possession of every exhibit because each is contained

4

202a
light of the fact that Counsel is not based in Philadelphia. Counsel insists that the Court compel the
Government to undertake the copying and mailing
of its exhibits to Appellate Counsel.
Appellate Counsel’s refusal is disingenuous.
Even though he is based in New York, he has already traveled to Philadelphia for a number of other
reasons related to this appeal. Moreover, he has
even made requests in this Motion that require additional trips to Philadelphia.5 We are aware of no
authority, and Savage has provided none, that supports his request that the Government be compelled
to provide a complete set of admitted exhibits to Appellate Counsel. Accordingly, Savage’s request that
the Court enter an order compelling the Government to provide Appellate Counsel with these exhibits will be denied. The Government has offered to
make the exhibits available for Counsel’s review,
and should continue to do so.
B. Recordings Introduced or Published by
the Government
Savage also requests that the Court compel the
Government to provide the various recordings that
were played for the jury during the trial, including
in the discovery material provided to Counsel. The Government’s exhibit list, in most instances, identifies where in the discovery material the exhibit may be located.
For example, Savage requests that the Court compel the Government to permit his counsel to examine all tangible exhibits
admitted or published by the Government during the trial, including demonstrative or oversized exhibits. The examination
would necessarily have to take place in Philadelphia.

5

203a
the accompanying transcripts. The Government responds that in November 2014, it provided a DVD
disc containing all admitted recordings and transcripts, and that it never heard anything from
Counsel about that disc, or its contents, until this
Motion. After Savage filed the Motion, the Government sent another DVD disc containing all of the
recordings and transcripts. As a result, this request
appears to be moot.
C. Tangible Exhibits Admitted or Published by the Government
Savage also requests that the Government,
through the FBI, make available to Appellate Counsel all tangible exhibits-including the guns, drugs,
ammunition and cocaine presses-that were admitted during the trial. Savage contends that examination of these exhibits is “essential for [his] counsel
to familiarize themselves with the entire record on
appeal so that they can identify all viable appellate
claims.” (Savage Mot. 13.) Savage does not say how
examining tangible exhibits will assist in determining appellate issues. He seeks to compile an appellate record, not a trial record. His trial attorneys reviewed each tangible item prior to trial, and did not
file any motions in limine seeking to exclude their
admission at trial. Again, Savage has failed to provide any authority, and we are aware of none, that
would support this request. Each admitted tangible
exhibit is described on the record as reflected in the
trial transcripts. This is sufficient for purposes of
determining appellate issues. Accordingly, Savage’s
request that an Order be entered compelling the

204a
Government to provide every tangible exhibit admitted during trial for Appellate Counsel’s examination will be denied.
D. Exhibits Introduced or Published by Defendants
Savage requests that the Court make available
all exhibits introduced or published by Defendants.
Appellate Counsel contends that Savage’s trial
counsel, Christian Hoey, and counsel for co-Defendant Kidada Savage, Teresa Whalen, represented
that they provided all defense exhibits to the Court
“for safekeeping.” (Savage Mot. 14.) Counsel is mistaken. The only defense exhibits that the Court
agreed to store, and indeed is in possession of, are
Defendants’ oversized demonstrative poster boards.
Generally, the policy of the Clerk of Court is to deny
requests by parties to store exhibits. It is the responsibility of counsel to store exhibits. Appellate
Counsel may examine the oversized demonstrative
poster boards that the Court has in its possession.
It is the Court’s understanding that Appellate
Counsel will be in Philadelphia for oral arguments
scheduled in the Third Circuit on September 27,
2017. We will make these exhibits available for Appellate Counsel’s review on that day. Counsel
should contact Chambers to set up a convenient
time for his review.

205a
E. Written
Communications
(Letters,
Emails, Courtroom Submissions, and
Other Communications) Not Filed on
ECF
Savage also requests “letters, courtroom submissions, e-mails and other written communications
between counsel and the Court.” (Savage Mot. 15.)
This request constitutes an unprecedented and unfounded discovery request on a district court. Savage contends that these communications involved
substantive legal issues. This is simply incorrect.
The Court has already explained to Counsel that
any substantive matters that involved any aspect of
this case are reflected on the docket.
In any event, the e-mails and correspondence at
issue do not constitute the record on appeal. Rule
l0(a) of the Federal Rules of Appellate Procedure defines the record on appeal. It provides:
(a) Composition of the Record on Appeal . The
following items constitute the record on
appeal:
(1) the original papers and exhibits filed in
the district court;
(2) the transcript of proceedings, if any;
and
(3) a certified copy of the docket entries
prepared by the district clerk.
Fed. R. App. P. l0(c). All of the documents reflected
in Rule l0(c) have been provided to Appellate Counsel.

206a
Savage argues that he is entitled to this discovery under Appellate Rule 10(e), which provides a
mechanism to correct or modify a record on appeal
“[i]f any difference arises about whether the record
truly discloses what occurred in the district court . .
. .” Fed. R. App. P. 10(e)(1). This Rule presupposes
an actual omission or mistake reflected in the record
on appeal. Fed. R. App. P. 10(e)(2) (“If anything material to either party is omitted from or misstated in
the record by error or accident, the omission or misstatement may be corrected.”). Rule 10(e) does not
broaden what constitutes the record on appeal, as
stated in Rule 10(a). Nor does it allow for unbridled
discovery on a district court. The cases relied upon
by Savage simply do not support this extraordinary
discovery request. (See Savage Mot. 8 n.6.)6 Savage’s request for written communications not filed
on ECF will be denied.

For example, in Dobbs v. Zant, 506 U.S. 357, 358 (1993), a death
penalty case, the Supreme Court reversed the Eleventh Circuit’s
decision to not consider the sentencing transcript on habeas review, noting the “importance of reviewing capital sentences on a
complete record.” Unlike in Dobbs, in Savage’s case, the complete
pre-trial, trial, and sentencing proceedings were transcribed and
made part of the docket. Dobbs does not support Savage’s request for unfettered access to District Court files. In Roberts v.
Ferman, 826 F.3d 117, 123 (3d Cir. 2016), the court addressed
the failure of a party to comply with Rule 10(c) in producing a
statement after it was discovered that the actual trial transcripts could not be found. Here, every substantive aspect of this
case is transcribed and reflected on the docket: the pretrial hearings, the jury voir dire, the trial, including all substantive sidebar conferences, and each Defendant’s sentencing. In Simmons
v. Beyer, 44 F.3d 1160, 1168 (3d Cir. 1995), a case that did not
6

207a
F. The Court’s Files and an Order Directing
Production of Files of Attorneys
Savage also requests the personal notes and files
of the District Court Judge, and of every attorney
involved in the case. Specifically, Appendix E to
Savage’s Motion is a list of nearly fifty “sidebars,
conferences, and other unrecorded proceedings”
that Savage believes should have been transcribed.
Because they were not transcribed, he requests “the
notes or other records” drafted by the District Court
and every attorney that participated in the case
“memorializing, summarizing, or otherwise documenting these, or any other, sidebars, conferences,

even discuss Rule 10, the court held that the appellant sufficiently raised a Batson claim despite the absence of voir dire
transcripts. Simmons is inapposite to this case. The case United
States v. Negron-Sostre, 790 F.3d 295, 300-06 (1st Cir. 2015), is
unrelated to the issues presented here. In that case, the First
Circuit ordered a new trial after finding that the district court
erred by closing the courtroom during jury selection. Id. The case
has nothing to do with the record on the appeal, supplementing
that record, or Federal Appellate Rule 10. In United States v.
Moreno, 857 F.3d 723, 727 (5th Cir. 2017), the court rejected the
appellant’s argument that the court showed deference to the
Government as revealed by an e-mail that was never made a
part of the record. Moreno does not authorize discovery, nor does
it address what may or may not be made part of a record on appeal. Moreno has no application here. Savage has not alleged
that there are omissions from the record. He has not identified a
single document that is not reflected on the docket that should
be made a part of the record. Instead, he asks for access to every
document or communication ever made about this case. Such
broad discovery on a district court is simply not permitted.

208a
and other such unrecorded proceedings.” (Savage
Mot. 21.)
Most of the Chambers conferences or telephone
conferences dealt with scheduling issues. Eleven attorneys were involved in the case, and coordinating
everyone’s schedules consumed substantial time
and effort. Contrary to Appellate Counsel’s representation, sidebar conferences that involved substantive matters such as evidentiary objections
were transcribed and are reflected in the trial transcripts that are published on the docket. In the
event that any sidebar conference may have touched
on substantive matters, the Court and the parties
were diligent in assuring that the record reflected
those matters. (See, e.g., April 24, 2013 Trial Tr.
118-119, ECF No. 1393.) In those limited instances,
whatever was discussed off the record was restated
on the record and transcribed. (Id.)
Even if the unrecorded “proceedings” were substantive or relevant, there is a procedure available
to Appellate Counsel in the Federal Rules. Specifically, Rule 10(c) provides as follows:
(c) Statement of the Evidence When the
Proceedings Were Not Recorded or When
a Transcript is Unavailable. If the transcript of a hearing or trial is unavailable, the
appellant may prepare a statement of the evidence or proceedings from the best available
means, including the appellant’s recollection.
The statement must be served on the appellee, who may serve objections or proposed
amendments within 14 days after being

209a
served. The statement and any objections or
proposed amendments must then be submitted to the district court for settlement and approval. As settled and approved, the statement must be included by the district clerk in
the record on appeal.
Fed. R. App. P. 10(c). In the event that Savage believes that any of the fifty “unrecorded proceedings
and conferences” involved substantive matters, he
may submit a statement in accordance with Rule
10(c). Nowhere in Rule 10(c), however, or in any of
the Federal Rules for that matter, are litigants entitled to discovery from a district court or from attorneys. See, e.g., United States v. Casa, 376 F.3d
20, 22-23 (1st Cir. 2004) (denying the appellant’s request to internal court memoranda drafted by district court judgment because (1) they are confidential, (2) there is no authority that supports production of the memoranda, and (3) memoranda are not
a part of the district court record, as defined by Rule
10(a) of the Federal Rules of Appellate Procedure);
United States v. Hanken, 477 F. Supp. 2d 1004, 1006
(N.D. Iowa 2007) (“Nothing in [Rule 10(c)], however,
suggests that the appellant is entitled to discovery
of the appellee’s (or the court’s) notes, memoranda,
or other records concerning the proceedings in question; instead the Rule contemplates that the appellant will rely on the ‘best available means’ at his
disposal, ‘including the appellant’s recollection.’”).
Savage has not cited, and indeed, the Court has not
found, any authority that would permit discovery
from this Court or from the attorneys involved in

210a
the case. Accordingly, Savage’s request for discovery of this information will be denied.
G. Items Listed on the Docket Not Yet Received
Savage also requests access to documents reflected on the docket but that he has not yet received. Specifically, he requests 30 items from the
docket. Twenty-three of these documents are minute sheets, which are internal court documents
that are meant to reflect time spent for purposes of
reporting to the Administrative Office. In most instances, the information that is contained in the minute sheet is also reflected on the minute entry for
that minute sheet.
District Court staff searched its internal files
and searched the official records that were ordered
from off-site. Based on that search, many of the
missing docket items will be provided to Appellate
Counsel. Some of the items were not located and
cannot be provided. Most of the missing items are
minute sheets from the years 2007 through 2012,
before district courts in this District made it a practice to upload minute sheets for viewing on the
online public dockets. Thus, in all likelihood, those
minute sheets were lost or do not exist.
H. Jury Lists
Savage requests that the Court provide Appellate Counsel with:
any lists (including lists reflecting race and
gender), which it or its staff possess of (a) the

211a
seated jurors, (b) the jurors who were peremptorily struck by each side, (c) the jurors who
appeared for voir dire, and (d) the jurors who
were summoned.
(Savage Mot. 22.) We note that this reads like a discovery request on a district court, which is improper. However, we agree with Savage that jury
composition could serve as an appellate issue since
jury composition was raised by defense in pretrial
motions. Accordingly, we will provide Appellate
Counsel and the Government a list of all jurors that
reported for duty in this case. Because an anonymous jury panel was maintained throughout the
jury selection process and trial, the names and identifying information about the jurors have been omitted. Included on the list is the following information: (1) juror number; (2) age; (3) marital status;
(4) county; (5) race; and (6) gender. Appellate Counsel may refer to the docket and the jury selection
transcripts for information about which of these jurors were seated, peremptorily struck, or appeared
for voir dire.
I. An Order Directing that a Corrected
Transcript be Filed for April 8, 2013
Finally, Savage asks that the Court compel the
Court Reporter that transcribed the trial on April 8,
2013, to file a corrected transcript. Specifically, Savage argues that “a slight but potentially significant
transcription error” occurred on this date. (Savage
Mot. 22.)

212a
The portion of the transcript comprises testimony by a Government witness, Bienvenido Morales. Morales testified that Savage’s co-Defendant,
Robert Merritt, confided in him about the fire-bombing. Morales states:
Like I said, [Merritt] never said he burned he said he was the driver. He said, they were
supposed to burn the house down to square
Twin’s family to stop Twin from testifying and
whoever else thought about telling on Kaboni.
(April 8 Trial Tr. 73-74, ECF No. 1379 (emphasis
added).)
Savage believes that Morales stated that burning down the house was to “scare” Twin’s family,
and not to “square” Twin’s family. The proceedings
that occurred on this day were transcribed by the
Court Reporter; no recording of them exists. Therefore, the Court has no way to independently confirm
Morales’ testimony. After transcripts are provided
to the parties, counsel are permitted to submit any
corrections prior to the final transcripts being filed
on the docket. No corrections were submitted with
respect to the April 8, 2013 transcript. Now, over
four years later, Appellate Counsel wishes to make
a correction. It seems likely that Morales said
“scare” as opposed to “square.”7 However, the Court

However, one definition of “square” includes “to even the score
of.” Merriam-Webster’s Dictionary (10th ed.) at 1137. Although
unlikely, Morales could have meant square given the context of
his testimony.

7

213a
has no ability to confirm the alleged mistake. Accordingly, Savage’s request for an Order compelling
the Court Reporter to file a corrected transcript will
be denied. We will reconsider this ruling if all counsel agree that this was a transcription error.
IV. CONCLUSION
For these reasons, Defendant-Appellant Kaboni
Savage’s Motion for a Complete and Accurate Record for Appeal will be granted in part and denied in
part.
An appropriate Order follows.
BY THE COURT:
/s/ R. Barclay Surrick, J.
R. BARCLAY SURRICK, J.

214a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
UNITED STATES OF
AMERICA

CRIMINAL ACTION

v.

NO. 07-550

KABONI SAVAGE
ORDER
AND NOW, this 25th day of September, 2017,
upon consideration of Defendant-Appellant Kaboni
Savage’s Motion for a Complete and Accurate Record for Appeal (ECF No. 1669), and all documents
submitted in support thereof, and in opposition
thereto, it is ORDERED that the Motion is
GRANTED in part, and DENIED in part, consistent with the accompanying Memorandum.
IT IS SO ORDERED.
BY THE COURT:
/s/ R. Barclay Surrick, J.
R. BARCLAY SURRICK, J.

215a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 14-9003
UNITED STATES OF AMERICA,
v.
KABONI SAVAGE,
Appellant
(D.C. Civ./Crim. No. 2-07-cr-000550-003)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, BIBAS, PORTER, MATEY, PHIPPS, and FUENTES* Circuit
Judges
The petition for rehearing filed by appellant in
the above-entitled case having been submitted to
the judges who participated in the decision of this
Court and to all the other available circuit judges of
The vote of the Honorable Julio M. Fuentes, Senior Judge of
the United States Court of Appeals for the Third Circuit, is limited to panel rehearing.

*

216a
the circuit in regular active service, and no judge
who concurred in the decision having asked for rehearing, and a majority of the judges of the circuit
in regular service not having voted for rehearing,
the petition for rehearing by the panel and the
Court en banc, is denied.
BY THE COURT,
s/ D. Brooks Smith
Chief Judge
Dated: October 30, 2020
Sb/cc: All Counsel of Record

217a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 14-9003
UNITED STATES OF AMERICA,
v.
KABONI SAVAGE,
a/k/a Joseph Amill,
a/k/a Bonnie,
a/k/a Usef Billa,
agent of Dirt,
agent of Bighead,
Appellant
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
District Court No. 2-07-cr-000550-003
District Judge: The Honorable R. Barclay Surrick
Argued January 7, 2020
Before: SMITH, Chief Judge, JORDAN, and
FUENTES, Circuit Judges
JUDGMENT

218a
This cause came on to be considered on the record from the United States District Court for the
Eastern District of Pennsylvania and was argued on
January 7, 2020. On consideration whereof, it is
now ADJUDGED and ORDERED that the judgment of the District Court entered September 17,
2014, be and the same is hereby AFFIRMED.
All of the above in accordance with the opinion of
this Court.
Attest:
s/ Patricia S. Dodszuweit
Clerk
DATED: August 11, 2020

219a
APPENDIX F
RELEVANT STATUTORY PROVISIONS
Federal Rule of Appellate Procedure 10.
Rule 10. The Record on Appeal
(a) Composition of the Record on Appeal. The following items constitute the record on appeal:
(1) the original papers and exhibits filed in the
district court;
(2) the transcript of proceedings, if any; and
(3) a certified copy of the docket entries prepared
by the district clerk.
(b) The Transcript of Proceedings.
(1) Appellant’s Duty to Order. Within 14 days after filing the notice of appeal or entry of an order
disposing of the last timely remaining motion of
a type specified in Rule 4(a)(4)(A), whichever is
later, the appellant must do either of the following:
(A) order from the reporter a transcript of
such parts of the proceedings not already on
file as the appellant considers necessary, subject to a local rule of the court of appeals and
with the following qualifications:
(i) the order must be in writing;
(ii) if the cost of the transcript is to be paid
by the United States under the Criminal
Justice Act, the order must so state; and

220a
(iii) the appellant must, within the same
period, file a copy of the order with the district clerk; or
(B) file a certificate stating that no transcript
will be ordered.
(2) Unsupported Finding or Conclusion. If the
appellant intends to urge on appeal that a finding or conclusion is unsupported by the evidence
or is contrary to the evidence, the appellant must
include in the record a transcript of all evidence
relevant to that finding or conclusion.
(3) Partial Transcript. Unless the entire transcript is ordered:
(A) the appellant must—within the 14 days
provided in Rule 10(b)(1)—file a statement of
the issues that the appellant intends to present on the appeal and must serve on the appellee a copy of both the order or certificate
and the statement;
(B) if the appellee considers it necessary to
have a transcript of other parts of the proceedings, the appellee must, within 14 days
after the service of the order or certificate and
the statement of the issues, file and serve on
the appellant a designation of additional
parts to be ordered; and
(C) unless within 14 days after service of that
designation the appellant has ordered all
such parts, and has so notified the appellee,
the appellee may within the following 14 days
either order the parts or move in the district

221a
court for an order requiring the appellant to
do so.
(4) Payment. At the time of ordering, a party
must make satisfactory arrangements with the
reporter for paying the cost of the transcript.
(c) Statement of the Evidence When the Proceedings
Were Not Recorded or When a Transcript Is Unavailable. If the transcript of a hearing or trial is unavailable, the appellant may prepare a statement of
the evidence or proceedings from the best available
means, including the appellant’s recollection. The
statement must be served on the appellee, who may
serve objections or proposed amendments within 14
days after being served. The statement and any objections or proposed amendments must then be submitted to the district court for settlement and approval. As settled and approved, the statement
must be included by the district clerk in the record
on appeal.
(d) Agreed Statement as the Record on Appeal. In
place of the record on appeal as defined in Rule
10(a), the parties may prepare, sign, and submit to
the district court a statement of the case showing
how the issues presented by the appeal arose and
were decided in the district court. The statement
must set forth only those facts averred and proved
or sought to be proved that are essential to the
court’s resolution of the issues. If the statement is
truthful, it—together with any additions that the
district court may consider necessary to a full
presentation of the issues on appeal—must be ap-

222a
proved by the district court and must then be certified to the court of appeals as the record on appeal.
The district clerk must then send it to the circuit
clerk within the time provided by Rule 11. A copy of
the agreed statement may be filed in place of the
appendix required by Rule 30.
(e) Correction or Modification of the Record.
(1) If any difference arises about whether the
record truly discloses what occurred in the district court, the difference must be submitted to
and settled by that court and the record conformed accordingly.
(2) If anything material to either party is omitted
from or misstated in the record by error or accident, the omission or misstatement may be corrected and a supplemental record may be certified and forwarded:
(A) on stipulation of the parties;
(B) by the district court before or after the record has been forwarded; or
(C) by the court of appeals.
(3) All other questions as to the form and content
of the record must be presented to the court of
appeals.

